<html>
<title> - OVERSIGHT OF THE U.S. COAST GUARD</title>
<body><pre>[Senate Hearing 111-480]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-480
 
                   OVERSIGHT OF THE U.S. COAST GUARD 

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-264 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             JOHNNY ISAKSON, Georgia
JOHN F. KERRY, Massachusetts         DAVID VITTER, Louisiana
BARBARA BOXER, California            MEL MARTINEZ, Florida
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 7, 2009.....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Wicker......................................     5
Statement of Senator Begich......................................     5

                               Witnesses

Admiral Thad W. Allen, Commandant, U.S. Coast Guard, Department 
  of Homeland Security...........................................     6
    Prepared statement...........................................     8
Stephen L. Caldwell, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    15
    Prepared statement...........................................    17

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    69
Fleet Reserve Association, prepared statement....................    70
Response to written questions submitted to Admiral Thad W. Allen 
  by:
    Hon. John D. Rockefeller IV..................................    75
    Hon. Maria Cantwell..........................................    77


                   OVERSIGHT OF THE U.S. COAST GUARD

                              ----------                              


                         TUESDAY, JULY 7, 2009

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. The Senate Committee on 
Oceans, Atmosphere, Fisheries, and Coast Guard will come to 
order.
    I'd like to welcome our witnesses, Admiral Thad Allen, 
Commandant of the U.S. Coast Guard, and Mr. Stephen Caldwell, 
Director of the Maritime Security and Coast Guard Issues at 
GAO. I look forward to hearing your testimony on the ongoing 
operations of our Nation's Coast Guard.
    There are three important issues I hope we can focus on in 
today's oversight hearing: balancing homeland security and 
traditional missions, Deepwater and comprehensive acquisition 
reform, and building the modernized Coast Guard of the future.
    In 2008, the Coast Guard saved over 4,000 lives, 
confiscated a record 167 metric tons of cocaine, and 
interdicted 5,000 undocumented migrants on the high seas. These 
are impressive accomplishments. But, what often goes 
unrecognized is the importance of the everyday work the Coast 
Guard does to keep our Nation's maritime running. For example, 
in the--my home State of Washington, the Ports of Seattle and 
Tacoma, combined, are responsible for over 75 billion in trade 
and create over 300,000 jobs.
    Whether it's the maintenance of navigation buoys, the 
inspection of ships, the prevention of oil spills, it is the 
everyday mission of the Coast Guard that makes these hundreds 
of thousands of jobs and tens of billions in economic trade 
possible.
    The Coast Guard's homeland security activities are also 
vital to our Nation's safety and well-being, but it is the 
traditional missions of the Coast Guard that allow the engine 
of our maritime economy to keep functioning each and every day.
    Last summer, we saw what could happen when mistakes happen 
in the maritime world. On July 23, 2008, over 400,000 gallons 
of oil spilled into the Mississippi River near New Orleans, 
closing the vital waterway for nearly 100 miles, choking off 
one of our Nation's major arteries of commerce. To put this 
tragedy in perspective, the economic loss from a total shutdown 
of the Port of New Orleans would cost our Nation's economy 
around $275 million a day.
    The economic stakes of the Coast Guard successfully 
fulfilling its mission, both traditional and homeland security, 
are huge. Therefore, it is essential that--it is essential to 
strike the right balance among the Coast Guard 
responsibilities.
    As a Nation, we also rely on the Coast Guard to be a 
responsible steward of our taxpayer dollars. The Coast Guard's 
Deepwater Program has been a stern lesson in the waste that can 
happen when government abandons time-tested principles of 
accountability and thorough oversight. I'm happy to see that we 
have made some progress, but I must say, I am nowhere near 
satisfied, and will continue to hold the Coast Guard 
accountable for the taxpayers' dollars that we are giving for 
the Deepwater Program.
    Additional problems continue to come to light. A GAO 
report, released in April, indicated that the Deepwater costs 
could top $26.3 billion as the Coast Guard develops its own 
cost baselines. This represents a $1.2-billion increase from 
2007 estimates. There is clearly still an urgent need for 
comprehensive statutory reform in the Coast Guard's major 
acquisition framework.
    On July 4, Senator Snowe, Senator Hutchison, and Chairman 
Rockefeller joined me in introducing S. 1194, the Coast Guard 
Authorization Act for Fiscal Year 2010 and 2011, which, if 
enacted, would reform the Coast Guard's acquisition program. 
This legislation is long overdue, and I look forward to working 
with my colleagues in the Administration to ensure that it is 
enacted into law without further delay.
    Finally, the Coast Guard continues with its modernization 
project and restructuring. It is critical--it is critically 
important for us to understand how these sweeping changes will 
impact the service's present and future, and the capability and 
readiness of the Coast Guard. This is particularly important in 
light of GAO's finding that the Coast Guard does not have 
metrics by which it can determine if the organizational changes 
under modernization are successful.
    We need to make sure the Coast Guard of tomorrow has the 
assets and capabilities to meet newly emerging missions, like 
in the Arctic. The Coast Guard and the Obama Administration 
need to take the looming challenges presented by global climate 
change in the Arctic region very seriously. Meeting these new 
challenges in the Arctic will take major policy choices, 
assets, and dollars. To make the progress we need, Congress 
needs to see these things reflected in the President's budget 
as a major national priority.
    I look forward to discussing these issues further, and I 
appreciate Admiral Allen and Mr. Caldwell for being here today 
to speak on these important issues. As the Coast Guard 
Authorization Act progresses through the Committee and the 
legislative process, I hope we can work together to provide the 
men and women of the Coast Guard with the legislative backing 
they need and deserve, and to improve the system that we have 
currently in place.
    Now I'd like to ask Senator Snowe if she'd like to make a 
opening statement.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Yes, thank you, Chair Cantwell, for calling 
this hearing today to discuss the future of our of our Nation's 
most versatile service branches, the U.S. Coast Guard.
    And as a Senator representing a State that heavily depends 
on the ocean, and thus the Coast Guard's stewardship, I truly 
appreciate the service that you have rendered, Admiral Allen, 
and all the men and women who work in your service.
    I am keenly aware of the service's remarkable contributions 
to the Nation's safety, security, and economic viability and 
look forward to discussing the challenges and the opportunities 
the Coast Guard will confront in this coming year.
    Admiral Allen, when you first assumed the role of Coast 
Guard Commandant in 2006, one of your highest priorities for 
your tenure at the helm was the modernization of the Coast 
Guard's command structure. And once again, in this Congress, as 
Senator Cantwell has already indicated, we've introduced 
legislation, which hopefully we'll mark up tomorrow, that would 
provide the essential authorities to undertake the realignment 
of leadership positions necessary to continue to making that 
vision a reality. We must ensure that the service is prepared 
to minimize the upheaval that will inevitably result from these 
changes, and that adequate plans are in place to measure 
performance under the new system and make the requisite 
readjustments.
    Mr. Caldwell, I also appreciate you joining us here today. 
I think the Government Accountability Office has truly been 
very important and valuable in providing perspective on these 
and so many other issues facing the Coast Guard.
    The Coast Guard is tasked with sweeping mandates, and I'm 
not convinced that the Administration's budget for the Fiscal 
Year 2010--$9.9 billion will provide the kind of funding 
necessary to meet the broad suite of responsibilities that the 
Coast Guard is required to carry out.
    In 2008, the Coast Guard saved over 4,000 lives, prevented 
400,000 pounds of illegal drugs, over 5,000 illegal immigrants 
from reaching our shores. This is in addition to conducting 
security patrols, fishery boarding--vessel inspections, 
responding to oil and chemical spills, maintaining over 50,000 
aids to navigation, and, of course, as well, the homeland 
security responsibility in providing port security and 
protecting this country from the vulnerability of terrorist 
threats.
    The value of these actions to the Nation is immeasurable. 
And yet, despite this ever-increasing range of responsibility, 
the number of servicemen and -women serving in the Coast Guard 
has not appreciably increased in decades. In 1980, there were 
approximately 39,400 Active-Duty personnel, and today that 
number has grown less than 8 percent, at 42,600. And so, while 
no one questions your service's commitment to duty, Admiral 
Allen, cracks are beginning to show in the Coast Guard's 
foundation, both literally and figuratively. Personnel 
deficiencies have led to a drastic backlog of rulemaking and 
mariner license applications. And, according to an independent 
report commissioned to investigate the tragic sinking of the 
fishing vessel PATRIOT off Gloucester, Massachusetts, last 
January, a watchstander error resulting in part from a lack of 
training was a likely contributor to delays in executing the 
Coast Guard's search-and-rescue mission.
    In addition to the shortage of personnel, the Coast Guard 
vessels and infrastructure are drastically in need of a 
concerted repair and recapitalization effort. The average age 
of the Coast Guard shoreside facilities is 43 years, nearly as 
old as its vessels. And yet, the President's budget requested a 
mere $6 million for shoreside maintenance. This, despite the 
Coast Guard's estimates made during the American Recovery and 
Reinvestment Act that its maintenance backlog exceeded $3.5 
billion worth of projects. So, those numbers truly speak for 
themselves.
    In terms of deployable assets, this committee has spent a 
considerable amount of time over the past several years 
attempting to put the 25-year--$25-billion Deepwater 
Acquisition Program back on track. I commend you for the steps 
that you have taken and asserted during your tenure to correct 
some of the mistakes of the past. And I believe the program is 
in much better shape than it was when you assumed your current 
role.
    The first National Security Cutter is now operational, and 
the second and third ships are under construction. The Coast 
Guard conducted a full and open competition for a contract to 
build the first Fast-Response Cutter, actions that will quickly 
reduce the fleet's average age. And yet, given the program's 
history, and, it must be said, the history of Federal 
acquisitions programs, we're ensuring, in the reauthorization, 
that we'll prevent the repetition and the mistakes of the 
program's past and secure the path to a recapitalized fleet of 
vessels and aircraft that meet the requirements of the service 
and provide value to the American taxpayer.
    Yet, as we proceed down the path toward deployment of new 
Deepwater assets, the delays we have already experienced have 
put the service in a bind regarding its legacy ships. In 
particular, the 378-foot high-endurance cutter, averaging 40 
years old, have encountered a string of breakdowns and mishaps 
leading to a current operational picture in which fully one-
third of these ships are in the yard for unscheduled 
maintenance. And yet, in the President's budget request for 
Fiscal Year 2010, it doesn't allocate one dollar to the 
sustainment of this fleet, our primary responders for long-
range counterdrug, migrant, illegal fishing, and terrorism 
enforcement.
    So, I think the common theme year after year has been that 
we ask more of the Coast Guard, with less support. And 
obviously, something has to change in the budget request. We 
cannot continue to heap mission upon mission without increasing 
the service's resources and expect those critical tasks to be 
carried out with the same degree of effectiveness upon which we 
have become dependent.
    So, Admiral Allen and Mr. Caldwell, I thank you once more 
for being here today, for answering our questions, and we 
appreciate the contributions that you're both making.
    Thank you, Chair Cantwell.
    Senator Cantwell. Thank you, Senator Snowe, and thank you 
for being here so we can have this hearing this morning.
    And I thank my colleagues. Before we get to the Commandant 
and Mr. Caldwell, would you like to make any kind of opening 
statement, Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, thank you, Madam Chair. And I want to 
thank you for being so prompt in gaveling the hearing to an 
opening.
    And I want to thank our witnesses for being here. I look 
forward to their testimony. And I thanked them already for 
their service.
    The Coast Guard is a critical part of our Nation's law 
enforcement and homeland security systems. And, while perhaps 
in Mississippi, we don't have the number of miles of coastline 
that our Chair and Ranking Member have, or the Senator from 
Alaska, we do have an appreciation in Mississippi of the good 
work the Coast Guard does to provide maritime safety, security, 
and mobility.
    My statement will be brief, but I want to say this 
publicly. In the aftermath of Hurricane Katrina, Mississippians 
saw the Coast Guard in action and at its best, and we 
appreciate that. Of the estimated 60,000 people that needed to 
be rescued from rooftops and flooded homes during the storm, 
the men and women of the Coast Guard saved more than 33,500. 
That consisted of rescuing over 24,000 lives from peril and 
evacuating over 9,400 medical patients to safety. That rescue 
and response during Katrina amounted to some of the largest in 
Coast Guard history, involving units from every district, as 
well as a total of 5,600 coastguardmen. We thank you for that. 
And we have not forgotten it.
    Budgets are, of course, about priorities. Whether it is 
hurricane rescue, drug interdiction, or port security, the 
Coast Guard performs many essential duties to keep our 
coastline and our Nation safe.
    I believe the Coast Guard should remain a high priority for 
Federal investment. I look forward to hearing about the 
resources that will be needed to maintain maritime safety, 
security, and mobility.
    Thank you, Madam Chair.
    Senator Cantwell. Thank you.
    Senator Begich, would you like to make a statement?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I'll--Madam Chairman, I'll be 
very brief.
    And that is, first, thank you all very much. I look forward 
to asking some questions. But, from Alaska's perspective, the 
Coast Guard is always an important piece of the puzzle up 
there. With more than half the coastline of the United States 
in Alaska, you have a huge impact to us.
    So, I look forward to asking some questions about Arctic 
policy, about the long-term investment that the Coast Guard 
needs to make in Alaska for long-term security, and also the 
long-term capacity for training and recruiting for the Coast 
Guard as we move forward.
    Thank you very much.
    Senator Cantwell. Thank you.
    Again, Admiral Allen, thank you for being here. We look 
forward to your comments. And please proceed.

        STATEMENT OF ADMIRAL THAD W. ALLEN, COMMANDANT, 
       U.S. COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Allen. Good morning, Madam Chair, Senator Snowe, 
distinguished Members of the Subcommittee. I'm pleased to 
appear before you today testifying on behalf of the United 
States Coast Guard. I have brief opening remarks and I'd ask 
you admit my written statement for the record.
    When I became Commandant, in May 2006, one of my primary 
objectives was to evolve the Coast Guard into a modernized or 
change-centric organization. I've observed, throughout my 
career, that we have been struggling with outdated business 
processes, and, in some cases, we've been doing this for 
decades.
    Beginning with our acquisition organization, I issued a 
series of Commandant-intent action orders to establish high-
level objectives that could guide change in the Coast Guard. 
Three years later, after considerable effort, we are seeing 
tangible results from those efforts, from the creation of a 
single acquisition directorate--and I'd be happy to discuss 
that in detail--to the establishment of a clear and unambiguous 
systems integration role for the Coast Guard to the 
implementation of a standardized maintenance and logistics 
system for our small boats and cutters, to even the creation of 
our deployable operations group, which has served us well. And 
we've done this while restructuring our marine safety program 
to be responsive to new lines of work and a more diverse set of 
stakeholders, standing up the Coast Guard service cryptographic 
element, working domestically and internationally to combat 
piracy, deploying our current resources to the Arctic in the 
summer to test their capabilities in high latitude, and provide 
presence, and supporting U.S. Central Command in the defense of 
oil platforms in the Northern Arabian Gulf.
    Madam Chair, the Coast Guard has never been more relevant 
or visible, we have never been in greater demand, as you have 
said, at home and abroad. The President's Fiscal Year 2010 
budget will provide badly needed resources as we look to meet 
these mission demands. Nearly $1.5 billion in acquisition and 
construction and improvement funding will allow us, among other 
things, to put a fourth National Security Cutter under 
contract, acquire badly needed fast-response cutters, add 30 
additional response boats, extend Rescue 21 to six new regions 
or sectors--we are saving lives every day with this new 
system--and carry out critical mission-effectiveness programs 
for our existing cutter fleet.
    The 2010 budget also adds 295 new positions to support our 
marine safety improvement plan, operate new assets that are 
being delivered, increase financial management oversight, 
increase our armed helicopter capacity, and provided 100 new 
positions to improve our acquisition project oversight and 
management.
    As we seek necessary resources to execute our missions, I 
am also pressing forward, as you've noted, with our 
modernization efforts. Regardless of the current or future 
fiscal environment, modernization is critical to ensure the 
Coast Guard is best positioned to respond to changes in mission 
demand. To that end, in April 2008, I requested the National 
Academy of Public Administration review the Coast Guard's 
modernization efforts. Their recently released report fully 
supports modernization and highlights the importance of 
congressional authorization and the activities you are pressing 
forward. And we appreciate that.
    A separate Government Accountability Office report also 
validates our modernization objectives and related improvements 
to our financial management. These reports also identify 
several areas--and you mentioned metrics--that warrant future 
action, and I am committed to implementing their 
recommendations to improve our service to the Nation, our 
stakeholders, and our workforce.
    The work is important, for we have looming challenges, and 
you've named several of them, in sustaining our existing cutter 
fleet in the presence of persistent transnational threats--
human smuggling, maritime transportation of cocaine from South 
America--that is the fuel of border violence--declining fish 
stocks, the receding Arctic icecap, and the challenge of 
governance on our oceans, the last global commons.
    The president recently established an Ocean Policy Task 
Force, and I am personally working with our partners in the 
Council on Environmental Quality, EPA, and NOAA to move this 
effort forward.
    To that end, it must be understood that the Coast Guard is 
an important tool for providing maritime safety, security, and 
environmental stewardship offshore, where we operate the only 
non-DOD vessels capable of enforcing law and conducting 
response operations for all Federal agencies. I would note that 
the FY-10 President's budget request includes $35 million in 
additional maintenance funding for these aging cutters.
    I was just in Charleston last week, visiting the DALLAS and 
the GALLATIN, which are undergoing extensive repairs in an 
unscheduled drydock period. Due to the age of our fleet, as you 
have noted, unscheduled drydocks are becoming all too common. 
There is, in fact, a one-year lead time on all high-endurance 
cutter main diesel-engine overhaul parts, because they have to 
be created from scratch. Trying to schedule that maintenance 
requirement amidst a demanding operational schedule is a 
tremendous challenge.
    While the requested funds and our modernized structure will 
help maintain the readiness of our fleet and meet the 
increasing mission demand, the most cost-effective long-term 
solution is recapitalized with a revamped acquisition 
organization.
    In closing, I am grateful for your diligent oversight and 
support for the United States Coast Guard. While there will be 
challenges, moving forward, we have the right structure, 
institutions, and strategic approach to deliver premier service 
to the Nation.
    And I thank you for that opportunity to testify today, and 
I look forward to your questions.
    [The prepared statement of Admiral Allen follows:]

       Prepared Statement of Admiral Thad W. Allen, Commandant, 
           U.S. Coast Guard, Department of Homeland Security
Introduction
    Good morning, Madam Chair and distinguished Members of the 
Committee. Thank you for the enduring support you have shown to the men 
and women of the United States Coast Guard.
    Over the past year, Coast Guard men and women--active duty, 
reserve, civilian and auxiliarists alike--continued a consistent trend 
of delivering premier service to the public. They performed superbly in 
the heartland, in our ports, and while deployed at sea and around the 
globe to safeguard America's maritime interests. They saved over four 
thousand lives; worked closely with Department of Homeland Security 
(DHS) partners to respond to last summer's damaging floods in Missouri 
and North Dakota; conducted 680 domestic icebreaking operations to 
facilitate the movement of more than $2 billion in commerce; operated 
with other Federal partners at sea and in the air to prevent nearly 400 
thousand pounds of cocaine from reaching America's borders or streets; 
and continued to serve on the front lines to support Operations Iraqi 
and Enduring Freedom.
    When I became Commandant in 2006, one of my primary objectives was 
to evolve the Coast Guard into a change-centric organization through a 
modernized command, control and logistics support structure, an 
optimized workforce and improved business practices. Building upon the 
Coast Guard's culture and bias for action, we have made significant 
strides toward those goals. As we have carried out our modernization 
efforts, the dedication, expertise and professionalism of your Coast 
Guard has been a constant. The impacts of the global economic crisis, 
climate change, activity in the polar regions, persistent conflict, 
piracy, drug and human smuggling, and the increasing expansion and 
complexity of the Marine Transportation System (MTS) call not only for 
a modernized Coast Guard, but for authorities and capabilities needed 
to carry out all of our safety, security and stewardship missions in a 
rapidly changing operating environment.
    Coast Guard authorities must keep pace with evolving threats. The 
recent prosecution of the first self-propelled semi-submersible (SPSS) 
operator under the Drug Trafficking Vessel Interdiction Act of 2008 is 
an important example. This law provides our men and women with the tool 
necessary to deliver consequences to drug traffickers who would 
otherwise scuttle their vessels, destroying any evidence that may have 
been captured, and allowing them to return to their country of origin 
as a search and rescue victim. I applaud Congress for their 
responsiveness to this threat and appreciate the close cooperation that 
led to the creation of this vital legislation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    I also appreciate Congress' continuing efforts to coordinate 
closely with the Coast Guard to support our progress in modernizing our 
acquisitions program. I look forward to working with the Committee on 
this effort and several other modernization, management and operational 
issues as we move together to achieve our shared goals of a stronger, 
more capable and effective Coast Guard across all of our safety, 
security and stewardship missions.
Roles and Missions
    The U.S. Coast Guard is one of the five Armed Services of the 
United States and the only military organization within the Department 
of Homeland Security (DHS). Unique among the Armed Services, the Coast 
Guard is also a law enforcement and regulatory agency with broad 
domestic authorities. The Coast Guard delivers innovative solutions and 
services across a spectrum of authorities, capabilities, competencies, 
capacities, and partnerships (ACCCP). Today, as in the past, the Coast 
Guard continues to leverage its multi-mission structure, guardian ethos 
and established partnerships to protect the American public and global 
marine transportation system.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Modernization
    The Coast Guard's modernization efforts represent our commitment to 
improving the effectiveness and efficiency of not only our mission 
execution, but also our stewardship of the public's trust and resources 
as well. The establishment of the Surface and Aviation Forces Logistics 
Centers introduced immediate improvements to our logistics system 
through the use of a proven, bi-level maintenance model that minimizes 
both costs and operational down time. Moreover, our Headquarters policy 
and management functions were streamlined as well with the 
establishment of the Deputy Commandant for Operations and Deputy 
Commandant for Mission Support. These organizations ensure our 
strategies, policies and human, information technology and capital 
resource management efforts focus on long-term planning, goals and 
objectives without sacrificing the organizational agility necessary to 
address emerging and evolving operational threats and national 
priorities.
    Functional alignment and agility at all levels within our 
organizational structure are critical to our modernization effort. With 
the appropriate authorities, we will be able to continue to this effort 
with the stand up of the Operations Command (OPCOM) and the Force 
Readiness Command (FORCECOM). Although the current Area Commands have 
served us well, they create a bifurcated command, control and support 
structure that no longer meets our operational coordination and 
readiness requirements. Increasingly complex transnational and regional 
threats demand a centralized command and control structure with the 
ability to allocate, coordinate and surge assets regionally and 
globally both independently and in cooperation with our DHS, Department 
of Defense and international partners. Similarly, we must be able to 
sustain our aging cutters, boats and aircraft, and train and equip our 
workforce to operate at maximum efficiency and effectiveness using 
standardized Coast Guard-wide procedures and processes. OPCOM and 
FORCECOM will give us the ability to meet these requirements and 
deliver unsurpassed service to the American people. The modernized 
command and control structure will significantly improve our ability to 
support and execute missions. I ask for your support to provide the 
Coast Guard with authority to carry out the remainder of our 
modernization efforts, which is known as the Admiral and Vice Admiral 
provision.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Marine Safety
    In 2007, I introduced the Coast Guard's Marine Safety Improvement 
Plan, which was followed shortly thereafter by the Marine Safety 
Performance Plan. Expanding the Coast Guard's capacity and continuing 
to develop the expertise of our marine safety workforce is an essential 
component of my plans to ensure the Coast Guard remains strong and 
ready to serve the Nation and around the world. I appreciate Congress' 
support in the effort, but there remains a great deal of work to 
continue to achieve our shared goals in the Marine Safety program.
    As I have stated before, there are still too many lives lost at 
sea, too many people injured, and too much property and environmental 
damage because of avoidable accidents in our Nation's maritime 
industries. Commercial fishing continues to be one of the most 
dangerous occupations in the world, yet the Coast Guard has no 
mechanism to require uninspected fishing vessels to carry minimum 
safety equipment or meet minimum vessel safety standards. Maintaining 
such standards, in addition to expanded licensing requirements for 
towing vessels, would have a positive impact on our ability to protect 
lives and property in these vital industries.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The safety of recreational boaters and sport fishers is also an 
important component of the Coast Guard's efforts, in partnership with 
State and local authorities, to reduce the number of deaths and 
injuries in our Nation's waterways. Reauthorization of the Sport Fish 
Restoration and Boating Trust Fund (SFRBTF) supports State boating 
safety and education and law enforcement.
Maritime Security
    As the violence by Mexican drug cartels increases along our 
Southwest border, it has become abundantly clear more must be done to 
stop of the flow of drugs into Mexico and across our borders. The Coast 
Guard plays a vital role in reducing the flow of cocaine trafficked 
through Mexico and the rest of Latin America from South America with 
record cocaine removals in 2007 and 2008. By the end of 2009, it is 
likely the Coast Guard, in cooperation with our partners in support of 
Joint Interagency Task Force--South, will have stopped over one million 
pounds of cocaine from reaching the United States over the last 3 
years. Our modernization efforts and sustained recapitalization of our 
aging cutters and aircraft is essential if we are going to address this 
persistent threat to our Nation.
    Similarly, alien migrant smuggling presents a persistent threat to 
the security of our Nation. Human smugglers are following the lead of 
Drug Trafficking Organizations (DTO) and are using more aggressive and 
dangerous tactics including the use of go-fast vessels to evade Coast 
Guard interdiction assets. As efforts continue to increase security at 
the land border, I am concerned smugglers will shift to maritime 
vectors, where the unique operating environment and current legal 
constraints make consequence delivery more difficult. I am grateful for 
Congress' ongoing consideration of the Maritime Alien Smuggling Law 
Enforcement Act (MASLEA) to address the shortfalls in current statute 
and provide the U.S. Government with appropriate law enforcement and 
prosecutorial tools that are uniquely tailored to the maritime 
environment in which this crime occurs.
    As we pursue strategies, tactics and authorities to secure our 
borders from entry of dangerous materials and people, we must also 
consider the security of legitimate commerce in the maritime domain. 
This is particularly important when considering the health and safety 
risks vessels carrying Certain Dangerous Cargoes (CDCs) such as 
Liquefied Natural Gas (LNG), chlorine, anhydrous ammonia and various 
petroleum products present in our ports, waterways and adjacent 
population centers. The expansion of LNG facilities and corresponding 
increase in waterborne LNG shipments to meet our Nation's energy 
demands is well known. However, LNG is just one of many CDCs 
transported through the MTS that must be considered in a national 
dialogue on cargo and energy infrastructure security.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In their maritime security plans, LNG, high capacity passenger 
vessels and critical maritime infrastructure must pay particular 
attention to vulnerabilities to small vessel attacks. Since small 
vessels are not required to participate in a tracking or reporting 
regime as larger, commercial vessels, they can operate virtually 
without restriction in our ports and waterways. In 2008, DHS 
promulgated the Small Vessel Security Strategy. The Coast Guard was an 
integral part of the development of this strategy in partnership with 
the Department and other DHS components including Customs and Border 
Protection. The Coast Guard is currently working with our DHS partners 
to develop an implementation plan.
    Small boats are also the conveyance of choice for pirates to use in 
assaulting commercial vessels. Piracy presents an international 
maritime security challenge. Similar to the shared security 
responsibilities associated with Especially Hazardous Cargo vessels, 
the security of commercial vessels against piratical acts requires a 
coordinated strategy across the Federal Government, industry and the 
international community. Although the U.S. Government has been 
successful negotiating an arrangement with the Government of Kenya to 
begin prosecuting Somali pirates captured in the Horn of Africa, more 
international engagement and coordination on this issue is required.
Stewardship
    Whether enforcing fisheries in the Arctic or responding to 
hazardous materials spills in the Gulf of Mexico in the aftermath of a 
hurricane, I am committed to ensuring the Coast Guard maintains the 
capability to protect our environment and our natural resources. The 
Coast Guard's authorities under our stewardship missions are extensive. 
We are currently developing new Ballast Water Discharge and Non-Tank 
Vessel Response Plan regulations to decrease the introduction of 
invasive species in U.S. internal waters and ensure industry has 
sufficient response capability to minimize the impact of hazardous 
materials spills. The Coast Guard routinely investigates allegations of 
wrongdoing that turn on the availability of a foreign seafarer witness 
who possesses direct knowledge of how damage to the environment, cargo, 
and vessel, as well as loss of life, occurred. The ship owner--who is 
aware of the importance of foreign seafarer witnesses to an 
investigation, as well as his practical ability to control the 
continued availability of the witnesses in the United States--will 
threaten to abandon the crew to protect his interests in a criminal or 
administrative investigation. Without the ability to protect and 
temporarily support these crewmembers in the case of abandonment, the 
Coast Guard's ability to investigate alleged criminal or illegal 
activity is severely impaired. In addition, seafarers may be abandoned 
in the United States for purely economic reasons. There is currently no 
authority nor resources for the Coast Guard to assist these seafarers, 
and no incentive for other nations to assist American seafarers in a 
similar situation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Conclusion
    As a maritime Nation and leader in the global maritime environment, 
our security, resilience, and economic prosperity are intrinsically 
linked to the oceans. Safety and freedom of transit on the high seas 
are essential to our well-being, yet are very fragile. Threats to 
border security, growth in the global marine transportation system, 
expanded use of the Arctic, and burgeoning coastal development are 
challenging conventional paradigms. The Coast Guard is ideally-suited 
to help the Nation address these and other challenges through its 
comprehensive, complementary authorities, flexible and adaptive 
operational capabilities, and centuries of experience protecting 
America's maritime security interests. Full support for the President's 
FY 2010 budget request is an important step forward. Our ability to 
optimize our broad spectrum of authorities, capabilities and 
partnerships remains critical to effectively allocating resources 
across the Coast Guard's broad mission portfolio.
    As our Nation faces the challenges of a global economy, the 
environmental impacts of climate change, piracy, and the long-term 
struggle against radical extremism; the Coast Guard must be equipped to 
conduct preparedness and response operations across a broad spectrum of 
potential risks, threats and hazards. The men and women of the Coast 
Guard perform with courage, sacrifice and dignity and are eager and 
prepared to answer the Nation's call now and into the future.
    Thank you for the opportunity to testify before you today. I am 
pleased to answer your questions.
              Appendix I--Fiscal Year 2010 Budget Request
    The Coast Guard's FY 2010 budget request maintains DOD Parity for 
its workforce and continues critical recapitalization efforts while 
focusing on: enhancing maritime safety and security and modernizing 
business practice. Highlights include:
Recapitalizing Aging Assets
Deepwater--Surface Assets
$591.4M (50 Full-Time Equivalents (FTE))
    The President's Budget requests $591.4M for the following surface 
asset recapitalization or enhancement initiatives: completion of 
National Security Cutter #4; continued analysis and design for the 
Offshore Patrol Cutter (OPC); production of Fast Response Cutters #5-
#8; production of Deepwater Cutter Small Boats; and crucial operational 
enhancement of five Medium Endurance Cutters and three 110-foot Patrol 
Boats at the Coast Guard Yard through the Mission Effectiveness 
Program.
Deepwater--Air Assets
$305.5M (0 FTE)
    The President's Budget requests $305.5M for the following air asset 
recapitalization or enhancement initiatives: delivery of HC-144A 
Maritime Patrol Aircraft #13-#14; HH-60 engine sustainment and 
avionics, wiring, and sensor upgrades for eight aircraft; HH-65 
conversion to modernized components, cockpit, and enhanced 
interoperability for 22 aircraft; and HC-130H avionics and sensor 
upgrades for eight aircraft, as well as four center wing box 
replacements.
Deepwater--Other
$154.6M (0 FTE)
    The President's Budget requests $154.6M for the following equipment 
and services: Government Program Management funds for critical 
oversight and contract management; Systems Engineering and Integration 
funds for continued integration of complex and diverse technical 
configurations for all projects; continued development of logistics 
capability and facility upgrades at shore sites where new assets will 
be homeported; upgrades to command, control, communications, computer, 
intelligence, surveillance and reconnaissance (C4ISR) items; and 
prevention of asset obsolescence by replacing aging technology.
Response Boat Medium (RB-M)
$103M (0 FTE)
    The President's Budget requests $103M to order 30 boats to replace 
the aging 41-foot utility boat and other non-standard boats with an 
asset more capable of meeting the Coast Guard's multi-mission 
requirements.
Rescue 21
$117M (0 FTE)
    The President's Budget requests $117M for California and New 
England Sectors to receive Rescue 21 capability, and continued 
development of Great Lakes, Hawaii, Guam, and Puerto Rico Sectors.
Shore Facilities and ATON Recap Projects
$10M (0 FTE)
    The President's Budget requests $10M to support shore facility and 
ATON recapitalization. The Coast Guard received $88M from Recovery Act 
funding for shore projects. The Coast Guard occupies more than 22,000 
shore facilities with a replacement value of approximately $7.4B. FY 
2010 funding supports $6M for Survey and Design (planning and 
engineering of out-year shore projects) and $4M for ATON infrastructure 
(improvements to short-range aids and infrastructure).
Enhancing Maritime Safety and Security
Marine Safety Program
$7.5M (37 FTE)
    The President's Budget requests $7.5M to support 74 additional 
personnel including marine inspectors and investigating officers at 
field units, marine inspector training officers at feeder ports, 
staffing for the Steam and Vintage Vessels Center of Expertise, 
engineers for standards development and review, and expanded training 
curricula at the Marine Safety School in Yorktown, VA.
Armed Helicopters Enhancement
$0.845M (7 FTE)
    The President's Budget requests $845K for 14 gunners to support an 
additional 450 armed deployed days away from home station (DDAS), 
increasing the total DDAS to 1,450. This additional capability will 
significantly improve the Coast Guard's ability to deter drug 
trafficking and maritime threats, and will play a vital role in 
establishing an integrated, interoperable border security system.
Biometrics at Sea System
$1.183M (1 FTE)
    The President's Budget requests $1.183M to purchase equipment and 
provide maintenance on 18 cutters currently operating the Biometrics at 
Sea system (BASS), as well as engineering development and program 
management. BASS enables Coast Guard personnel to identify dangerous 
individuals documented in the U.S. Visitor and Immigration Status 
Indicator Technology (US-VISIT) database including known felons, those 
under deportation orders, and those on a terrorist watchlist. With a 
nearly 75 percent reduction in undocumented migrant flow from the 
Dominican Republic, the BASS pilot program demonstrated its 
effectiveness in deterring attempts by undocumented migrants to enter 
the United States illegally.
SeaHawk Charleston IOC Sustainment
$1.088M (1 FTE)
    The President's Budget requests $1.088M to fund SeaHawk Charleston. 
SeaHawk is a multi-agency collaborative, unified command-based work 
environment with the cooperative and complementary capabilities of an 
intelligence cell. Members include the Federal Bureau of Investigation, 
Joint Terrorism Task Force, Coast Guard, Customs and Border Protection, 
Immigration and Customs Enforcement, and other Federal, state, and 
local agencies.
Modernizing Business Practices
Financial Management Oversight
$20M (44 FTE)
    The President's Budget requests $20M to support critical 
modernization of the Coast Guard's financial management structure, 
which includes processes, internal controls, IT systems, and human 
resources. The goals of this transformation are to improve the 
Service's ability to link mission performance to budget and ensure 
compliance with the DHS Financial Accountability Act. Financial 
management modernization will create an environment for a sustainable 
clean audit opinion on annual financial statements.
Reinvestments
(88.4M) (399 Full-Time Positions (FTP))
 FY 2010 savings include:
  Termination of FY 2009 one-time costs            ($32.7M)
  Decommissioning of four aging aircraft           ($11.2M)
  Annualization of FY 2009 management of            ($4.9M)
   technology efficiencies
  LORAN-C termination                                ($36M)
  OSC Martinsburg earmark reduction                 ($3.6M)
LORAN-C Termination
    As a result of technological advancements over the last 20 years 
and the emergence of the U.S. Global Positioning System (GPS), LORAN-C 
is no longer required by the Armed Forces, the transportation sector, 
or the Nation's security interests. The LORAN-C system was not 
established as or intended to be a viable backup for GPS. Consistent 
with the Administration's pledge to eliminate unnecessary Federal 
programs and systems, Federal broadcast of the LORAN-C signal will be 
terminated in FY 2010 after satisfying domestic and international 
notification obligations. The Coast Guard will systematically close, 
harden, and de-staff its 24 LORAN-C stations and associated support 
units.
    Termination of LORAN-C will result in a savings of $36M in FY 2010 
and $190M over 5 years. In total, 293 FTP associated with LORAN-C will 
be eliminated during the Fiscal Year and military personnel will be 
reassigned to other missions.

    Senator Cantwell. Thank you, Admiral Allen.
    Mr. Caldwell, welcome. Thank you for being here this 
morning.

           STATEMENT OF STEPHEN L. CALDWELL, DIRECTOR

              HOMELAND SECURITY AND JUSTICE ISSUES

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Caldwell. Thank you very much. Madam Chair, Senator 
Snowe, Senator Wicker, Senator Begich--also, welcome to the 
Committee, Senator Begich--I'm pleased to be here today to 
discuss our work involving the Coast Guard.
    I'll briefly summarize my written statement, which will 
cover three main points. First, the 2010 budget request, Coast 
Guard performance, and then the third area, where I'll focus 
most of my attention, is on some of the management challenges 
that we've already started discussing.
    First, the budget. The 2010 budget request is 4.2 percent 
more than the 2009 enacted budget; however, when this year's 
supplemental, as well as the ARA recovery money is added into 
that, the 2010 request actually represents less than--1 percent 
less than the previous year's spending.
    While the long-term budget situation is always somewhat 
uncertain, DHS has--the President has projected DHS's budget 
growth for the next 10 years as being pretty much flat. While 
the Administration hasn't made any specific projections on, 
say, the Coast Guard's budget, you know, we may be coming into 
times where we see a change from the recent past, where there 
has been a budget increase of, on average, about 5.5 percent 
every year.
    In terms of performance and performance measures, Coast 
Guard continues to perform steadily, with several measures 
improving over last year, and meeting or almost meeting many of 
the established goals. Defense readiness continues to be one of 
the major exceptions, and continues to fall well short of the 
target goal.
    There are also some new and updated measures the Coast 
Guard has adopted, some of which were done in collaboration 
with GAO, and we think those are good. However, there are 
really very few efficiency measures, whether trying to measure 
what the Coast Guard does on a daily basis or trying to measure 
the results of--the long-term results of the modernization 
efforts.
    Now, getting to management challenges. As Admiral Allen has 
said, in terms of their modernization program, we did fine, 
that the Coast Guard's process appeared consistent with GAO-
cited best practices for transformation of organizations, but 
still the best planning, developmental milestones, and tracking 
systems don't necessarily make such a large change--or 
implementation easy or fast.
    We also found the Coast Guard has yet to have performance 
measures in place to gauge the success of that effort. I'll 
temper my comments a little bit to say that the Coast Guard 
does have many measures of business processes; they just have 
not decided which ones they're going to have in place. Along 
those lines, we actually refrained from making a recommendation 
along those lines in our last report. And in--although NAPA did 
make such a recommendation.
    Another big management issue for Coast Guard is workforce 
planning and improving personnel capabilities. As Admiral Allen 
said, the marine safety performance plan is out, and one of the 
major components of that plan is to increase both the number of 
those positions, as well as to increase the number of civilians 
in those positions.
    Later this summer, the Coast Guard will also provide a 
report to Congress on workforce planning, which will also lay 
out further details on how it intends to improve the 
performance of its military and civilian personnel.
    In terms of acquisition programs, particularly Deepwater, 
it--this will continue to present challenges for the Coast 
Guard. Things have turned around, to a large extent, as we've 
noted, and some of the evidence of that is that the Coast Guard 
is taking over the role of system integrator, it's applying a 
more disciplined approach to individual assets, coming up with 
more realistic and accurate cost estimates, beefing up its 
acquisition workforce, and the next thing we'll have is 
analyzing where we go from here through a fleet-mix analysis.
    One of Deepwater's legacies already is the impact that 
delivery delays are having on operations. We've completed work 
on patrol boats and are now doing work on the National Security 
Cutter and high endurance cutters, to talk about those issues 
and some of the mitigation factors the Coast Guard's put in 
place. But, the bottom line is, there are less operational 
hours to enforce fishing laws, to interdict illegal drugs, and 
to stop undocumented migrants. We'll have two reports out later 
this summer that focus on those Deepwater issues.
    In closing, thank you all very much. I'll be happy to 
respond to any questions about my written statement or about 
other GAO work related to the administrative law judge program, 
vessel tracking, small vessel threat, port facility security, 
LNG and other tanker issues, and cargo container security 
issues.
    Thank you.
    [The prepared statement of Mr. Caldwell follows:]

Prepared Statement of Stephen L. Caldwell, Director, Homeland Security 
       and Justice Issues, U.S. Government Accountability Office
    Madam Chair and Members of the Subcommittee:

    I am pleased to be here today to discuss the Coast Guard's Fiscal 
Year 2010 budget, mission performance, and related management 
challenges. For many years, we have provided Congress with information 
and observations on the Coast Guard's budget and related issues. 
Consistent with this approach, this statement will include information 
from our prior and ongoing work to help provide perspective as 
appropriate. As you know, the Coast Guard has grown considerably since 
2002 to meet new homeland security missions while continuing to carry 
out its traditional missions such as marine safety and search and 
rescue operations. In addition to a substantial budget increase over 
these years, the Coast Guard has faced a myriad of new management 
challenges, which we have identified in previous reports.\1\
---------------------------------------------------------------------------
    \1\ See related GAO products at the end of this statement.
---------------------------------------------------------------------------
    To help perform its missions, the Coast Guard is currently 
implementing several important programs, including an effort to 
modernize its command structure and mission-support processes, while 
continuing the Deepwater program--the long-term, multibillion-dollar 
acquisition program to upgrade or replace the service's aging fleet of 
vessels and aircraft. Given the history of performance and management 
problems associated with the Deepwater program, such as cost breaches, 
schedule slips, and design defects, the Coast Guard has initiated 
several major changes to its acquisition efforts that present a new set 
of challenges that must be managed effectively.
    This statement discusses

  <bullet> the Coast Guard's budget for Fiscal Year 2010, and 
        additional funds received under the American Recovery and 
        Reinvestment Act of 2009 (Recovery Act); \2\
---------------------------------------------------------------------------
    \2\ Pub. L. No. 111-5, 123 Stat. 115 (2009).

  <bullet> the Coast Guard's mission performance in Fiscal Year 2008, 
        the most recent year for which statistics are available; \3\ 
        and
---------------------------------------------------------------------------
    \3\ The Coast Guard has responsibilities that fall under two broad 
mission categories--homeland security and non-homeland security. Within 
these categories, the Coast Guard's primary activities are further 
divided into 11 statutory missions, which are listed later in this 
statement (see table 1).

  <bullet> various challenges confronting the Coast Guard in managing 
        its modernization program, workforce planning efforts, and 
---------------------------------------------------------------------------
        large-scale acquisition projects.

    This statement is based in part on our prior work completed over 
the past 11 years--with selected updates in June 2009--that 
collectively address a number of the Coast Guard's programmatic and 
management initiatives. The scope of our prior work included reviews of 
program documents, such as the Coast Guard's Blueprint for Acquisition 
Reform; \4\ analysis of applicable program data bases; and interviews 
with Coast Guard officials at headquarters and field units in domestic 
and international locations.\5\ In assessing the Coast Guard's budget 
request for Fiscal Year 2010, we reviewed the President's budget 
request for that year and related Coast Guard documents, including the 
U.S. Coast Guard Posture Statement, issued in May 2009.\6\ The scope of 
our review did not include evaluating whether the proposed funding 
levels were appropriate for the Coast Guard's stated needs. We also 
reviewed the Coast Guard's most recent performance report, which 
presents mission-specific statistics for Fiscal Year 2008.\7\ In 
identifying and discussing various management challenges confronting 
the Coast Guard, we focused especially on the information presented in 
our recently issued products regarding the service's modernization 
program and the large-scale Deepwater acquisition program.\8\ Also, 
this statement is based partly on the results of our ongoing work for 
the Senate and House Appropriations' Subcommittees on Homeland 
Security. Our report on this ongoing work--which involves the Coast 
Guard's newest vessel, the National Security Cutter--is anticipated to 
be issued later in the summer of 2009.
---------------------------------------------------------------------------
    \4\ U.S. Coast Guard, Blueprint for Acquisition Reform (Version 
3.0) (July 14, 2008).
    \5\ More detailed information on our scope and methodology appears 
in our prior reports included in the related GAO products listed at the 
end of the statement. The work to support these reports was conducted 
in accordance with generally accepted government auditing standards.
    \6\ U.S. Coast Guard, U.S. Coast Guard Posture Statement with 2010 
Budget in Brief (May 2009).
    \7\ U.S. Coast Guard, Fiscal Year 2008 U.S. Coast Guard Performance 
Report (May 2009).
    \8\ See, for example, GAO, Coast Guard: Observations on the Genesis 
and Progress of the Service's Modernization Program, GAO-09-530R 
(Washington, D.C.: June 24, 2009); Coast Guard: Update on Deepwater 
Program Management, Cost, and Acquisition Workforce, GAO-09-620T 
(Washington, D.C.: Apr. 22, 2009); and Coast Guard: Change in Course 
Improves Deepwater Management, but Outcome Still Uncertain, GAO-08-745 
(Washington, D.C.: June 24, 2008).
---------------------------------------------------------------------------
    We conducted the work for this statement from June 2009 to July 
2009, as well as our ongoing work, in accordance with generally 
accepted government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions based on our audit 
objectives.
Summary
    For Fiscal Year 2010, the Coast Guard's budget request totals $9.7 
billion, which is an increase of about $393 million (or 4.2 percent) 
over its Fiscal Year 2009 enacted budget. Of the total $9.7 billion 
requested, about $6.6 billion (or 67 percent) is for operating 
expenses, which is the primary appropriation account that finances 
Coast Guard activities, including operating and maintaining 
multipurpose vessels, aircraft, and shore units. The operating expenses 
account, in comparing the 2010 budget request to the 2009 enacted 
budget, represents an increase of $361 million (or about 6 percent). 
The next two largest accounts in the Fiscal Year 2010 budget request, 
at about $1.4 billion each, are: (1) acquisition, construction, and 
improvements and (2) retired pay. Each of these accounts represents 
about 14 percent of the Coast Guard's total budget request for Fiscal 
Year 2010. In reference to absolute amount increases, the retired pay 
account--with an increase of about $125 million in the Fiscal Year 2010 
budget request compared to the Fiscal Year 2009 enacted budget--is 
second only to the $361 million increase for the operating expenses 
account. Based on percentage increases, however, the retired pay 
account reflects the highest percentage increase (about 10 percent) of 
all accounts.
    Regarding mission performance in Fiscal Year 2008, the most recent 
year for which statistics are available, the Coast Guard reported that 
it fully met goals for 5 of its 11 statutory missions, partially met 
goals for another 3 missions, and did not meet goals for the other 3 
missions. One of the fully met goals, for example, involved drug 
interdiction. Specifically, for cocaine being shipped to the United 
States via non-commercial means, the Coast Guard reported achieving a 
removal rate of about 34 percent compared to the goal of at least 28 
percent. The other four missions reported as fully meeting goals were 
ports, waterways, and coastal security; marine environmental 
protection; other law enforcement; \9\ and ice operations. The search 
and rescue mission was one of the three missions reported as partially 
meeting goals. For this mission, which has two performance goals, the 
Coast Guard reported that one goal was met (saving at least 76 percent 
of people from imminent danger in the maritime environment), but a 
related goal (saving at least 87 percent of mariners in imminent 
danger) was narrowly missed, as reflected by a success rate of about 84 
percent. The three missions reported as not meeting Fiscal Year 2008 
performance goals were defense readiness, migrant interdiction, and 
living marine resources. However, for missions with unmet goals, the 
Coast Guard reported falling substantially short of its performance 
target for only one mission--defense readiness. For this mission, the 
goal was for Coast Guard assets to meet designated combat readiness 
levels 100 percent of the time, but the reported performance was 56 
percent. To assess mission performance for Fiscal Year 2008, the Coast 
Guard introduced a number of new performance measures and targets. 
Rather than use a single measure for each of its 11 statutory missions 
as in prior years, the Coast Guard reported on a total of 21 
performance measures. The Coast Guard intended for these changes to 
better capture the breadth of key mission activities and the results 
achieved and were informed by collaboration with other Federal 
agencies, including the DHS Office of Program Analysis and Evaluation 
and us.
---------------------------------------------------------------------------
    \9\ According to the Coast Guard, the other law enforcement mission 
is more accurately described as foreign fishing vessel law enforcement.
---------------------------------------------------------------------------
    The Coast Guard continues to face several management challenges 
that we have identified in prior work and as part of our ongoing 
efforts to assess the Coast Guard's workforce planning challenges and 
operational impacts resulting from acquisition-related delays. For 
example, the Coast Guard is currently undertaking a major effort--
referred to as the modernization program--intended to improve mission 
execution by updating the service's command structure, support systems, 
and business practices. In June 2009, we reported that although the 
Coast Guard has taken several efforts to monitor the progress of the 
modernization program, development of applicable performance measures 
remains in the early stages with no time-frame specified for 
completion.\10\ Our work has also noted significant challenges that the 
Coast Guard faces in assessing personnel needs and developing an 
adequate workforce plan.\11\ For example, the Coast Guard has 
identified continued difficulties in hiring and retaining qualified 
acquisition personnel--leaving 138 available acquisition positions 
unfilled as of April 2009. In addition to personnel challenges, the 
Deepwater acquisition program continues to be a source of several 
distinct management challenges. For example, while the Coast Guard has 
assumed lead responsibility for planning, organizing, and integrating 
the individual assets comprising the Deepwater acquisition program, the 
Coast Guard has not always adhered to disciplined procurement 
processes, and its budget submissions to Congress do not include 
detailed cost estimates. Moreover, the ongoing delays associated with 
the acquisition of Deepwater assets, such as Fast Response Cutters \12\ 
and National Security Cutters,\13\ have resulted in operational 
impacts, such as the projected loss of thousands of days of 
availability for the National Security Cutter to conduct missions until 
2017. The Coast Guard is working to manage these impacts using various 
mitigation strategies.
---------------------------------------------------------------------------
    \10\ GAO-09-530R.
    \11\ See, for example, GAO-09-620T; Maritime Security: Coast Guard 
Inspections Identify and Correct Facility Deficiencies, but More 
Analysis Needed of Program's Staffing, Practices, and Data, GAO-08-12 
(Washington, D.C.: Feb. 14, 2008); and Maritime Security: Federal 
Efforts Needed to Address Challenges in Preventing and Responding to 
Terrorist Attacks on Energy Commodity Tankers, GAO-08-141 (Washington, 
D.C.: Dec. 10, 2007).
    \12\ The 140-foot Fast Response Cutters are intended to replace the 
110-foot and 123-foot patrol boats that were acquired between 1986 and 
1992. The Fast Response Cutters are to be capable of performing marine 
safety, living marine resources, and defense readiness missions, among 
others.
    \13\ The 418-foot National Security Cutters--referred to as the 
flagship of the Coast Guard's fleet--are intended to replace the aging 
378-foot High Endurance Cutters that have been in service since the 
1960s. The National Security Cutters are to be capable of meeting 
maritime homeland security, law enforcement, and national defense 
missions--including supporting the mission requirements of joint U.S. 
combatant commanders.
---------------------------------------------------------------------------
    In our previous reports on the Deepwater acquisition program, we 
have made a number of recommendations to improve the management of the 
program, and the Coast Guard has implemented or is in the process of 
implementing the recommendations. We provided a copy of the information 
in this statement to DHS and the Coast Guard and incorporated technical 
comments as appropriate.
Background
    A component of DHS, the Coast Guard is a multimission military 
service that serves as the principal Federal agency responsible for 
maritime safety, security, and environmental stewardship. In addition 
to being one of the five Armed Services of the United States, the Coast 
Guard serves as a law enforcement and regulatory agency with broad 
domestic authorities. In its most recent Posture Statement, the Coast 
Guard reported having nearly 49,900 full-time positions--about 42,600 
military and 7,300 civilians. In addition, the service reported that it 
has about 8,100 reservists who support the national military strategy 
or provide additional operational support or surge capacity during 
times of emergency, such as natural disasters. The Coast Guard also 
reported that it utilizes the services of approximately 29,000 
volunteer auxiliary personnel who conduct a wide array of activities, 
ranging from search and rescue to boating education. The Coast Guard 
has responsibilities that fall under two broad mission categories--
homeland security and non-homeland security. Within these categories, 
the Coast Guard's primary activities are further divided into 11 
statutory missions, as shown in table 1.
 ------------------------------------------------------------------------

    Table 1.--Coast Guard Homeland Security and Non-Homeland Security
                                Missions
------------------------------------------------------------------------
                                     Primary activities and functions of
       Statutory missions a               each Coast Guard mission
------------------------------------------------------------------------
Homeland security missions
------------------------------------------------------------------------
Ports, waterways, and coastal       <bullet> Conducting harbor patrols,
 security                            vulnerability assessments,
                                     intelligence gathering and
                                     analysis, and other activities to
                                     prevent terrorist attacks and
                                     minimize the damage from attacks
                                     that occur.
------------------------------------------------------------------------
Defense readiness                   <bullet> Participating with the
                                     Department of Defense in global
                                     military operations.
                                    <bullet> Deploying cutters and other
                                     boats in and around harbors to
                                     protect Department of Defense force
                                     mobilization operations.
------------------------------------------------------------------------
Migrant interdiction                <bullet> Deploying cutters and
                                     aircraft to reduce the flow of
                                     undocumented migrants entering the
                                     United States via maritime routes.
------------------------------------------------------------------------
Non-homeland security missions
------------------------------------------------------------------------
Drug interdiction                   <bullet> Deploying cutters and
                                     aircraft in high drug-trafficking
                                     areas.
                                    <bullet> Gathering intelligence to
                                     reduce the flow of illegal drugs
                                     through maritime transit routes.
------------------------------------------------------------------------
Aids to navigation                  <bullet> Managing U.S. waterways and
                                     providing a safe, efficient, and
                                     navigable marine transportation
                                     system.
                                    <bullet> Maintaining the extensive
                                     system of navigation aids;
                                     monitoring marine traffic through
                                     vessel traffic service centers.
------------------------------------------------------------------------
Search and rescue                   <bullet> Operating multimission
                                     stations and a national distress
                                     and response communication system.
                                    <bullet> Conducting search and
                                     rescue operations for mariners in
                                     distress.
------------------------------------------------------------------------
Living marine resources             <bullet> Enforcing domestic fishing
                                     laws and regulations through
                                     inspections and fishery patrols.
------------------------------------------------------------------------
Marine safety                       <bullet> Setting standards and
                                     conducting vessel inspections to
                                     better ensure the safety of
                                     passengers and crew aboard
                                     commercial vessels.
                                    <bullet> Partnering with states and
                                     boating safety organizations to
                                     reduce recreational boating deaths.
------------------------------------------------------------------------
Marine environmental protection     <bullet> Preventing and responding
                                     to marine oil and chemical spills.
                                    <bullet> Preventing the illegal
                                     dumping of plastics and garbage in
                                     U.S. waters.
                                    <bullet> Preventing biological
                                     invasions by aquatic nuisance
                                     species.
------------------------------------------------------------------------
Other law enforcement (foreign      <bullet> Protecting U.S. fishing
 fish enforcement)                   grounds by ensuring that foreign
                                     fishermen do not illegally harvest
                                     U.S. fish stocks.
------------------------------------------------------------------------
Ice operations                      <bullet> Conducting polar operations
                                     to facilitate the movement of
                                     critical goods and personnel in
                                     support of scientific and national
                                     security activity.
                                    <bullet> Conducting domestic
                                     icebreaking operations to
                                     facilitate year-round commerce.
                                    <bullet> Conducting international
                                     ice operations to track icebergs
                                     below the 48th north latitude.
------------------------------------------------------------------------
Source: Coast Guard.
a The Coast Guard's homeland security and non-homeland security missions
  are delineated in section 888 of the Homeland Security Act of 2002
  (Pub. L. No. 107-296, 116 Stat. 2135, 2249 (2002)). Starting with the
  Fiscal Year 2007 budget, however, the Office of Management and Budget
  designated the Coast Guard's drug interdiction and other law
  enforcement missions--which were originally homeland security
  missions--as non-homeland security missions for budgetary purposes.

    For each of these 11 missions, the Coast Guard has developed 
performance measures to communicate agency performance and provide 
information for the budgeting process to Congress, other policymakers, 
and taxpayers. Each year, the Coast Guard undergoes a process to assess 
performance and establish performance targets for the subsequent year. 
In May 2009, the Coast Guard published its most recent performance 
report, which presents the service's accomplishments for Fiscal Year 
2008.
    To help carry out its missions, the Coast Guard has a large-scale 
acquisition program, called Deepwater, under way to modernize its 
fleet.\14\
---------------------------------------------------------------------------
    \14\ Our reports and testimonies over the past 11 years have 
included details on the Deepwater program related to affordability, 
management, and operations. See, for example, GAO-09-620T; GAO-08-745; 
Coast Guard: Observations on the Fiscal Year 2009 Budget, Recent 
Performance, and Related Challenges, GAO-08-494T (Washington, D.C.: 
Mar. 6, 2008); and Coast Guard: Challenges Affecting Deepwater Asset 
Deployment and Management Efforts to Address Them, GAO-07-874 
(Washington, D.C.: June 18, 2007).
---------------------------------------------------------------------------
    The Deepwater program now includes projects to build or modernize 
five classes each of vessels and aircraft, as well as to procure other 
capabilities such as improved command, control, communications, 
computer, intelligence, surveillance, and reconnaissance systems. To 
carry out these acquisitions, the Coast Guard awarded a contract in 
June 2002 to Integrated Coast Guard Systems (ICGS), a joint venture 
formed by Lockheed Martin Corporation and Northrop Grumman Ship 
Systems, to serve as a systems integrator. However, in April 2007, the 
Coast Guard acknowledged it had relied too heavily on contractors. This 
reliance, among other concerns, contributed to an inability to control 
costs. As a result, the Coast Guard initiated several major changes to 
the acquisition approach to Deepwater, the key one being that the Coast 
Guard would take over the lead role in systems integration from ICGS.
Coast Guard Budget Request for Fiscal Year 2010 Is 4.2 Percent Higher 
        than the Previous Year's Enacted Budget, but Long-Term Budget 
        Outlook Remains Uncertain
    The Coast Guard's budget request for Fiscal Year 2010 is $9.73 
billion, which is approximately $393 million (or 4.2 percent) more than 
the service's enacted budget for Fiscal Year 2009 (see table 2).\15\ 
These calculations do not include either the supplemental funding of 
$242.5 million that the Coast Guard reported receiving in Fiscal Year 
2009 or the $240 million provided by the Recovery Act (discussed 
below). When the supplemental and the Recovery Act funding are taken 
into account and added to the Fiscal Year 2009 enacted budget, the 
calculations reflect a decrease of about 1 percent from Fiscal Year 
2009 to Fiscal Year 2010.
---------------------------------------------------------------------------
    \15\ GAO's analysis of the Coast Guard's budget requests are 
presented in nominal terms. Supplemental funding received during Fiscal 
Year 2009 is not included in the analysis.
---------------------------------------------------------------------------
    Of the $9.73 billion requested for Fiscal Year 2010, about $6.6 
billion, or approximately 67 percent, is for operating expenses (OE). 
The OE account is the primary appropriation that finances the Coast 
Guard's activities, including operating and maintaining multipurpose 
vessels, aircraft, and shore units. In comparing the 2010 budget 
request to the 2009 enacted budget, funding for the OE account 
represents an increase of $361 million (or about 6 percent). The next 
two largest accounts in the Fiscal Year 2010 budget request--each with 
funding at about $1.4 billion--are the acquisition, construction, and 
improvements account (AC&I) and the retired pay account. Collectively, 
these two accounts represent about 28 percent of the Coast Guard's 
total budget request for Fiscal Year 2010. In terms of percentage 
increases in comparing the 2010 budget request to the 2009 enacted 
budget, the retired pay account reflects the highest percentage 
increase (about 10 percent) of all accounts.\16\
---------------------------------------------------------------------------
    \16\ The retired pay account includes cost-of-living adjustments 
for all retirement annuities and most survivor annuities as well as 
entitlement benefits authorized by the National Defense Authorization 
Act for Fiscal Year 2008 (Pub. L. No. 110-181, 122 Stat. 3 (2008)).
 ----------------------------------------------------------------------------------------------------------------

Table 2.--Comparison of Coast Guard's Budget Request for Fiscal Year 2010 and the Enacted Budget for Fiscal Year
                                                      2009
----------------------------------------------------------------------------------------------------------------
                                                                                          Difference between FY
                                                                                         2010 budget request and
                                                     Enacted budget    Budget request    FY 2009 enacted budget
               Appropriation Account                for FY 2009  (in  for FY 2010  (in -------------------------
                                                        millions)         millions)     Amount  (in
                                                                                         millions)    Percentage
                                                                                                        change
----------------------------------------------------------------------------------------------------------------
Operating expenses                                          $6,194.9          $6,556.2       $361.3         5.8%
----------------------------------------------------------------------------------------------------------------
Acquisition, construction, and improvements                  1,474.6           1,384.0        -90.6         -6.1
----------------------------------------------------------------------------------------------------------------
Retired pay                                                  1,236.7           1,361.2        124.5         10.1
----------------------------------------------------------------------------------------------------------------
Medicare Eligible Retiree Health Care Fund                     257.3             266.0          8.7          3.4
 Contribution
----------------------------------------------------------------------------------------------------------------
Reserve training                                               130.5             133.6          3.1          2.4
----------------------------------------------------------------------------------------------------------------
Research, development, test, and evaluation                     18.0              19.7          1.7          9.7
----------------------------------------------------------------------------------------------------------------
Alteration of bridges                                           16.0             0.0 a        -16.0       -100.0
----------------------------------------------------------------------------------------------------------------
Environmental compliance                                        13.0              13.2          0.2          1.5
----------------------------------------------------------------------------------------------------------------
Total b                                                     $9,341.1          $9,734.0       $392.9         4.2%
----------------------------------------------------------------------------------------------------------------
Source: Coast Guard.
Note: The numbers in the table for Fiscal Year 2009 do not include supplemental funding and Recovery Act funding
  (discussed below).
a As discussed later in this statement, the Coast Guard has plans to use $142 million in funding received under
  the Recovery Act to fund bridge alteration projects in four states.
b Column totals may not add due to rounding.


    According to the Coast Guard, some of the key initiatives for 
Fiscal Year 2010 include increasing the number of marine inspectors and 
investigative officers, and supporting financial management 
improvements, among others. Furthermore, as a result of the emergence 
of the U.S. Global Positioning System (a space-based system of 
satellites) as an aid to navigation, the long-range radio-navigation 
system known as LORAN-C (a terrestrial-based system operated by the 
Coast Guard) is expected to be terminated in Fiscal Year 2010.\17\ This 
termination, according to the Coast Guard, is projected to result in a 
savings of $36 million in Fiscal Year 2010 and additional savings of 
$154 million over the following 4 years.
---------------------------------------------------------------------------
    \17\ As an aid to navigation, LORAN-C was originally developed to 
provide radio-navigation service for U.S. coastal waters and was later 
expanded to include complete coverage of the continental United States 
as well as most of Alaska. The President's Fiscal Year 2010 budget 
supported the ``termination of outdated systems,'' such as the 
terrestrial-based LORAN-C operated by the Coast Guard.
---------------------------------------------------------------------------
    Although the Coast Guard receives funding by appropriation account 
rather than by individual missions, the Coast Guard provides an 
estimated comparison of homeland security versus non-homeland security 
funding as part of its annual budget request. Based on these estimates, 
the Coast Guard's Fiscal Year 2010 budget request for homeland security 
missions represents approximately 36 percent of the service's overall 
budget, with the non-homeland security funding representing 
approximately 64 percent. However, as a multimission agency, the Coast 
Guard notes that it may conduct multiple mission activities 
simultaneously. For example, a multimission asset conducting a security 
escort is also monitoring safety within the harbor and could 
potentially be diverted to conduct a search and rescue case. As a 
result, it is difficult to accurately detail the level of resources 
dedicated to each mission. Figure 1 shows the Coast Guard's estimated 
funding levels for Fiscal Year 2010 by each statutory mission.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO analysis of Coast Guard data.

    In addition to the Coast Guard's enacted budget for Fiscal Year 
2009, the Coast Guard has received $240 million of funding under the 
Recovery Act. According to the Coast Guard, the service's Recovery Act 
funds are to be allocated as follows:

  <bullet> $142 million is to be used to fund bridge alteration 
        projects in four states--the Mobile Bridge in Hurricane, 
        Alabama; the EJ&E Bridge in Devine, Illinois; the Burlington 
        Bridge in Burlington, Iowa; and the Galveston Causeway Railroad 
        Bridge in Galveston, Texas.

  <bullet> $88 million in Recovery Act funds is to support shore 
        infrastructure projects--construction of personnel housing, 
        boat moorings, and other improvements--in Alaska, Delaware, 
        North Carolina, Oregon, Virginia, and Washington.

  <bullet> $10 million is to help upgrade or replace worn or obsolete 
        components on the Coast Guard's fleet of 12 High Endurance 
        Cutters. The 40-plus-year-old cutters benefiting from the 
        Recovery Act-funded projects are based in Kodiak, Alaska; 
        Alameda and San Diego, California; Honolulu, Hawaii; 
        Charleston, South Carolina; and Seattle, Washington.

    While the Coast Guard's budget has increased considerably since 
2003, the long-term budget outlook for the agency is uncertain. From 
Fiscal Year 2003 through Fiscal Year 2009, the Coast Guard's budget 
increased an average of 5.5 percent per year. However, this 
administration's current budget projections indicate that the DHS 
annual budget is expected to remain constant or decrease over the next 
10 years. It is important to note that these budget projections are 
nominal figures, which are not adjusted or normalized for inflation. 
Thus, if inflationary pressures arise in future years, budgetary 
resources available to DHS could be further strained. Given the 
uncertainty of future budgets, it remains important for the Coast Guard 
to ensure that limited resources are utilized most effectively to 
successfully manage existing challenges and emerging needs. For 
example, as we reported in March 2008, affordability of the Deepwater 
program has been an ongoing concern for many years, and will continue 
to be a major challenge to the Coast Guard given the other demands upon 
the agency for both capital and operations spending.\18\ The increasing 
demand for Coast Guard resources in the arctic region also presents an 
emerging challenge that will need to be balanced against competing 
priorities. For example, two of the Coast Guard's three polar 
icebreakers are more than 30 years old and, and in 2008 the Coast Guard 
estimated that it could cost between $800 million to $925 million 
dollars per ship to procure new replacement ships. Such needs could 
pose challenges to the Coast Guard in an era of increased budget 
constraints.
---------------------------------------------------------------------------
    \18\ GAO-08-494T.
---------------------------------------------------------------------------
Coast Guard Reported on Several New Performance Measures for Fiscal 
        Year 2008
    Each year, the Coast Guard conducts a process of performance 
evaluation, improvement planning, and target setting for the upcoming 
year. According to the Coast Guard, this process helps ensure that the 
performance measures and associated targets adequately represent 
desired Coast Guard mission outcomes, are reflective of key drivers and 
trends, and meet applicable standards for Federal performance 
accounting. In addition, as part of a larger DHS effort, the Coast 
Guard conducted a more comprehensive evaluation of its performance 
measures in Fiscal Year 2008. This evaluation process included input on 
potential improvements to the Coast Guard's performance measures from 
the DHS Office of Program Analysis and Evaluation and us.
    Consequently, the Coast Guard initiated a number of changes to its 
performance reporting for Fiscal Year 2008 to better capture the 
breadth of key mission activities and the results achieved. Our review 
of the Coast Guard's performance reporting for Fiscal Year 2008 
indicates that the Coast Guard revised or broadened several existing 
measures. As a result, the Coast Guard reported on a total of 21 
primary performance measures for Fiscal Year 2008--3 homeland security 
mission measures and 18 non-homeland security mission measures. This 
represents a substantial change from previous years, in which the Coast 
Guard reported on a single performance measure for each of the 
service's 11 statutory missions (see app. I for a list of the primary 
performance measures and reported performance results for Fiscal Years 
2004 through 2008). One of the principal changes involved the 
disaggregation of existing measures into several distinct component 
measures. For example, in prior years, the marine safety mission was 
assessed using one primary measure--the 5- year average annual mariner, 
passenger, and recreational boating deaths and injuries. However, the 
Coast Guard reported on six different measures for the marine safety 
mission in Fiscal Year 2008--annual deaths and injuries for each of 
three separate categories of individuals (commercial mariners, 
commercial passengers, and recreational boaters) as well as 5-year 
averages of each of these three categories.
    As indicated in table 3, the Coast Guard reported meeting 15 of its 
21 performance targets in Fiscal Year 2008.
 ------------------------------------------------------------------------

 Table 3.--Coast Guard Mission Performance Results for Fiscal Year 2008
------------------------------------------------------------------------
                                                Number of     Number of
             Coast Guard mission               performance   performance
                                                measures     targets met
------------------------------------------------------------------------Missions meeting 2008 performance targets:------------------------------
------------------------------------------------------------------------
Ports, waterways, and coastal security                   1             1
------------------------------------------------------------------------
Drug interdiction                                        1             1
------------------------------------------------------------------------
Marine environmental protection                          4             4
------------------------------------------------------------------------
Other law enforcement                                    1             1
------------------------------------------------------------------------
Ice operations                                           1             1
------------------------------------------------------------------------
Missions partially meeting 2008 performance targets:
------------------------------------------------------------------------
Aids to navigation                                       2             1
------------------------------------------------------------------------
Search and rescue                                        2             1
------------------------------------------------------------------------
Marine safety                                            6             5
------------------------------------------------------------------------
Missions that did not meet 2008 performance targets:
------------------------------------------------------------------------
Defense readiness                                        1             0
------------------------------------------------------------------------
Migrant interdiction                                     1             0
------------------------------------------------------------------------
Living marine resources                                  1             0
------------------------------------------------------------------------
Total                                                   21            15
Source: GAO analysis of Coast Guard data (see table 4 in app. I).


    Also, table 3 shows that the Coast Guard reported meeting all 
performance targets for 5 of the 11 statutory missions--ports, 
waterways, and coastal security; drug interdiction; marine 
environmental protection; other law enforcement; and ice 
operations.\19\ Regarding the drug interdiction mission, for example, 
the Fiscal Year goal was to achieve a removal rate of at least 28 
percent for cocaine being shipped to the United States via 
noncommercial means. The Coast Guard reported achieving a removal rate 
of 34 percent.
---------------------------------------------------------------------------
    \19\ According to the Coast Guard, the other law enforcement 
mission is more accurately described as foreign fishing vessel law 
enforcement.
---------------------------------------------------------------------------
    For another 3 of the 11 statutory missions--aids to navigation, 
search and rescue, and marine safety--the Coast Guard reported 
partially meeting performance targets. For each of these missions, the 
Coast Guard did not meet at least one performance target among the 
suite of different measures used to assess mission performance. For 
example, regarding the search and rescue mission, which has two 
performance goals, the Coast Guard reported that one goal was met 
(saving at least 76 percent of people from imminent danger in the 
maritime environment), but the other goal (saving at least 87 percent 
of mariners in imminent danger) was narrowly missed, as reflected by a 
success rate of about 84 percent.
    For the other 3 statutory missions--defense readiness, migrant 
interdiction, and living marine resources--the Coast Guard reported 
that it did not meet Fiscal Year 2008 performance targets. However, for 
these missions, the Coast Guard reported falling substantially short of 
its performance target for only one mission--defense readiness. 
Although performance for this mission rose slightly--from 51 percent in 
Fiscal Year 2007 to 56 percent in Fiscal Year 2008--the Coast Guard's 
goal was to meet designated combat readiness levels 100 percent of the 
time. However, the Coast Guard remains optimistic that the relevant 
systems, personnel, and training issues--which are being addressed in 
part by the Deepwater acquisition program--will result in enhanced 
capability for all missions, including defense readiness. Yet, the 
Coast Guard further noted in its annual performance report that it is 
reviewing the defense readiness metrics to determine what potential 
changes, if any, need to be made.
    In comparison, the Coast Guard met targets for 6 of its 11 
statutory missions in Fiscal Year 2007. The overall reduction in the 
number of missions meeting performance targets in Fiscal Year 2008 is 
largely because of the inability of the Coast Guard to meet its 
performance target for the migrant interdiction mission. However, this 
may be attributed, in part, to the new measure used for the migrant 
interdiction mission for Fiscal Year 2008.\20\ Regarding the three 
statutory missions whose performance targets were not met, the Coast 
Guard's reported performance generally remained steady in Fiscal Year 
2008 compared with previous years, and the Coast Guard was relatively 
close to meeting its performance targets. For example, for the migrant 
interdiction and living marine resources missions, the Coast Guard 
reported achieving over 96 and 98 percent of the respective performance 
targets.
---------------------------------------------------------------------------
    \20\ Prior to Fiscal Year 2008, the Coast Guard's primary outcome 
measure for this mission also included undocumented migrants who were 
deterred from using maritime routes to enter the United States. Because 
of uncertainties involved in estimating the number of deterred 
potential migrants, the new measure was changed to include only the 
percentage of undocumented migrants who were actually interdicted.
---------------------------------------------------------------------------
The Ongoing Modernization Program, Workforce Planning Issues, and 
        Large-Scale Acquisitions Present Management Challenges
    The Coast Guard faces a number of different management challenges 
that we have identified in prior work. Highlighted below are four such 
challenges that the Coast Guard faces as it proceeds with efforts to 
modernize its organization, address shifting workforce needs, manage 
the Deepwater acquisition program, and mitigate operational issues 
caused by delays in the Deepwater program.
The Coast Guard Has an Ongoing Modernization Program, but Work Remains 
        to Develop Performance Metrics
    The Coast Guard is currently undertaking a major effort--referred 
to as the modernization program--which is intended to improve mission 
execution by updating the service's command structure, support systems, 
and business practices. The modernization program is specifically 
focused on transforming or realigning the service's command structure 
from a geographically bifurcated structure into a functionally 
integrated structure--as well as updating mission support systems, such 
as maintenance, logistics, financial management, human resources, 
acquisitions, and information technology.
    The Coast Guard has several efforts under way or planned for 
monitoring the progress of the modernization program and identifying 
needed improvements. For example, the Coast Guard has established 
timelines that identify the sequencing and target dates for key actions 
related to the modernization program consistent with project management 
principles.\21\ Our prior work has shown that such action-oriented 
goals along with associated timelines and milestones are critical to 
successful organizational transformation efforts and are necessary to 
track an organization's progress toward its goals.\22\ However, as we 
reported in June 2009, the Coast Guard's efforts to develop applicable 
performance measures to evaluate results of the modernization program 
remain in the early stages.\23\ For example, the Coast Guard has begun 
to identify key internal activities and outputs required for mission 
execution within the realigned organizational structure. This effort, 
expected to be completed in summer 2009, is intended as a preliminary 
step before identifying associated business metrics that can be used to 
evaluate how the modernization program has impacted the delivery of 
core services and products. However, Coast Guard officials were still 
in the process of developing a specific time-frame for the estimated 
completion of this next step. As outlined in the Government Performance 
and Results Act of 1993 \24\ and Standards for Internal Control in the 
Federal Government,\25\ performance measures are important to reinforce 
the connection between long-term strategic goals and the day-to-day 
activities of management and staff.
---------------------------------------------------------------------------
    \21\ Project Management Institute, A Guide to the Project 
Management Body of Knowledge, Fourth Edition (2008).
    \22\ GAO, Highlights of a GAO Forum: Mergers and Transformation: 
Lessons Learned for a Department of Homeland Security and Other Federal 
Agencies, GAO-03-293SP (Washington, D.C.: Nov. 14, 2002); and GAO, 
Results-Oriented Cultures: Implementation Steps to Assist Mergers and 
Organizational Transformations, GAO-03-669 (Washington, D.C.: July 2, 
2003).
    \23\ GAO-09-530R.
    \24\ Pub. L. No. 103-62, 107 Stat. 285 (1993).
    \25\ See GAO, Standards for Internal Control in the Federal 
Government, GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999). These 
standards, issued pursuant to the requirements of the Federal Managers' 
Financial Integrity Act of 1982, provide the overall framework for 
establishing and maintaining internal control in the Federal 
Government.
---------------------------------------------------------------------------
    In April 2008, to evaluate aspects of the modernization program and 
identify potential improvements, the Coast Guard engaged the National 
Academy of Public Administration (NAPA) to conduct a third -party, 
independent review.\26\ After completing its review, NAPA provided a 
report to the Coast Guard in April 2009.\27\ The report recognized that 
the Coast Guard's planned organizational realignment ``makes logical 
sense'' and that the service's leadership ``is collectively engaged'' 
to improve mission execution and support-related business processes. 
NAPA cautioned, however, that the Coast Guard remains in the early 
stages of its organizational transformation. To help mitigate potential 
implementation risks and facilitate a successful modernization process, 
NAPA recommended, among other steps, that the Coast Guard develop a 
clear quantifiable business case for modernization, measurement tools, 
and a process of metrics assessment to track modernization progress and 
the effects on mission execution.\28\
---------------------------------------------------------------------------
    \26\ NAPA is an independent, nonprofit organization chartered by 
Congress to assist Federal, state, and local governments in improving 
their effectiveness, efficiency, and accountability.
    \27\ National Academy of Public Administration, U.S. Coast Guard 
Modernization Study (Washington, D.C., April 2009).
    \28\ In discussing the rationale for this recommendation, among 
other considerations, NAPA cited two GAO reports: GAO, Coast Guard: 
Relationship between Resources Used and Results Achieved Needs to Be 
Clearer, GAO-04-432 (Washington, D.C.: Mar. 22, 2004), and Coast Guard: 
Strategy Needed for Setting and Monitoring Levels of Effort for All 
Missions, GAO-03-155 (Washington, D.C.: Nov. 12, 2002).
---------------------------------------------------------------------------
    Similar to GAO's findings, NAPA concluded that one of the key 
challenges faced by the Coast Guard is the development of adequate 
measures to assess the progress and outcomes of the modernization 
program. NAPA noted that such measures are important to ensure that the 
impacts of modernization are aligned with intended objectives and that 
they provide an opportunity to ``course-correct'' as necessary. NAPA 
further noted that the development of appropriate measurement tools 
will help to provide quantifiable support for the modernization 
business case and facilitate stakeholder buy-in. After receiving NAPA's 
report, the Coast Guard established a new organizational entity--the 
Coast Guard Enterprise Strategy, Management and Doctrine Oversight 
Directorate. Among other functions, this directorate is to be 
responsible for strategic analysis, performance management, and ongoing 
coordination of change initiatives within the modernization effort and 
beyond.
Workforce Planning Presents Challenges for the Coast Guard
    Generally, it has been noted by Congress and supported by our past 
reviews that the Coast Guard faces significant challenges in assessing 
personnel needs and providing a workforce to meet the increased tempo 
of maritime security missions as well as to conduct traditional marine 
safety missions such as search and rescue, aids to navigation, vessel 
safety, and domestic ice breaking.\29\ Workforce planning challenges 
are further exacerbated by the increasingly complex and technologically 
advanced job performance requirements of the Coast Guard's missions. 
Workforce planning challenges include managing the assignments of 
military personnel who are subject to being rotated among billets and 
multiple missions. As we have previously reported, rotation policies 
can affect, for example, the Coast Guard's ability to develop 
professional expertise in its personnel and to retain qualified 
personnel as they progress in their careers.\30\
---------------------------------------------------------------------------
    \29\ See, for example, GAO-08-494T, GAO-08-141, and GAO-08-12.
    \30\ GAO, Coast Guard: Challenges for Addressing Budget 
Constraints, GAO/RCED-97-110 (Washington, D.C.: May 1997).
---------------------------------------------------------------------------
    In October 2008, the Coast Guard received congressional direction 
to develop a workforce plan that would identify the staffing levels 
necessary for active duty and reserve military members, as well as for 
civilian employees, to carry out all Coast Guard missions. The 
workforce plan is to include: (1) a gap analysis of the mission areas 
that continue to need resources and the type of personnel necessary to 
address those needs; (2) a strategy, including funding, milestones, and 
a timeline for addressing personnel gaps for each category of employee; 
(3) specific strategies for recruiting individuals for hard-to-fill 
positions; and (4) any additional authorities and resources necessary 
to address staffing requirements.\31\ In response, the Coast Guard 
plans to provide Congress with a workforce plan this summer. As part of 
our ongoing work for the House Transportation and Infrastructure 
Committee, we plan to review the Coast Guard's workforce plan. The 
scope of our work includes assessing whether the Coast Guard's 
workforce plan comports with the parameters set out by DHS guidance 
\32\ and contains the elements that we previously reported as being 
essential for effective workforce plans.\33\ Our scope will also 
include assessing the Coast Guard's related workforce initiatives, such 
as the Sector Staffing Model \34\ and the Officer Specialty Management 
System.\35\
---------------------------------------------------------------------------
    \31\ The Explanatory Statement (House Appropriations Committee 
Print on H.R. 2638/Public Law 110-329, Division D, at 646) accompanying 
DHS's Fiscal Year 2009 appropriations (Consolidated Security Disaster 
Assistance, and Continuing Appropriations Act, 2009, Pub. L. No. 110-
329, 122 Stat. 3574 (2008)) directed the Coast Guard to follow 
workforce planning guidance set out in Senate Report 110-396.
    \32\ Department of Homeland Security, DHS Workforce Planning Guide 
(July 31, 2007).
    \33\ GAO-04-39. The key principles reflect GAO's review of 
documents from organizations with government-wide responsibilities for 
or expertise in workforce planning models and tools. These 
organizations include the Office of Personnel Management (OPM), NAPA, 
and the International Personnel Management Association. Also, see OPM's 
Human Capital Assessment and Accountability Framework, developed in 
conjunction with OMB and GAO, which presents consolidated guidance on 
standards for success and performance indicators that agencies can 
refer to, including workforce planning indicators.
    \34\ The Sector Staffing Model, chartered in 2007, is designed to: 
(1) quantify shortfalls to justify resource proposals, (2) provide a 
transparent basis for mission requirement resource allocation, (3) 
enable senior leadership and program managers to understand resource 
implications of proposed policy changes and requirements, and (4) help 
forecast future staffing needs based on projected activity and mission 
growth. The model was recently beta-tested with a planned deployment 
later this summer.
    \35\ The Officer Specialty Management System will replace legacy 
officer billet codes with a new framework of officer specialties and 
sub-specialties, along with competency requirements for each. The 
system is intended to provide a clearer picture of what is required by 
billets and facilitate better identification of officer corps 
capabilities. The Officer Specialty Management System is being beta 
tested this summer, with a planned deployment for summer 2010.
---------------------------------------------------------------------------
    As an example of its workforce planning challenges, the Coast Guard 
cites continued difficulties in hiring and retaining qualified 
acquisition personnel--challenges that pose a risk to the successful 
execution of the service's acquisition programs. According to Coast 
Guard human capital officials, the service has funding for 855 
acquisition-program personnel (military and civilian personnel) but has 
filled 717 of these positions, leaving 16 percent of the positions 
unfilled, as of April 2009. The Coast Guard has identified some of 
these unfilled positions as core to the acquisition workforce, such as 
contracting officers and specialists, program management support staff, 
and engineering and technical specialists.\36\
---------------------------------------------------------------------------
    \36\ GAO-09-620T.
---------------------------------------------------------------------------
    In addition, the Coast Guard has begun to address several workforce 
planning challenges raised by Congress related to its marine safety 
mission. In November 2008, the Coast Guard published the U.S. Coast 
Guard Marine Safety Performance Plan FY2009-2014, which is designed to 
reduce maritime casualties, facilitate commerce, improve program 
processes and management, and improve human resource capabilities. The 
Coast Guard recognized that marine safety inspectors and investigators 
need increased competency to fulfill this mission. The plan sets out 
specific objectives, goals, and courses of action to improve this 
competency by building capacity of inspectors and investigators, adding 
civilian positions, creating centers of expertise specific to marine 
safety, and expanding opportunities for training in marine safety. As 
noted, the challenge for the Coast Guard is to successfully implement 
this plan, along with the others we have described above.
The Coast Guard Has Taken Steps to Become the Deepwater Systems 
        Integrator, but Some Concerns Remain Regarding Procurement 
        Processes and Cost Reporting
    In addition to workforce planning challenges, the Coast Guard faces 
other acquisition-related challenges in managing the Deepwater program. 
The Coast Guard has taken steps to become the systems integrator for 
the Deepwater program and, as such, is responsible for planning, 
organizing, and integrating the individual assets into a system-of-
systems to meet the service's requirements.\37\ First, the Coast Guard 
has reduced the scope of work performed by ICGS \38\ and has assigned 
those functions to Coast Guard stakeholders. For example, in March 
2009, the Coast Guard issued a task order to ICGS limited to tasks such 
as data management and quality assurance for assets currently under 
contract with ICGS. The Coast Guard has no plans to award additional 
orders to ICGS for systems integrator functions when this task order 
expires in February 2011. Second, as part of its system integration 
responsibilities, the Coast Guard has initiated a fundamental 
reassessment of the capabilities, number, and mix of assets it needs to 
fulfill its Deepwater missions by undertaking a ``fleet mix analysis.'' 
The goals of this study include validating mission performance 
requirements and revisiting the number and mix of all assets that are 
part of the Deepwater program. According to the Coast Guard, it hopes 
to complete this study later this summer. Third, at the individual 
Deepwater asset level, the Coast Guard has improved and begun to apply 
the disciplined management process found in its Major Systems 
Acquisition Manual, which requires documentation and approval of 
acquisition decisions at key points in a program's life-cycle by 
designated officials at high levels. However, as we reported in April 
2009, the Coast Guard did not meet its goal of complete adherence to 
this process for all Deepwater assets by the second quarter of Fiscal 
Year 2009.\39\ For example, key acquisition management activities--such 
as operational requirements documents and test plans--are not in place 
for assets with contracts recently awarded or in production, placing 
the Coast Guard at risk of cost overruns or schedule slippages. In the 
meantime, as we reported in April 2009, the Coast Guard continues with 
production of certain assets and award of new contracts in light of 
what it views as pressing operational needs.
---------------------------------------------------------------------------
    \37\ In 2002, the Coast Guard contracted with Integrated Coast 
Guard Systems to be the systems integrator for managing the acquisition 
of Deepwater program assets. After the program experienced a series of 
failures, the Coast Guard announced in April 2007 that it would take 
over the lead role.
    \38\ ICGS--a joint venture formed by Lockheed Martin Corporation 
and Northrop Grumman Ship Systems--was awarded a contract by the Coast 
Guard in 2002 to serve as a systems integrator for the Deepwater 
program.
    \39\ GAO-09-620T.
---------------------------------------------------------------------------
    Since the establishment of the $24.2 billion baseline estimate for 
the Deepwater program in 2007, the anticipated cost, schedules, and 
capabilities of many of the Deepwater assets have changed, in part 
because of the Coast Guard's increased insight into what it is buying. 
Coast Guard officials stated that the original baseline was intended to 
establish cost, schedule, and operational requirements as a whole, 
which were then allocated to the major assets comprising the Deepwater 
program. As a result, the baseline figure did not reflect a traditional 
cost estimate, which generally assesses costs at the asset level, but 
rather the overall anticipated costs as determined by the contractor. 
However, as the Coast Guard has assumed greater responsibility for 
management of the Deepwater program, it has begun to improve its 
understanding of costs by developing its own cost baselines for 
individual assets using traditional cost estimating procedures and 
assumptions. As a result of these revised baselines, the Coast Guard 
has determined that some of the assets it is procuring may cost more 
than anticipated. As we reported in April 2009, information showed that 
the total cost of the program may grow by $2.1 billion. As more 
baselines for other assets are approved by DHS, further cost growth may 
become apparent. These cost increases present the Coast Guard with 
additional challenges involving potential tradeoffs associated with 
quantity or capability reductions for Deepwater assets. In addition, 
our April 2009 testimony noted that while the Coast Guard plans to 
update its annual budget requests with asset-based cost information, 
the current structure of its budget submission to Congress does not 
include certain details at the asset level, such as estimates of total 
costs and total numbers to be procured.
    In our previous reports on the Deepwater program, we have made a 
number of recommendations to improve the Coast Guard's management of 
the program. The Coast Guard has implemented or is in the process of 
implementing these recommendations.\40\
---------------------------------------------------------------------------
    \40\ For more details on our previous recommendations and their 
status, see GAO, Status of Selected Aspects of the Coast Guard's 
Deepwater Program, GAO-08-270R (Washington, D.C.: Mar.11, 2009), pages 
7-12.
---------------------------------------------------------------------------
Problems in Deepwater Management and Oversight Have Led to Delivery 
        Delays and Other Operational Challenges That the Coast Guard Is 
        Working to Overcome
    Other management challenges associated with the Deepwater program 
have operational or mission performance implications for the Coast 
Guard. Our prior reports and testimonies have identified problems with 
management and oversight of the Deepwater program that have led to 
delivery delays and other operational challenges for certain assets--
particularly: (1) patrol boats and their anticipated replacements, the 
Fast Response Cutters and (2) and the National Security Cutters. The 
Coast Guard is working to overcome these issues, as discussed below.
    As we reported in June 2008, under the original (2002) Deepwater 
implementation plan, all 49 of the Coast Guard's 110-foot patrol boats 
were to be converted into 123-foot patrol boats with increased 
capabilities as a bridging strategy until their replacement vessel (the 
Fast Response Cutter) became operational.\41\ Conversion of the first 
eight 110-foot patrol boats proved unsuccessful, however, and effective 
November 2006, the Coast Guard decided to remove these vessels from 
service and accelerate the design and delivery of the replacement Fast 
Response Cutters. The removal from service of the eight converted 
patrol boats in 2006 created operational challenges by reducing 
potential patrol boat availability by 20,000 annual operational 
hours.\42\ For example, fewer patrol boats available on the water may 
affect the level of deterrence provided as part of homeland security 
missions and reduce the Coast Guard's ability to surge during periods 
of high demand, such as may occur during missions to interdict illegal 
drugs and undocumented migrants.
---------------------------------------------------------------------------
    \41\ GAO, Coast Guard: Strategies for Mitigating the Loss of Patrol 
Boats Are Achieving Results in the Near Term, but They Come at a Cost 
and Longer Term Sustainability Is Unknown, GAO-08-660 (Washington, 
D.C.: June 23, 2008).
    \42\ Each of the eight 123-foot patrol boats was expected to 
provide 2,500 annual operational hours.
---------------------------------------------------------------------------
    To mitigate the loss of these patrol boats and their associated 
operational hours in the near term, the Coast Guard implemented a 
number of strategies beginning in Fiscal Year 2007. For example, the 
Coast Guard began using the crews from the eight patrol boats removed 
from service to augment the crews of eight other patrol boats, thereby 
providing two crews that can alternate time operating each of the eight 
patrol boats (i.e., double-crewing). According to Coast Guard 
officials, additional strategies employed by the Coast Guard that are 
still in use include increasing the operational hours of 87-foot patrol 
boats and acquiring four new 87-foot patrol boats, among others.\43\ To 
help fill the longer-term patrol boat operational gap, Coast Guard 
officials are pursuing the acquisition of a commercially available Fast 
Response Cutter. The first of these cutters is scheduled to be 
delivered in early Fiscal Year 2011, and the Coast Guard intends to 
acquire a total of 12 by early Fiscal Year 2013. While the contract is 
for the design and production of up to 34 cutters, the Coast Guard 
plans to assess the capabilities of the first 12 Fast Response Cutters 
before exercising options for additional cutters.
---------------------------------------------------------------------------
    \43\ For a complete list of mitigation strategies, see GAO-08-660.
---------------------------------------------------------------------------
    Regarding National Security Cutters, the first vessel (National 
Security Cutter USCGC BERTHOLF) was initially projected for delivery in 
2006, but slipped to August 2007 after design changes made following 
the terrorist attacks of September 11, 2001, and was again delayed 
until May 2008 because of damage to the shipyard caused by Hurricane 
Katrina. Based on the results of our ongoing review, the USCGC BERTHOLF 
will likely be 1 year behind schedule when it is certified as fully 
operational, scheduled for the fourth quarter of Fiscal Year 2010.\44\ 
Further, the eighth and final National Security Cutter was to be fully 
operational in 2016 but is currently projected to be fully operational 
by the fourth quarter of calendar year 2018. The Coast Guard has not 
yet acquired the unmanned aircraft and new small boats that are to 
support the National Security Cutters. The Coast Guard plans to draft 
operational specifications for the unmanned aircraft in 2010, and to 
acquire new small boats that are expected to be deployed with the first 
National Security Cutter by the end of calendar year 2010. After the 
unmanned aircraft is selected, the Coast Guard must contract for the 
acquisition and production of the unmanned aircraft, accept delivery of 
it, and test its capabilities before deploying it with the National 
Security Cutter--activities that can take several years. Delays in the 
delivery of the National Security Cutters and the associated support 
assets are expected to lead to a projected loss of thousands of 
anticipated cutter operational days for conducting missions through 
2017, and may prevent the Coast Guard from employing the full 
capabilities of the National Security Cutters and the support assets 
for several years. Given the enhanced capabilities that the Coast Guard 
believes the National Security Cutters have over existing assets, a 
loss in operational days could negatively affect the Coast Guard's 
ability to more effectively conduct missions, such as enforcement of 
domestic fishing laws, interdiction of illegal drugs and undocumented 
migrants, and participation in Department of Defense operations.
---------------------------------------------------------------------------
    \44\ According to the 2007 delivery schedule, the first National 
Security Cutter was to be certified as fully operational in calendar 
year 2009.
---------------------------------------------------------------------------
    To address these potential operational gaps, the Coast Guard has 
decided to continue to rely on its aging fleet of High Endurance 
Cutters and to use existing aircraft and small boats to support the 
National Security Cutters. However, because the High Endurance Cutters 
are increasingly unreliable, the Coast Guard plans to perform a series 
of upgrades and maintenance procedures on selected vessels. However, 
before this work begins, the Coast Guard plans to conduct an analysis 
on the condition of the High Endurance Cutters and complete a 
decommissioning schedule. As a result, work on the first selected High 
Endurance Cutter is not scheduled for completion until 2016. Until the 
Coast Guard has acquired new unmanned aircraft and small boats, the 
Coast Guard plans to support the National Security Cutters with the 
small boats and manned aircraft it currently uses to support the High 
Endurance Cutter. We will continue to assess this issue as part of our 
ongoing work and plan to issue a report on the results later this 
summer.
    Madam Chair and Members of the Subcommittee, this completes my 
prepared statement. I will be happy to respond to any questions that 
you or other Members of the Subcommittee may have.
 Appendix I: Performance Results by Mission, Fiscal Years 2004 through 
                                  2008
    This appendix provides a detailed list of performance results for 
the Coast Guard's 11 statutory missions for Fiscal Years 2004 through 
2008 (see table 4).
 ----------------------------------------------------------------------------------------------------------------

         Table 4.--Coast Guard Performance Results by Mission, Fiscal Year 2004 through Fiscal Year 2008
----------------------------------------------------------------------------------------------------------------
                                                                    Performance results             Performance
    Coast Guard mission     Mission performance measures -----------------------------------------   target for
                                                           2004    2005    2006    2007     2008        2008
----------------------------------------------------------------------------------------------------------------
Missions meeting 2008 performance targets:
----------------------------------------------------------------------------------------------------------------
Ports, waterways, and       Percentage reduction in          n/a     14%     18%     15%      20%            15%
 coastal                     maritime security terrorism
                             risk over which the Coast
                             Guard has influence
----------------------------------------------------------------------------------------------------------------
Drug interdiction           Removal rate for cocaine       30.7%   27.3%   25.3%   32.6%  33.8% b            28%
                             shipped via non-commercial
                             maritime meansa
----------------------------------------------------------------------------------------------------------------
Marine environmental        5-year average number of oil    17.2    15.4    13.6    13.9     12.7           13.5
 protection c                spills greater than 100
                             gallons per 100 million
                             short tons shipped
                           -------------------------------------------------------------------------------------
                            Annual number of oil spills      162     155     165     135      111            151
                             greater than 100 gallons
                           -------------------------------------------------------------------------------------
                            5-year average number of        42.6    32.0    27.9    24.7     19.7           26.6
                             chemical discharge
                             incidents per 100 million
                             short tons shipped
                           -------------------------------------------------------------------------------------
                            Annual number of chemical         39      31      45      41       21             50
                             discharge incidents greater
                             than 100 gallons
----------------------------------------------------------------------------------------------------------------
Other law enforcement       Number of incursions into        247     171     164     119       81            195
 (foreign fishing            U.S. exclusive economic
 enforcement)                zone
----------------------------------------------------------------------------------------------------------------
Ice operations              Number of days critical            4       0       0       0        0          2/8 d
                             waterways are closed due to
                             ice
----------------------------------------------------------------------------------------------------------------
Missions partially meeting 2008 performance targets:
----------------------------------------------------------------------------------------------------------------
Aids to navigation          5-year average number of       1,928   1,875   1,818   1,856    1,857          1,756
                             collisions, allisions, and
                             groundings e
                           -------------------------------------------------------------------------------------
                            Percentage of availability     97.5%   97.1%   97.0%   97.9%    98.3%          97.5%
                             of Federal short-range aids
                             to navigation
----------------------------------------------------------------------------------------------------------------
Search and rescue           Percentage of mariners in      86.1%   86.0%   85.3%   85.3%    83.6%            87%
                             imminent danger saved f
                           -------------------------------------------------------------------------------------
                            Percentage of people saved     76.7%   77.1%   76.0%   76.6%    76.8%          76.0%
                             from imminent danger in the
                             maritime environment
----------------------------------------------------------------------------------------------------------------
Marine safety               5-year average commercial        483     473     501     526      479            501
                             mariner deaths and injuries                            Annual commercial mariner        460     522     616     476      322            483
                             deaths and injuries
----------------------------------------------------------------------------------------------------------------
                            5-year average commercial        170     171     216     238      244            225
                             passenger deaths and
                             injuries                            Annual commercial passenger      259     188     336     253      185            201
                             deaths and injuries
                           -------------------------------------------------------------------------------------
                            5-year average recreational    4,703   4,502   4,366   4,253    4,070          4,252
                             boating deaths and injuries                            Annual recreational boating    4,081   4,120   4,197   3,224    3,658          4,076
                             deaths and injuries g
----------------------------------------------------------------------------------------------------------------
Missions that did not meet 2008 performance targets:
----------------------------------------------------------------------------------------------------------------
Defense readiness           Percentage of time that          76%     67%     62%     51%      56%           100%
                             Coast Guard assets meet
                             designated combat readiness
                             level h
----------------------------------------------------------------------------------------------------------------
Migrant interdiction        Percentage of interdicted        n/a     n/a     n/a   65.2%    62.7%            65%
                             undocumented migrants
                             attempting to enter the
                             United States via maritime
                             routes i
----------------------------------------------------------------------------------------------------------------
Living marine resources     Percentage of fishing          96.3%   96.4%   96.6%   96.2%    95.3%            97%
                             vessels observed to be in
                             compliance with Federal
                             regulations
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of Coast Guard data.
Note: n/a, not available. Performance targets for previous years may have been different than Fiscal Year 2008
  targets.
a This performance measure is to be retired for Fiscal Year 2009. The Coast Guard plans to transition to a new
  measure: the number of metric tons of cocaine removed.
b The cocaine removal rate estimate for Fiscal Year 2008 is based on the non-commercial maritime cocaine flow to
  the United States in 2007. Data on the cocaine flow to the United States in 2008 is to be available following
  the publication of the Interagency Assessment of Cocaine Movement in July 2009.
c Results may be subject to change pending receipt of shipping statistics from the Army Corps of Engineers that
  are used to calculate the normalized 5-year averages. The data are not generally available until the December
  following the calendar year. In Fiscal Year 2009, the Coast Guard also plans to introduce a performance
  measure for oil spill mitigation.
d Closure day targets vary according to the relative severity of the winter. The standard is 2 days in an
  average winter and 8 days in a severe winter.
e A collision refers to two moving vessels that strike one another whereas an allision is when a vessel strikes
  a fixed object, such as a bridge.
f This performance measure is to be retired for Fiscal Year 2009. The Coast Guard has collected data for the new
  measure--percentage of people saved from imminent danger in the maritime environment--for several years, but
  has not reported it externally. The new measure includes ``lives unaccounted for,'' which are those persons
  still missing when search and rescue operations cease.
g 2008 data are based on reports submitted by state authorities that require validation. The Coast Guard expects
  further review of these 2008 reports will reveal a decrease in deaths and an increase in injuries, resulting
  in a probably net increase in the 2008 figure.
h According to the Coast Guard, defense readiness metrics are being reviewed as part of the service's Mission
  Performance Plan to determine what potential changes, if any, are necessary.
i Prior to Fiscal Year 2008, the Coast Guard's primary measure for this mission also included the percentage of
  undocumented migrants that were deterred from using maritime routes to enter the United States. However, given
  the uncertainties involved in estimating the deterrence of potential migrants, the Coast Guard chose to limit
  the measure to undocumented migrants interdicted.

Related GAO Products
    Coast Guard: Observations on the Genesis and Progress of the 
Service's Modernization Program. GAO-09-530R. Washington, D.C.: June 
24, 2009.
    Coast Guard: Administrative Law Judge Program Contains Elements 
Designed to Foster Judges' Independence and Mariner Protections 
Assessed Are Being Followed. GAO-09-489. Washington, D.C.: June 12, 
2009.
    Coast Guard: Update on Deepwater Program Management, Cost, and 
Acquisition Workforce. GAO-09-620T. Washington, D.C.: April 22, 2009.
    Coast Guard: Observations on Changes to Management and Oversight of 
the Deepwater Program. GAO-09-462T. Washington, D.C.: March 24, 2009.
    Maritime Security: Vessel Tracking Systems Provide Key Information, 
but the Need for Duplicate Data Should Be Reviewed. GAO-09-337. 
Washington, D.C.: March 17, 2009.
    Coast Guard: Change in Course Improves Deepwater Management and 
Oversight, but Outcome Still Uncertain. GAO-08-745. Washington, D.C.: 
June 24, 2008.
    Coast Guard: Strategies for Mitigating the Loss of Patrol Boats Are 
Achieving Results in the Near Term, but They Come at a Cost and Longer 
Term Sustainability Is Unknown. GAO-08-660. Washington, D.C.: June 23, 
2008.
    Status of Selected Aspects of the Coast Guard's Deepwater Program. 
GAO-08-270R. Washington, D.C.: March 11, 2008.
    Coast Guard: Observations on the Fiscal Year 2009 Budget, Recent 
Performance, and Related Challenges. GAO-08-494T. Washington, D.C.: 
March 6, 2008.
    Coast Guard: Deepwater Program Management Initiatives and Key 
Homeland Security Missions. GAO-08-531T. Washington, D.C.: March 5, 
2008.
    Maritime Security: Coast Guard Inspections Identify and Correct 
Facility Deficiencies, but More Analysis Needed of Program's Staffing, 
Practices, and Data. GAO-08-12. Washington, D.C.: February 14, 2008.
    Maritime Security: Federal Efforts Needed to Address Challenges in 
Preventing and Responding to Terrorist Attacks on Energy Commodity 
Tankers. GAO-08-141. Washington, D.C.: December 10, 2007.
    Coast Guard: Challenges Affecting Deepwater Asset Deployment and 
Management and Efforts to Address Them. GAO-07-874. Washington, D.C.: 
June 18, 2007.
    Coast Guard: Observations on the Fiscal Year 2008 Budget, 
Performance, Reorganization, and Related Challenges. GAO-07-489T. 
Washington, D.C.: April 18, 2007.
    Port Risk Management: Additional Federal Guidance Would Aid Ports 
in Disaster Planning and Recovery. GAO-07-412. Washington, D.C.: March 
28, 2007.
    Coast Guard: Status of Efforts to Improve Deepwater Program 
Management and Address Operational Challenges. GAO-07-575T. Washington, 
D.C.: March 8, 2007.
    Maritime Security: Public Safety Consequences of a Terrorist Attack 
on a Tanker Carrying Liquefied Natural Gas Need Clarification. GAO-07-
316. Washington, D.C.: February 22, 2007.
    Coast Guard: Preliminary Observations on Deepwater Program Assets 
and Management Challenges. GAO-07-446T. Washington, D.C.: February 15, 
2007.
    Coast Guard: Coast Guard Efforts to Improve Management and Address 
Operational Challenges in the Deepwater Program. GAO-07-460T. 
Washington, D.C.: February 14, 2007.
    Homeland Security: Observations on the Department of Homeland 
Security's Acquisition Organization and on the Coast Guard's Deepwater 
Program. GAO-07-453T. Washington, D.C.: February 8, 2007.
    Coast Guard: Condition of Some Aids-to-Navigation and Domestic 
Icebreaking Vessels Has Declined; Effect on Mission Performance Appears 
Mixed. GAO-06-979. Washington, D.C.: September 22, 2006.
    Coast Guard: Non-Homeland Security Performance Measures Are 
Generally Sound, but Opportunities for Improvement Exist. GAO-06-816. 
Washington, D.C.: August 16, 2006.
    Coast Guard: Observations on the Preparation, Response, and 
Recovery Missions Related to Hurricane Katrina. GAO-06-903. Washington, 
D.C.: July 31, 2006.
    Maritime Security: Information-Sharing Efforts Are Improving. GAO-
06-933T. Washington, D.C.: July 10, 2006.
    United States Coast Guard: Improvements Needed in Management and 
Oversight of Rescue System Acquisition. GAO-06-623. Washington, D.C.: 
May 31, 2006.
    Coast Guard: Changes to Deepwater Plan Appear Sound, and Program 
Management Has Improved, but Continued Monitoring Is Warranted. GAO-06-
546. Washington, D.C.: April 28, 2006.
    Coast Guard: Progress Being Made on Addressing Deepwater Legacy 
Asset Condition Issues and Program Management, but Acquisition 
Challenges Remain. GAO-05-757. Washington, D.C.: July 22, 2005.
    Coast Guard: Station Readiness Improving, but Resource Challenges 
and Management Concerns Remain. GAO-05-161. Washington, D.C.: January 
31, 2005.
    Maritime Security: Better Planning Needed to Help Ensure an 
Effective Port Security Assessment Program. GAO-04-1062. Washington, 
D.C.: September 30, 2004.
    Maritime Security: Partnering Could Reduce Federal Costs and 
Facilitate Implementation of Automatic Vessel Identification System. 
GAO-04-868. Washington, D.C.: July 23, 2004.
    Coast Guard: Relationship between Resources Used and Results 
Achieved Needs to Be Clearer. GAO-04-432. Washington, D.C.: March 22, 
2004.
    Contract Management: Coast Guard's Deepwater Program Needs 
Increased Attention to Management and Contractor Oversight. GAO-04-380. 
Washington, D.C.: March 9, 2004.
    Coast Guard: Comprehensive Blueprint Needed to Balance and Monitor 
Resource Use and Measure Performance for All Missions. GAO-03-544T. 
Washington, D.C.: March 12, 2003.

    Senator Cantwell. Thank you. And thank you both for your 
testimony.
    I have a series of questions here, and we'll start with 5-
minute rounds and go back and forth to try to get through as 
many of these as we can.
    But, Commandant, I'd like to start with the Deepwater 
Program. As you know, this has been a major focus and source of 
frustration here on the Committee. In 1998, the Coast Guard 
estimated that the Deepwater Program would cost $17 billion and 
be completed by 2018. In February, the Coast Guard submitted a 
revised Deepwater plan to Congress--that was in 2005--and the 
cost increased to $24 billion--$24.2 billion, and the 
completion date was pushed back to 2027. Now, this April, GAO 
has issued a report estimating that the total cost will 
increase by $2.1 billion, bringing the real cost to $26.3 
billion. So, we started at $17 billion, we're now at $26.3 
billion, and GAO has noted that the Coast Guard, as you 
continue to gain insights into this, that we might see further 
costs.
    So, I wanted to ask you, Admiral Allen, in the GAO April 
estimate of the increase of $2.1 billion, bringing the total 
cost to $26.3 billion, what--were they correct in that April 
assessment? And is that still accurate today?
    Admiral Allen. The assessment was accurate for what the 
Deepwater Program was described as when we ordered the 
contract. I might add the comment, what we are doing right now, 
we're in the process of disaggregating that collective body of 
work that was awarded to Integrated Coast Guard Systems and 
taking each asset and reestablishing an acquisition baseline. 
That has resulted in some changes of cost estimates, but it 
remains a work in progress. And there are some of which we have 
approved acquisition baselines and some that are still in 
progress. For example, we are still looking at revising the 
acquisition baselines for the fast-response cutter. Our C-130J 
program, the upgrades of our C130Hs and our H-65s--or H-60 
helicopters, NAIS, and our C4ISR system--these could ultimately 
result in different changes, either up or down, and we have yet 
to take a look at the offshore patrol cutter and unmanned 
aerial systems, which have delayed due to technical reasons.
    So, I would tell you that, at the time that the report was 
issued, that was correct, but the business process by which we 
will acquire these assets, which means open competition, 
bilateral contract awards, not through ICGS, could alter that, 
but it remains a work in progress, ma'am.
    Senator Cantwell. So, this Deepwater Program number is a 
moving target?
    Admiral Allen. What we are doing is, as we disaggregate 
what was a collective estimate for the entire system, we're 
going to take each individual platform, which we will now 
openly compete, so we're going to move it into a different 
competitive and contractual environment until we establish 
those acquisition baselines. I would not want to go up or down 
from the number that we published previously, ma'am, but I 
think it will change; hopefully, it will go down.
    Senator Cantwell. So, it's a moving target. I'm----
    Admiral Allen. Yes, ma'am.
    Senator Cantwell. OK. The fast cutter--the fast-response 
cutter, the parent craft, the South African Department of 
Environmental Affairs and Tourism paid $10 million for. So, 
that's the parent craft. In contrast, the fast-response cutter 
to the Coast Guard was $50 million per boat. So, why does the 
fast-response cutter that the Coast Guard purchased cost 500 
percent more than its parent craft?
    Admiral Allen. Well, I'd be glad to give you a detailed 
answer for the record. But, just off the cuff here, first of 
all, we're building them in U.S. shipyards, with a different 
cost structure, and it's very different than having them built 
overseas. The integrated electronics package that goes with it 
was--is likely to be different. And I'd be glad to give you a 
detailed comparison for the record, ma'am.
    [The information referred to follows:]

    Answer. The Fast Response Cutter (FRC) acquisition was a full and 
open competition for a fixed price contract (with economic price 
adjustments), open to all U.S. shipyards. Evaluation of each of the six 
proposals included a detailed analysis for price reasonableness. This 
analysis included a comparison of the offeror's proposed prices against 
the independent government cost estimate. This rigorous process 
determined that Bollinger's price was fair and reasonable. This 
determination was validated by GAO in their January 12, 2009 protest 
decision rejecting an unsuccessful offeror's protest based on the 
government's fair and reasonable determination.
    Although the South African patrol boat is the parent craft for the 
FRC, there are differences between the two which are necessary to meet 
the Coast Guard's requirements. Some of the key differences include 
increased flank speed from 23.8 to 28 knots (requiring different and 
more expensive engines), the addition of stern launch and recovery for 
small boat capability, additional bulkheads to improve damage 
stability, increased and ``Americanized'' electrical systems, 
reconfigured interior arrangements to enhance habitability and 
increased C4ISR capability. Additionally, the FRC project total 
acquisition cost includes a third-party design review by the American 
Bureau of Shipping (ABS), which is a certification and classification 
society. ABS certification was put in place to enhance oversight/
minimize risk during design and construction. Finally, the FRC contract 
cost also includes non-construction items, such as training, test and 
evaluation, warranty, logistics support, insurance spares and 
outfitting, which were not factored into the cost of the South African 
parent craft.

    Senator Cantwell. Well, Admiral Allen, given your last 
response, that we are looking at a moving target on the overall 
cost of the Deepwater Program, and the fact that you don't have 
a sharper answer, I doubt that the labor costs are 500 percent 
more in the building of this craft.
    Admiral Allen. No, ma'am. And I could give you a more 
detailed answer as we spread the cost of the entire length of 
the contract, per whole, and I'd be happy to do that for the 
record, ma'am.
    [The information referred to follows:]

    Answer. The total estimated amount for the Fast Response Cutter 
(FRC), $3927.0M, represents the cost to acquire a total of 58 cutters. 
The following summary (in Then Year dollars) differentiates between 
production costs and government costs outside of the production 
contract.
    Contract Cost Estimates: $3361.0M

  <bullet> Construction

  <bullet> Spares

  <bullet> Economic Price Adjustment

  <bullet> Reprocurement Data and License Package

    Non-Contract Cost Estimates: $566.0M

    Senator Cantwell. What is the exact figure being paid to 
Damen Shipyard for the parent craft licensing, design, and 
assistance fees?
    Admiral Allen. I don't know that off the top of my head, 
but I'd be glad to answer for the record, ma'am.
    [The information referred to follows:]

    Answer. The Coast Guard's SENTINEL Fast Response Cutter (FRC) 
contract is with Bollinger Shipyards, Inc (BSI). Damen Shipyards Group 
is a sub-contractor paid directly by BSI. BSI and Damen have determined 
that details of their licensing fee and royalty arrangement are 
proprietary.
    The BSI and Damen licensing fee and royalty arrangement is 
consistent with the other FRC offers which the Coast Guard evaluated.

    Senator Cantwell. How will the contractor mitigate concern 
expressed by the American Bureau of Shipping that the hull is 
not strong enough to withstand slamming pressures at high 
speed?
    Admiral Allen. Well, we selected a design that was already 
in use, as you said, and not only South Africa, but in Jamaica, 
as well. We have independent ABS consultation, as you have just 
stated, and we are going over design reviews at this time. We 
have not got to the final design review on the cutter, but all 
those are being addressed in the reviews at this time.
    Senator Cantwell. Why hasn't the Coast Guard visited and 
toured the fast-response cutter--you know, the Damen product 
and the vessels operated by Jamaica, which is 13 feet shorter, 
90 tons lighter, than the Damen, which is the Coast Guard's 
parent-ship craft?
    Admiral Allen. Ma'am, I believe we have seen these ships in 
operation. I don't know the exact dates of the visit, but we 
can provide that to you.
    [The information referred to follows:]

    Answer. The Coast Guard SENTINEL Fast Response Cutter (FRC) parent 
craft is the Damen STAN 4708. South Africa currently operates Damen 
STAN 4708 patrol boats. The Damen patrol boats operated by the Jamaican 
Defense Force Coast Guard are the Damen STAN 4207, which differs in 
length and tonnage from the Coast Guard's FRC parent craft and the 
South African patrol boats.
    Coast Guard personnel toured and got underway on the HMJS 
MIDDLESEX, a Damen STAN 4207 operated by the Jamaican Defense Force 
Coast Guard, on October 27, 2008. The USCG also visited the parent 
craft design/builder, Damen Shipyards, located in Gorinchem, The 
Netherlands, in January 2009.
    Both of these visits followed the conclusion of the source 
selection process and contract award and focus on gathering design, 
build and operational lessons learned.

    Senator Cantwell. That would be much appreciated.
    Admiral Allen. Yup.
    Senator Cantwell. And my time is up, but we'll come back--
we'll come back to this.
    Senator Snowe?
    Senator Snowe. Thank you.
    Admiral Allen, obviously one of the emerging threats is 
piracy, as we've seen with a number of incidents in the Gulf of 
Aden, as well as looking at the attacks that occurred in Mumbai 
last November, which obviously puts a greater strain even on 
the Coast Guard.
    And, based on what the GAO has said, Mr. Caldwell, with the 
fact that it's becoming increasingly difficult to monitor, to 
track smaller vessels--I mean, it's becoming exceedingly 
difficult--how do you intend, Admiral Allen, to respond to 
this? I know you have a small vessel security strategy. Do you 
intend to reform it, update it from where you established it a 
year ago, given the number of incidents that have occurred? 
Obviously this is becoming a greater and more emergent threat 
that we have to address.
    Admiral Allen. Ma'am, you're raising an extremely good 
issue. I actually have traveled around the world, I've met with 
the Director General of the Indian Coast Guard, Vice Admiral 
Chopra, about the Mumbai attacks. I visited the Horn of Africa, 
and I visited the areas where we've had terrorist attacks 
before in the Middle East. Currently, the threshold for 
international regulation for monitoring vessels regarding 
carriage requirements for identification systems is 300 gross 
tons and above. Everything below 300 gross tons is the 
responsibility of the state that's involved, to set those 
regulations, and they vary dramatically all over the world.
    To give you an example, the--in Singapore, they monitor, 
through locating devices, vessels down to the jet-ski level. In 
the country of Ecuador, it's 25 feet and above. I've engaged in 
a very robust public conversation with the interest groups in 
this country in the 3 years I've been Commandant. I'm talking 
largely about the recreational boating community, commercial 
fishing vessels, uninspected towboats and workboats, which 
largely constitute that body of vessels.
    I do not believe there is a consensus in this country for 
what constitutes an adequate maritime security regime related 
to small boats. There are a couple of ways to come at this. One 
is locator devices that are mandated as carriage requirements. 
You can create exclusion zones and control traffic, the way we 
do with general aviation aircraft over the Capitol. But, as it 
stands right now, with all the groups that I have talked to, I 
do not see a clear consensus forward to move carriage 
requirements for locating devices down. We have the option to 
put various places off limits and put restrictions on where 
those vessels can move, but there is a strong history of 
autonomous operation on the water here, and that's really what 
we're dealing with, ma'am.
    Senator Snowe. So, how would characterize this 
vulnerability? Is it a serious vulnerability?
    Admiral Allen. Out of all the threats we face in a port--
and I'm talking about everything--cargo containers and 
everything--I would say, in my own personal view, it is the 
greatest vulnerability.
    Senator Snowe. It is the greatest vulnerability.
    Admiral Allen. Yes, ma'am.
    Senator Snowe. Mr. Caldwell, I know that you have addressed 
this, based on your testimony--how--under the current 
circumstances, how could the Coast Guard combat this, in any 
way, other than, I gather, that increasing manpower?
    Mr. Caldwell. There are a couple of ways that the Coast 
Guard and other stakeholders are moving forward--and I think I 
want to emphasize the other stakeholders, because a lot of it 
is going to be up to them, as well. The Coast Guard has its 
Waterway Watch Program, which is a key program. Perhaps that 
can be made more robust. We've seen some very good programs at 
the State level. For example, New Jersey, where there were more 
frequent visits, more familiarization between some of the law 
enforcement folks and the people that work at everything from 
floating docks to bait shops to boat landings and places like 
that.
    But, what it's--we see in some locations going on is 
increasing areas of exclusion to small boats; for example, I 
think it's--Port of Los Angeles, Port of Long Beach are both 
working on increasing some of the areas where--there's really 
no business for small boats to go there, so they're putting 
these exclusionary zones up. They already exist in some places, 
like Houston, where you have the ship channel.
    But, I think, in terms of--the biggest problem--the core of 
the problem is, while the vulnerabilities are huge, there's 
really not a lot of active intelligence to show that there's an 
actual threat out there. And, like all problems like that, it's 
very difficult to get the political will to do something, or 
the resources to do something, until something happens. And 
hopefully that won't be the case in this case.
    Senator Snowe. Admiral Allen, are you devising a strategy 
or proposals in this regard?
    Admiral Allen. Well, I think there are a couple of steps 
that we can take. First of all, under the Marine Transportation 
Security Act, we are going to lower the carriage requirements 
for automated identification systems to commercial vessels 65 
feet and above, which will take another bite out of that 
population, if you will. But, sooner or later, we're going to 
get down to the threshold where we're going to be looking at 
largely recreational boats and commercial fishing vessels.
    I think there are a couple of things to consider, moving 
forward, and some of these have safety implications, as well. 
We have thought, for many, many years, there ought to be a 
standardized way to establish competency for operating 
recreational boats. And there's a huge safety reason to do 
that. We kill about 700 people a year in recreational boating 
accidents. I think coming up with a standardized national way 
to establish competency requirements, so, when the Coast Guard 
goes aboard a boat, they know that whoever is operating it is 
competent, and who they are, will go a long way for resolving 
some of the ambiguity. But, ultimately, it's going to be the 
movement of the vessel itself and the tolerance for the 
American public to have that controlled.
    Senator Snowe. Thank you.
    Thank you, Chair.
    Senator Cantwell. Thank you.
    Senator Wicker?
    Senator Wicker. Thank you.
    Admiral the National Security Cutter is being built in 
Pascagoula, Mississippi, at Northrop Grumman. It's my 
understanding that the Coast Guard executed final acceptance of 
cutter number 1 in May, the BERTHOLF. Are you able to give us 
an initial assessment, at this point, of how the ship is 
performing its first months into service life?
    Admiral Allen. Well, we have taken acceptance of the ship. 
It has been--it's passed all information assurance and tempest 
testing, so it has interim authority to operate regarding the 
information systems and the communication systems onboard. We 
remained and built--put equipment into the SCIF, which was an 
add-on after the contract was awarded. The ship has passed its 
combat systems qualifications test, and is now deployed in the 
Eastern Pacific on a counterdrug patrol.
    So far, the positive things that are said about the ship 
is, number one, how quiet it is and how smooth the ride is. And 
we know that seakeeping capacity for these large ships that 
operate offshore is going to be extremely important.
    Some of the issues are, we are dealing with and will want 
to take a look at as we operate the ship in its first year, are 
the boat-handling systems, how well--launch and recover boats; 
and you only do that by actually getting out and testing that 
in an operational environment. But, other than that, early on 
the crews think it's a great ship. The habitability is much 
better than anything we've ever built before, and as is the 
central package.
    Senator Wicker. Great. National security cutter number 2--
how do you pronounce that?
    Admiral Allen. ``Way-she'' [WAESCHE].
    Senator Wicker. ``Way-she'' [WAESCHE]. Two syllables. Is it 
87 percent complete? Is that my--am I correct in that 
understanding?
    Admiral Allen. Yes, sir, 85 to 90 percent. Yes, sir.
    Senator Wicker. OK, good. Based on that--we have number one 
out in the Eastern Pacific now, we have the WAESCHE almost 
complete--would you say the NSC design is now mature?
    Admiral Allen. It will be mature when we finally finish 
operational test and evaluation, but we think we have a steady 
technical baseline that we have addressed all of the structural 
issues related to the fatigue life of the ship, which was 
originally in question, whether or not it would make 30-year 
service life with the changes that are being made. The Naval 
Surface Warfare Center at Carderock has validated the fact that 
it will achieve a 30-year service life.
    What we intend to do with the first two vessels is 
actually--we are actually putting what we call ``strain 
gauges'' on them, and actually test the forces on a ship in 
operation to see what the optimum retrofit of those two hulls 
would be to achieve a 30-year service life.
    A good deal of these estimates were made on computer 
modeling that had never done before, and you need to kind of 
compare that to the operational environment the ship is in and 
how it's performing, and that's what we're doing right now.
    Senator Wicker. When do you think we'll accept the--execute 
final acceptance of the WAESCHE?
    Admiral Allen. It'll be next year sometime. We'll--we will 
commission it later on this year, and then put it into service 
1 year after that--there's a warranty period--and we'll take 
delivery, sir.
    Senator Wicker. Calendar year 2010.
    Admiral Allen. Yes, sir.
    Senator Wicker. Well, let's talk about the cost. There are 
obviously a number of factors. There were changed requirements, 
based on 9/11; there was a strike. But, not the least of the 
factors was Hurricane Katrina. But, it--all of these 
contributed to a higher-than-expected cost of the BERTHOLF. I 
hope we can bring costs down in the future. And I recently 
voiced my support in a letter, with Senator Landrieu and 
Senator Vitter, for providing the Coast Guard with the funding 
needed for long-lead-time materials on NSC hulls 5 through 8. 
By purchasing the materials now, it is thought that we will 
save money on a per-unit basis and bring stability to the 
shipbuilding and industrial vendor base. What do you think of 
that rationale, Admiral?
    Admiral Allen. Well, sir, generally, in any ship 
contracting environment, the more you buy, and the earlier, 
there's going to be an economic advantage in doing that. And 
what you don't want to do is break production, because you 
learn--you lose a learning curve with the employees. It has to 
be reestablished on subsequent hulls.
    By providing the long-lead-time materials for number 5--
would allow us not to break production and proceed in doing 
that, and it would also lower the unit cost for all the 
remaining vessels.
    Senator Wicker. Then, if I have--well, I'm--25 seconds.
    I think I'll wait until the second round, Madam Chair. 
Thank you.
    Senator Cantwell. Thank you, Senator Wicker.
    Senator Begich?
    Senator Begich. Thank you very much, Madam Chair.
    A couple of questions. Thank you very much for both of you 
being here today. And, as you know, from Alaska, with a sizable 
amount of coastland--coastline, there is huge demands--a 
variety of demands and different conditions. Can you tell me, 
Admiral, in regards to the Arctic needs--icebreakers and--kind 
of, where we might be, or where we should be, with the activity 
within the Arctic with--between icebreakers and stationing and 
other types of activities? I know I've had discussions with 
individuals within your organization, but can you give me some 
thought there? And have you put together, or are you in the 
process of putting together, a long-term plan of dealing with 
the Arctic? As we know, it's not just going to be fishing, it's 
going to be oil, it's going to be transportation, it's going to 
be cruise ships, it's a variety of things. Can you give me some 
comment?
    Admiral Allen. Yes, sir. First of all, for the past two 
summers and this summer we have moved equipment up to the North 
Slope to see how it operates in the open water as the icecap 
has receded. And this includes small boats, helicopters, buoy 
tenders, and larger cutters. And I'll separate out the 
icebreaker issue for a moment, if I could.
    Senator Begich. Sure, no problem.
    Admiral Allen. We are learning, now, valuable lessons about 
what operates up there well and what doesn't, and what can 
support operations and what can't. We know that we are 
challenged with small-boat operations, because of the ability 
to launch them in the vicinity of Point Barrow, and maybe need 
to look at an alternative, such as an airboat that we use on 
the Great Lakes in the ice season.
    Our helicopters are challenged by the lack of navigation 
and communications, command-and-control infrastructure up 
there. And the weather, even in the summer, as you know, is 
very changeable up there. Any ship operating of the North 
Slope, even in open water, has to have some kind of ice-
strengthened hull on it, because there are pieces of ice 
floating around there, and if the direction of the wind flows 
for any particular time steadily, it can all pack together. So, 
at a minimum, one of our reinforced hulls on our ice---I mean, 
our buoy tenders would be needed to operate up there. We've 
moved to a high-endurance cutter up there. It's not the optimal 
platform to operate up there.
    We're in the process of doing a high-latitude study, and, 
later on this year, we hope to develop a mission analysis for 
what exactly the requirements are to operate up there and what 
capabilities would meet it. There is not a--quite a match right 
now, one for one, on what we have, but we are taking what we 
have and moving it up there in the summer to try and achieve an 
effect.
    Regarding the icebreakers, there's a current national 
policy discussion going on pursuant to the issuance of National 
Security Presidential Directive 66, that was issued in January, 
that laid out a much broader set of national issues up there 
that go well beyond the traditional science, which was the 
basis for the last directive, in 1994. I think we need an 
alternatives analysis. We have an issue with--our icebreaker 
fleet is atrophying, and we're in the--we run the risk of 
losing that national capability.
    I don't want to leap right ahead to say we need to start 
designing and building icebreakers right now, but we have to 
have an alternative analysis of what kind of presence and what 
kind of capability we need up there. There needs to be 
consensus, and we need to move ahead.
    Senator Begich. Let me go a little more detail there. In 
regards to moving equipment--because I am familiar with your 
last 2 years or so of work up there, especially within the 
Barrow region, and it hasn't been very successful. I mean, it's 
taught--it has given you a lot of insight, there's no question 
about it--but, do you believe, in the mission analysis that you 
mentioned, the high-altitude study that you're doing--what's 
the timetable for that? And what will your hope be out of that? 
Will it tell you what you need to do up there, the capacity, as 
well as the budgetary needs? And what's the--again, what's the 
timetable on that?
    Admiral Allen. It will give us what is required to operate 
up there. In other words, you need a--let's say, a capability 
that can operate X miles offshore in such amount of ice that's 
in the water, be able to be--move it, to launch it, to refuel 
it, to have people to support it. That may or may not lead you 
to what we have right now. My guess is, it will lead us to 
something other than what we're operating up there right now, 
because----
    Senator Begich. And so----
    Admiral Allen.--we know that we're having issues. But, that 
kind of baseline-level requirement--presupposing the platform, 
and then you go to an alternatives of analysis in how you would 
achieve that.
    Senator Begich. And would it lay out a detailed timetable?
    Admiral Allen. Hopefully, yes.
    Senator Begich. And a cost?
    Admiral Allen. That will be related to the alternatives 
analysis and what platforms might be desired up there. There's 
a big difference between running in an airboat and having some 
kind of an----
    Senator Begich. I see.
    Admiral Allen.--ice-strengthening cutter operate offshore.
    Senator Begich. Oh, yes.
    Admiral Allen. It's how you want to create the presence.
    Senator Begich. And those reports will be done when?
    Admiral Allen. Later this year, sir.
    Senator Begich. Later this year?
    Admiral Allen. Yes.
    Senator Begich. Will they be in time for--as you move 
through the 2011 budget process, to include, if necessary?
    Admiral Allen. It would----
    Senator Begich. Might----
    Admiral Allen.--be close, and I'd be glad to give you an 
update for the record.
    Senator Begich. That would be good. My concern is, as you 
know, the activity up there, especially with exploration and 
others increasing rapidly, and the issues of fisheries is being 
debated as we speak, now, of what will be open, or not. And if 
we are not in the 2011 cycle, we'll be in the 2012-beyond, and 
there'll be a lot of activity up there, and I'd hate to not be 
prepared. And the Coast Guard is critical up there for life 
safety. So, could you give me something on the record on that, 
on the timetable, and if that will fit into the budget process?
    [The information referred to follows:]

    Answer. The High Latitude Study Mission Analysis Report is being 
completed in phases. The first portion, which addresses current polar 
icebreaking requirements in the Arctic, is currently under review. The 
remainder of the report, which will examine Coast Guard requirements 
across all mission areas and future icebreaking requirements in the 
Arctic and Antarctic, is in progress and will be completed by June 
2010. It should be noted that Phase I of the report may be updated 
based on findings contained in subsequent phases.

    Admiral Allen. I would be happy to do that. I would make 
one quick comment. Irrespective of where we go with icebreaker 
replacement, icebreakers are capable of providing presence and 
a wide range of multimission activities up there now. That's 
the reason maintaining that capability in the current 
government inventory until we make a decision is extremely 
important.
    Senator Begich. Thank you very much.
    I'll hold my next--because I do have some questions on 
icebreaker capacity. So, I'll leave that.
    Senator Cantwell. Thank you.
    Admiral Allen, I'd like to go back to the Deepwater Program 
and--one of the--you talked about the cost possibly going up 
and down, a moving target, if you will. Are you looking at the 
timetable for asset delivery to be 2027? That's kind of what--
that is what the GAO, based on their analysis of your work, was 
originally 2027. Not originally; originally, it was 2018. But, 
since we've gone through this--one of the great Coast Guard 
mishaps, known as the Deepwater Program----now it's 2027. So, 
do you still believe in that delivery date for the assets, or 
is that going to change, as well?
    Admiral Allen. Well, I think, as we take each one of these 
platforms, and we independently compete it, openly compete it, 
we have an opportunity to maybe move that back to the left. 
That--we would all agree, that is way too long, especially when 
you're dealing with ships out there in the conditions that ours 
are in right now. That's the reasons rebaselining each one of 
these assets is extremely important, to look not only at what 
the cost is to do it independently and with an open 
competition, whatever opportunities might exist, as well, to 
move those schedules to the left.
    Senator Cantwell. And on the fast-response cutter, to be 
clear, I don't--our records show that you have not visited the 
parent craft; you have visited similar craft, but you have not 
visited the parent craft. And why this is so important is 
because obviously if you base the original design on something 
and then add, you know, 13 feet to it--we've been down that 
track before, with the 110-class cutter, and the problems that 
we faced when 13 feet were added. And so, if you're going to 
buy ships that cost $50 million apiece, wouldn't you want to 
visit the parent craft to understand its vulnerabilities, 
particularly when we want to know whether the hull is strong 
enough to withstand slamming at high speeds, a basic day-to-day 
function of the craft?
    Admiral Allen. Yes, ma'am. When we talk about parent craft, 
it's not the identical ship that's going to be built; it's 
close enough where a design can be derived from it that meets 
our requirements. The previous patrol boats that were built at 
Bollinger, the 179-foot patrol craft, the 110-foot patrol boats 
that we bought, and the 87-foot patrol boats, were all 
derivative of parent craft. The 123 extension was modifications 
made to ships that had already been in service for many, many 
years, under many--very different conditions, and I'm not sure 
they're comparable.
    Senator Cantwell. I know what's comparable, and the thing 
that's comparable here is, we don't want to find out that 
somebody hasn't dotted the i's and crossed the t's and come 
back with a vessel that doesn't perform.
    Admiral Allen. I agree with you completely, ma'am.
    Senator Cantwell. OK. So, my question is--so, did you visit 
something that was 13 feet shorter and 90 tons lighter, or did 
you visit something that was the exact specifications?
    Admiral Allen. Because the ship we will build will not be 
exactly like the parent craft, I would have to say no, we 
haven't, because the ship hasn't been built, ma'am.
    Senator Cantwell. So, I think that--OK, we'll get back to 
that in a second. I want to go on to the major system 
acquisition manual. The GAO and IG and Defense Acquisition 
investigations into the Deepwater failings said that one of the 
underlying problems was the fact the Coast Guard failed to 
own--follow its own Major System Acquisition Manual, and that's 
obviously the acquisition process that the Coast Guard sets 
out, and obviously the Coast Guard exempted the Deepwater 
Program originally from that.
    In the Coast Guard hearing in April of 2007, you told me 
that the Major System Acquisition Manual will apply to all 
acquisitions. So, are there any current Coast Guard actions 
that are deviating from, and not completely abiding by, the 
acquisition manual?
    Admiral Allen. Well, first of all, we--the Major Systems 
Acquisition Manual is the acquisition doctrine, according to 
our acquisition blueprint. I would have to go back and do a 
review and see if there are any exceptions, but no major gaps 
that I'm aware of, ma'am. But, I will be glad to check and 
provide an answer.
    Senator Cantwell. Well, it's my understanding that the 
fast-response cutter is not completely following the 
acquisition manual process.
    Admiral Allen. In what regard, ma'am?
    Senator Cantwell. In the process of acquisition for making 
sure that there is a timely--sorry. GAO testified before the 
House that the Coast Guard actually departed from the 
procedures set forth in its revised Manual for Design 
Construction. I don't know if GAO wants to comment on this.
    Mr. Caldwell. We did find some issues where they were 
diverging from the MSAM and not following it. This was test run 
by Mr. Hutton, my colleague, who focuses on some of the 
acquisition work. But, that was in our April testimony. I can 
give you the exact details of those before.
    [The information referred to follows:]

    Answer. All Coast Guard major acquisition projects are required to 
comply with the Major Systems Acquisition Manual (MSAM). However, the 
following integrated Deepwater Systems (IDS) projects are being 
transitioned to spate major system acquisition, in many cases receiving 
additional acquisition documentation them previously as part of IDS. In 
the interim, as this documentation is developed, these projects are not 
in compliance with the MSAM: such as the Maritime Patrol Aircraft 
(MPA), HH-60 Conversion Project, HH-65 Conversion/Sustainment Project, 
HC-130H Conversion/Sustainment Project, HC-130J Fleet Introduction, 
National Security Cutter, Offshore Patrol Cutter, Fast Response Cutter 
(FRC), IDS Small Boats, and C4ISR.
    During the transition of individual acquisition projects out of the 
Deepwater ``system-of-systems'' environment, each individual project 
was reviewed to determine where it was positioned within the 
acquisition lifecycle framework. All Deepwater acquisition projects are 
now required to develop individual asset-based plans. Progress toward 
completion of required MSAM plans is monitored and reported quarterly 
for all major acquisitions (including the Deepwater asset-level 
projects) to ensure all projects complete phase-appropriate required 
plans prior to their next scheduled milestone review (Acquisition 
Decision Event) with the DHS Acquisition Review Board.
    MSAM deviations by the FRC and C4ISR projects cited by GAO are 
acknowledged. Although the FRC project proceeded with contract award 
without an Operational Requirements Document (ORD), the Coast Guard, 
with DHS concurrence, authorized a waiver to proceed using a Top-level 
Requirements document to mitigate the significant mission gap in patrol 
boat hours, addressing some of the performance gaps mentioned by Mr. 
Caldwell earlier in his testimony. The C4ISR Discrete Segment 2 
(Migration) contract was also awarded without an ORD because the effort 
builds on Discrete Segment 1 (initial capability already delivered 
under ICGS) and transitions the proprietary software system to one 
functioning with more government-owned software, facilitating future 
Coast Guard integration, support, and sustainment. Additionally, the 
existing robust set of C4ISR Project requirements were derived from an 
approved Deepwater Mission Need Statement--20 April 2005, Deepwater 
Concept of Operations (CONOPS)--25 June 2002, Deepwater ORD--25 June 
2002 and many other baseline documents, asset CONOPS and ORDs. These 
requirements were addressed to produce, test and deploy the C4ISR 
hardware and software baseline releases for the National Security 
Cutter (NSC) and the MPA mission support systems on the HC-144A ``Ocean 
Sentry'' Medium Range Surveillance Aircraft and the HC-130J Long Range 
Surveillance Aircraft. The Coast Guard currently is developing ORDs for 
both FRC and C4ISR projects.

    Mr. Caldwell. One other area of work where Coast Guard is--
I mean, I think in--in some cases Coast Guard is trying to 
implement the MSAM, it's just, Have they done it, and at what 
point do you have to stop what you're doing to comply with 
MSAM, versus continue to execute the contract? So, I think 
that's probably part of the tradeoff that the Coast Guard----
    Senator Cantwell. But, isn't----
    Mr. Caldwell.--is facing.
    Senator Cantwell.--isn't this what got us into trouble, by 
throwing out the rules of acquisition? And isn't----
    Mr. Caldwell. Certainly.
    Senator Cantwell.--isn't what--going to give us confidence, 
moving forward, is that we are following the manual again?
    Mr. Caldwell. Certainly.
    Senator Cantwell. I mean, I have----
    Mr. Caldwell. And we have--and we are moving toward that, 
in terms of recommending the Coast Guard move forward on that 
acquisition.
    Senator Cantwell. Thank you. My time is up.
    Senator Snowe, did you want to----
    Senator Snowe. Thank you, Madam Chair.
    Admiral Allen, do you agree with what was written in the 
GAO report regarding the potential cost of the program on 
Deepwater to grow by $2.1 billion? I know, Mr. Caldwell, that 
in your testimony you indicate that in April, information 
showed the total cost of the program may grow by $2.1 billion. 
Do you agree with that, Admiral Allen? I mean, have you----
    Admiral Allen. I think, at the time, given the way the 
acquisition was structured, that was a valid estimate. As I 
stated to Madam Chair Cantwell, we are disaggregating every 
platform in Deepwater, and rebaselining the acquisition, 
including the cost projections. This will cost some 
variability, and it will be a moving target, as I stated 
earlier. We also have the opportunity, because we are going to 
be competing these things, and a lot of the work won't be 
assigned, as would have been the practice under Deepwater. 
There is an opportunity to achieve some efficiencies. But, we 
are in the process right now of rebaselining all these 
acquisitions, and as we do that we will make the information 
available to the Committee.
    Senator Snowe. Also, they recommended that certain details 
at the asset level, such as estimate total cost and total 
numbers to be procured, were not included in your budget.
    Admiral Allen. They will be, under each acquisition.
    Senator Snowe. They will be?
    Admiral Allen. That is part of the process, yes, ma'am----
    Senator Snowe. OK.
    Admiral Allen.--is to provide that clarity and 
transparency.
    Senator Snowe. OK. With the first National Security Cutter, 
costs increased 100 percent during the design and the 
construction phase. And, as Senator Wicker was just mentioning, 
concerning the fact that the lead materials would be a way in 
which to reduce the costs----
    Admiral Allen. That's correct.
    Senator Snowe.--because it would not interrupt the process, 
it wouldn't interrupt the construction, it wouldn't incur 
delays. So, have you argued to have that additional money 
provided so that you can acquire the lead materials so it can 
be a consistent, seamless process during the course of design 
and construction on the subsequent cutters?
    Admiral Allen. Well, there have been legitimate issues 
raised, not only by the Committee, but inside the 
Administration, whether or not we had achieved the, quote, 
``technical baseline'' for the National Security Cutter that I 
addressed earlier in response to Senator Wicker's questions. 
What we are doing right now is, we are bringing in an 
independent third party to validate whether or not we've got 
that technical baseline right. Just one more check added to 
what I said earlier. And, based on that, we will propose to the 
administration to go forward and seek the funds for long lead 
time for number 5, and that is a work in progress.
    Senator Snowe. On the high-endurance cutters--I mean, we 
know about the ages and the emergency maintenance; about a 
third of the high-endurance cutters are now in drydock for 
maintenance. What about funding? Are you going to be robbing 
Peter to pay Paul on these maintenance issues because there is 
not additional funding, as I mentioned in my opening statement 
that is targeted for those specific issues? So, are you going 
to borrow from maintenance of other----
    Admiral Allen. If we get the President's request in FY 
2010, we should be OK on the high-endurance cutters. There was 
an extraordinary maintenance line item included in our current 
services budget, not the enhancements over the top of $35 
million. If we get that in the President's budget, we'll be 
successful for 2010. But, I would have to state that, when we 
move to 2011, we're starting to get to a point with the 
National Security Cutters coming online, we have got to look at 
removing the oldest and then the--cutters that are in the--need 
of most repair, at some point, are going to have to be removed 
from service, and we've got to get the new cutters out there. 
That will reduce the cost of maintenance and allow us to put 
the cutters that are out there, capable, on patrol.
    Senator Snowe. But, do you have specific funding for the 
high-endurance cutter's maintenance?
    Admiral Allen. We----
    Senator Snowe. Do they schedule----
    Admiral Allen. We get funding and--for----
    Senator Snowe. Are they scheduled maintenance or 
unscheduled?
    Admiral Allen. The DALLAS the GALLATIN is unscheduled 
maintenance right now.
    Senator Snowe. Right. So, those are costs that you didn't 
anticipate. So----
    Admiral Allen. Correct----
    Senator Snowe.--how are you going to----
    Admiral Allen.--so we're moving money around.
    Senator Snowe.--accommodate----
    Admiral Allen. Exactly right, ma'am.
    Senator Snowe. Yes, that's a problem.
    Admiral Allen. Yes, it is, and----
    Senator Snowe. I mean, because that's a problem with----
    Admiral Allen.--we're recouping some of that in 2010 in the 
budget.
    Senator Snowe. I hope so, because----
    Admiral Allen. Yes, ma'am.
    Senator Snowe.--we don't want to repeat those mistakes of 
the past, which was, you know, borrowing from maintenance of 
already aging fleet, which I know you know, as well as I do, is 
the third oldest naval fleet in the world. So, I mean, clearly 
we need to do everything we can to stay on course without 
borrowing from other maintenance programs in order to 
underwrite this maintenance. If it needs to be done, it needs 
to be done, and obviously you need to have the assets, and so 
do the men and women who depend on it. So, I hope that you will 
continue to consult and communicate with us on that.
    Now, one other issue, in support of acquisition reforms. 
GAO noted that 16 percent of the Coast Guard's acquisition 
personnel positions remain vacant. What are you doing to 
address that so that we also don't invite repetitive issues, 
such as cost overruns, delays, and other issues regarding 
Deepwater? Are you filling those position? What's happening 
there?
    Admiral Allen. Yes, ma'am. In fact, that number kind of 
moves around. I think, actually, as of the time of this 
hearing, I think it's down around 14 percent, so it's dropped a 
little bit. And this moves as people transfer seasonally or 
compete for other jobs.
    One of the most valuable things we can have is what we call 
direct-hire authority, when we go out and we find somebody to 
have a streamlined way to bring them onboard. And recently 
we've started a program where we're going to start taking 
senior enlisted people in the Coast Guard and putting them 
through an internship program--will ultimately lead to 
assignment as a Coast Guard officer or petty officer, on 
retirement, to hire them as a civilian, where we've actually--
starting to grow our own from within the Coast Guard. We're 
also actively recruiting all the way around town.
    I would tell you this, everybody's looking for the same 
people right now, because there's a lot of acquisition reform 
going on in DOD, a lot of shipbuilding issues out there, so 
we're all competing for the same job pool. And in some cases, 
we are at a disadvantage, because DOD is allowed to hire what 
we call ``retired annuitants,'' we're already receiving a 
pension, you're brought back onboard. And, of course, there's 
monetary advantage to doing that. Wherever we can establish 
parity with DOD, we'll be able to sustain that. But, as it 
stands right now, we're down slightly from the 16 percent, and 
trying to drive that down further and creating our own 
workforce.
    Senator Snowe. Thank you.
    Senator Cantwell. Senator Wicker?
    Senator Wicker. Thank you.
    Admiral you testified you recently were in Charleston. The 
cutters, GALLATIN and DALLAS, are there for unplanned repairs 
and unavailable for service. How long will they be unavailable, 
in your estimation, sir?
    Admiral Allen. I believe they've got about another 3 or 4 
months on the availability. I can give you an exact answer for 
the record, sir.
    [The information referred to follows:]

    Answer. DALLAS will return to operational status upon completion of 
the structural repairs, scheduled to be completed October 3, 2009.
    GALLATIN will return to operational status after reassembly of the 
Main Diesel Engines, scheduled to be completed December 18, 2009.

    Senator Wicker. OK. And how much longer can we expect the 
high-endurance cutter fleet to remain in operation?
    Admiral Allen. Sir, that's a question very, very related to 
the conversation we've been having here. It has to do with a 
couple of things. Number one, how quick the replacements get 
out there. And number two, the funding base we have to deal 
with increasingly aging ships that are having systemic 
breakdowns. I said in my opening statement--and I was in the 
engine room of these ships where they were taking the engines 
apart. And usually you don't want to be doing engine overhaul 
in a drydock, because that's not a clean environment to put 
engines back together. But, some of the main parts for a 
center-section overhaul on a Fairbanks Morris engine exceed 1 
year and had to be made ``on order.'' So, to the extent that we 
preordered kits to do scheduled maintenance and overhauls, and 
we have an unscheduled maintenance, we're having to take those 
kits, put the boats back in service, and we slowly use our 
stock up, and it creates a huge backlog in getting the parts 
out that we need to repair these engines. So, it is a problem, 
sir.
    Senator Wicker. How many cutters do we need to execute our 
missions?
    Admiral Allen. Well, sir, we have a range of cutters, from 
patrol boats up to National Security Cutters and high-endurance 
cutters that are coming online. If you take a look at the 
entire mission that we're looking at right now, including the 
demands we have--and we're having increasing demands overseas 
from our global combatant commanders for theater security 
cooperation, things like nation-building in Africa, and we just 
a cutter complete around an around-the-world trip working for 
all the different combatant commanders--that demand out there 
significantly exceeds the current fleet size, as far as how 
much you want to build is a question of how much Coast Guard 
you think you need and how much risk you're willing to absorb.
    Senator Wicker. Will eight National Security Cutters be 
enough to replace the 12 high-endurance cutters?
    Admiral Allen. I believe they will, for all the domestic 
missions. What these cutters are aimed at are places--whether 
it's--you need endurance seek-keeping capability and 
persistence, things like the Bering Sea, Eastern Pacific, long 
drug patrols, and things like that--they're actually going to 
be very suitable for dealing with deployments in support of our 
combatant commanders, whether that's in Africa or the Middle 
East or so forth. But, with eight cutters, there's going to 
have to be a tradeoff of what we can support, in terms of 
requests for Coast Guard. And right now we are limited in how 
much cutter days that we can provide to our DOD counterparts 
overseas by the size of the fleet. Increasing the size of the 
fleet would allow us to do more of that.
    Senator Wicker. Which cutter made the around-the-world 
trip? And how old is that----
    Admiral Allen. It's the Coast Guard cutter Boutwell. It is 
the same age as the other high-endurance cutters, around 40 
years, and they should be pulling in, as we are having the 
hearing today, sir, into Alameda, after leaving in February.
    Senator Wicker. How long does--following up on your answer 
in my earlier around, how long does it take to analyze whether 
the computer analysis is correct, as compared to actual 
practice, once you've accepted these ships?
    Admiral Allen. That's a good question, Senator. We're doing 
it for the very first time in the Coast Guard. Some of the 
concerns about the fatigue life of the National Security Cutter 
were related to computer modeling that showed that the repeated 
stresses--and this is because of the new computational power 
that we have right now, we can do these models--and run them 
and run them and run them--said that, at 30 years, there are 
certain parts of the ship where we might--that might be subject 
to stress or cracking, not immediately, but 25, 30 years down 
the line. As a result of that modeling, we have made changes to 
the design of the third hull and beyond. We need to go back and 
actually get empirical data by putting strain gauges on the 
ship to see how close the actual performance of the ship 
matches what the computer predicted, because all the 
discussions on the fatigue life of the National Security Cutter 
had been based on computer modeling. We have not seen the ship 
in actual operation. So, we've got an unprecedented opportunity 
to compare empirical data and how good the computer program 
was.
    Senator Wicker. It'll still----
    Admiral Allen. And we are doing that.
    Senator Wicker. It'll still be a guess as to what will 
happen, decades from now.
    Admiral Allen. Oh, I wouldn't call it a guess. I think 
we're pretty close on the science, or--the question is, how 
accurate is the computer model? I don't think we're talking 
about anything catastrophic happening very soon to these ships. 
It's a question of maybe 3 or 4 years, at the margin, at the 
end of the service life.
    Senator Wicker. Admiral, you have spoken numerous times 
about the need to grow the Active-Duty size of the Coast Guard. 
Where do you see the Coast Guard's necessary Active-Duty end 
strength, 5 years from now? And where would you like for it to 
be?
    Admiral Allen. Well, where it will be is very difficult to 
presume in the current fiscal environment. There are tremendous 
stressors on the Federal budget, as you know. I can tell you 
there are programs that are coming online that are going to 
require resources, that are not currently resourced. For 
instance, we are on the verge of issuing towing vessel 
regulations. These are long-needed regulations that would allow 
us to regulate the towing industry. That's going to require 
inspectors and people to actually follow up on that. We have 
growth in the LNG industry. We are dealing with larger, more 
complicated cruise ships, as far as our marine safety program 
goes, and we are dealing with a lot more vessel traffic. Most 
of the goods that come out of this country come through the 
maritime transportation system. So, there are demand signals 
out there that will either have to be met or we'll assume a 
risk position because we can't do that with the workforce we 
have.
    Senator Wicker. Based upon those projected demands, would 
you like to advocate a number----
    Admiral Allen. Well----
    Senator Wicker.--for the Committee?
    Admiral Allen.--I'm not in a position to advocate a number. 
What I have said in the past, and will continue to say, at our 
accession points in the Coast Guard, we can accommodate 
anywhere from 1,500 to 2,000 people a year without having to 
invest more in the buildings and the mess halls and all that 
sort of thing. There are--our FTE growth--our growth this year 
is 295. Our capacity is 2,000.
    Senator Wicker. But, that's a matter of how many you can 
accommodate, as opposed to how many you need.
    Admiral Allen. This--sir, this is a basic discussion of how 
much risk we're willing to absorb with the force we've got. One 
of the basic value propositions for the----
    Senator Wicker. But, I'm asking you your advice----
    Admiral Allen. Yes.
    Senator Wicker.--to this Subcommittee.
    Admiral Allen. It's more than what we have now, sir. It's--
I could give you an estimate for the record.
    [The information referred to follows:]

    Answer. The Coast Guard has not completed an unconstrained 
workforce need analysis. Requests for additional personnel are 
developed in the annual budget build and then evaluated against 
Department and Administration budget levels for further consideration. 
Personnel capacity requirements are also carefully balanced against 
performance and mission risk. We estimate the Coast Guard's training 
and infrastructure capacity will accommodate accessing and training 
approximately 1500-2000 personnel per year.

    Admiral Allen. But, frankly, the towing vessel requirements 
alone in future years, at a minimum, are going to be several 
hundred people to accomplish just that mission
    Senator Wicker. Thank you, sir.
    Senator Cantwell. Senator Begich?
    Senator Begich. Thank you very much, Madam Chair.
    I had, actually, a list of questions, but this conversation 
has intrigued me, so I'm going to ask one off of my list and 
get clarification on a few things.
    One is more of a parochial, maybe you could follow up with 
it. And that is, in March the Coast Guard POLAR SEA dragged its 
anchor through an area of Puget Sound--and at the same time, 
it's a well-charted area--telecommunication lines were there, 
it broke a line, it has not been resolved, in the sense of who 
pays. And I wonder if you can kind of just put that on your 
tickler to let us know, kind of, the status of that and how 
soon that issue will be resolved. It's a major line that brings 
telecommunications Internet service to Alaska, and it was 
clearly a charted area. And, for whatever reason, the Coast 
Guard broke the line. And I think it has been emergency-
repaired by the company, but not resolved. If you could put 
that on your tickler, that would be great.
    [The information referred to follows:]

    Answer. The Coast Guard is continuing its investigation and in the 
process of adjudicating the claim. Time line for adjudication of claims 
depends on several factors, including the complexity of the legal 
issues involved as well as the time it takes for claimants to provide 
requested supporting documentation. For GCI Communications Corps' 
claim, we have assessed that there are some legal issues that need to 
be addressed (both for liability and damages analysis). In addition, 
the Coast Guard may be requesting further documentation from GCI 
Communications Corp as to their alleged damages. Finally, depending on 
the outcome of the adjudication process, there may be need to have 
Department of Homeland Security (DHS) Office of General Counsel and 
Department of Justice (DOJ) involvement since the demand is over $1.5 
million.
    We will afford every effort to work with the claimant, Coast Guard 
members, and if needed DHS and DOJ, to expeditiously handle this 
matter.

    Senator Begich. Let me--you know, the questioning that was 
just going on--and again, this wasn't part of my list of 
questions, but I'm going to ask you a series of questions, and 
it helps me understand some of the conversation that's gone on 
here. When we construct a ship and it's completed, is there a 
period of time that the contractor is responsible for the 
success of that vessel, in the sense of what it said it would 
do? And if so, what are the ramifications if it doesn't 
perform? And that would be to you or to Mr. Caldwell. Do you 
have those in contracts, that allow----
    Admiral Allen. Yes, currently right now there's a one-year 
warranty period after you take delivery. And so, the question 
is, what are you accepting at delivery? And then, what are you 
accepting at the end of the one-year warranty period?
    And the first two National Security Cutters are--have been 
awarded in what is called cost-plus environment, so what you're 
doing is, you're paying for whatever costs are being incurred. 
So, if they're--you're having them do the warranty work, 
they're going to--they will do it, but you will pay for it 
under the provisions of the contract, because it's not a firm 
fixed-price contract. And sometimes it's a better business 
decision to go ahead and take receipt of the vessel and then 
attend to that with your base funding. And that's a business 
decision we make. Moving into a fixed-price environment, there 
is a much higher standard to hold the contract to, and that's 
what we're trying to get with the National Security Cutter 
right now.
    Senator Begich. If----
    Admiral Allen. I'd ask Mr. Caldwell to comment.
    Mr. Caldwell. I have no further comments on the warranty.
    Senator Begich. OK. If it doesn't perform as you had 
anticipated--not necessarily a warranty issue; not performed--
what happens?
    Admiral Allen. Well, obviously we have contractual--we can 
go back and demand--where the work be done, contract be met, 
and deal with the contractor in that regard. And that's what 
our contracting officers would do if it was warranted. There 
are some cases where, depending on the specific issue, we may 
choose to fund that ourselves, right off in the contract, 
because, from a business case, it might not be as expensive.
    Senator Begich. And the one-year--is one year enough time 
for you to do--I mean, I've got a seven-year on my car, but on 
a vessel, is one year enough?
    Admiral Allen. I believe it's an industry standard, but I 
can give you some more thoughts on that for the record, if you 
like----
    Senator Begich. OK, yes.
    Admiral Allen.--sir.
    [The information referred to follows:]

    Answer. Currently, the Department of Homeland Security Acquisition 
Regulations (HSAR 3046.790) requires the use of warranties in major 
systems contracts valued at $10M or higher. The National Security 
Cutter (NSC) Delivery Task Order (DTO) is a Cost Plus Incentive Fee-
type contract and includes a warranty provision. The August 2007 
Consolidated Contracting Action for NSC 1 included a warranty clause 
where, ``the Contractor guarantees for a period of twelve (12) months 
`after' Preliminary Acceptance of the NSC 1, all supplies furnished 
under this DTO will be free from defects in material and workmanship 
and will conform with the specifications and all other requirements of 
this DTO . . . The cost of any action taken pursuant to this [clause] 
for replacement or correction shall be included in computing allowable 
cost . . . but no additional fee [profit] shall be payable . . .'' for 
the warranty work.
    The Coast Guard is currently transitioning the NSC program to a 
fixed price contract. Navy fixed price contracts for ship construction 
include a 9-month to 1 year warranty, but limit the contractor's 
liability for the correction of defects to a specific amount (normally 
between $1M and $10M). The GAO reported on warranties in a report 
titled `Weapons Acquisition--Warranty Law Should Be Repealed' (1996), 
which examined the usefulness of warranties in weapons systems procured 
by DOD. The report concluded that warranties for weapons systems 
acquisition do not provide a cost benefit for the government. The NSC 
project shares many of the attributes of a large weapons systems 
acquisition. Unlike industries with high unit production, such as the 
auto industry, the government is often the sole buyer of a product and 
cannot share the warranty costs with other users, therefore absorbing 
the vast majority of the risk of failure on its own. In the report, GAO 
discovered no evidence that warranties motivated contractors to improve 
their products. As a result of GAO's review, it recommended the 
warranty law be repealed.

    Admiral Allen. And maybe Mr. Caldwell has a comment.
    Mr. Caldwell. No.
    Senator Begich. No? OK.
    This might be for Mr. Caldwell. When you mentioned those 
deviations from the contracting process, the acquisition 
process, I'm assuming that was on the Coast Guard side, they 
deviated from the rules and regulations in some instances, as 
quoted by the Chair. What happens to those employees that made 
the decision? Someone had to make the decision, right?
    Mr. Caldwell. Well, let me do this. Let me talk about what 
the specific deviations from the MSAM are, just to give a more 
detailed answer----
    Senator Begich. If I----
    Mr. Caldwell.--to Senator Cantwell's----
    Senator Begich. If I can do this, because my time is----
    Mr. Caldwell. Yes.
    Senator Begich.--limited on the----
    Mr. Caldwell. Yes.
    Senator Begich.--on the clock. So, I--deviated--for 
whatever standard, they deviated.
    Mr. Caldwell. Correct.
    Senator Begich. OK? Authorized, unauthorized? Someone had 
to make a decision, correct?--to deviate from the rules.
    Mr. Caldwell. Yes, I think that generally these were, as 
Admiral Allen would say, probably business decisions, in terms 
of how much do you want to slow down the process, as opposed 
to----
    Senator Begich. Right. I understand that, but they deviated 
from the rules. The rules didn't say, ``For business decisions, 
you can deviate from the rules,'' did they?
    Mr. Caldwell. No, the MSAM has certain requirements that 
are----
    Senator Begich. OK.
    Mr. Caldwell.--laid out.
    Senator Begich. So, what happens to the employees that 
deviate from the rules?
    Mr. Caldwell. Well, we're----
    Senator Begich. Did your----
    Mr. Caldwell.--pointing those out. Obviously, Coast Guard 
decides whether they take other action on the employees 
themselves----
    Senator Cantwell. Admiral?
    Admiral Allen. Yes, maybe I can add a little clarity to 
this. As we were transitioning from the previous Deepwater 
structure, where we weren't applying the doctrine of the MSAM 
to the MSAM, you obviously have work in progress and business 
decisions you have to make while you're doing that. And I 
believe, in the case of the FRC, where we had taken eight 
patrol boats out of service and were suffering a patrol-boat-
hour gap, there was a need to decide whether or not to proceed 
to get the boats there as soon as we can and use--and take care 
of the documentation and some of the things that is associated 
with the MSAM that we would normally want to do, and will do in 
the future, to be able to mitigate that patrol-boat gap at an 
earlier time.
    Senator Begich. So, I--that didn't answer my question, but 
that--I think the answer was you deviated because you thought 
it was in the best interests of getting what you needed online, 
and there's no repercussion to the employees, and the rule book 
is the rule book.
    Admiral Allen. Well, we----
    Senator Begich. I'm trying to figure out if the rules are 
laid out to follow, but, because a determination is, because of 
a business model--which I understand--but then, the rules are 
not modified to meet those future--those rules of flexibility--
I'm just trying to figure out that piece. And maybe there's no 
answer to it, because it--and there's----
    Admiral Allen. There should be less ambiguity, moving 
forward as we move the entire system under the Major Systems 
Acquisition Manual. There was a decision to be made about this 
patrol-boat acquisition, given the patrol-boat-hour gap. The 
business decision taken was to get the vessels under 
construction as fast as possible. If there's any accountability 
here regarding that decision, it is mine.
    Senator Begich. OK. The last question, and then my time--
actually, two quick ones. One is on the towing and your 
potential and future--is there any recouping of the costs by 
the people that you're doing the rules and regulations that 
are--I mean, are we bearing all that cost, or is there industry 
cost or associated cost that someone's paying the fee for?
    Admiral Allen. There are some fees associated with 
certificate of inspections being issued----
    Senator Begich. Yes.
    Admiral Allen.--and so forth, but the entire cost----
    Senator Begich. Towing.
    Admiral Allen.--including personnel, it's not a recoup by 
fees, no, sir.
    Senator Begich. Was there ever discussion of that?
    Admiral Allen. No, sir.
    Senator Begich. OK. And last one--and this goes to, I 
think, Mr. Wicker's--Senator Wicker's question, and the Chair's 
question, to some degree, and that is, Do you have a document 
that lays out long-term--and actually, Senator Snowe brought 
this up--long term, over the next 5, 10 years, what your 
capital requirements will be, your costs associated with that, 
and your maintenance that will be associated with that? In 
other words, we have a lot of discussion here about equipment 
needs and gaps or no gaps. Do you lay that out so, you know, we 
know, in year 2013, you're going to need so many pieces of 
equipment, which will have a maintenance cost of so much, a 
personnel cost--do you have such a document? I know, in local 
government, it's required to do this.
    Admiral Allen. Here's what we're working on right now, and 
it's actually a requirement for Congressional reporting; in 
this case, to the Appropriations Committee, but it's called the 
Deepwater Expenditure Plan, that lays out exactly what are 
going to be the ramifications of this acquisition baseline 
review that we are doing. In addition to that, we have a 
capital investment plan that projects 5 years on our AC&I 
appropriations, and where we need to go on that. And we are, in 
the Department of Homeland Security right now, trying to evolve 
to what we call a Future Years Homeland Security Plan, which is 
very much like the DOD----
    Senator Begich. DOD.
    Admiral Allen.--Future Defense Plan. That--I would just 
tell you, that's a work in progress.
    Senator Begich. Great, thank you.
    Thank you, Madam Chair.
    Senator Cantwell. Thank you, Senator Begich. And thank you 
for your questions and, obviously, your interest in all of 
these areas. We certainly appreciate your attentiveness on this 
Committee, and welcome your focus from your State's 
perspective. So, thank you.
    I do want to--since the Senator is still here, maybe if I 
could further in on the polar icebreaker questions that the 
Senator originally posed, which is, What risks are we assuming 
by only having two, and possibly three, icebreakers? I mean, 
obviously the contention here is the lack of budget planning 
for the icebreakers.
    Admiral Allen. Yes, ma'am, there are a couple. First of 
all, prior to 2006, the main employment of the POLAR SEA and 
the POLAR STAR was to do the annual breakout of McMurdo 
Station, which is the base station to resupply the South Pole. 
U.S. Transportation Command annually brings several very large 
freighters and oil tankers in that provision the station, and 
those are further transmitted to the South Pole and other 
places in Antarctica. So, that is one area that was within the 
baseline mission set of the polar icebreakers.
    We also have traditionally taken care of everything in what 
I would call the Western Arctic, and that includes up off the 
Northern Slope. There, we have an MOU with Canada, and a 
division of labor. Our Air Force site at Thule, Greenland, is 
broken out every year by the Canadian Coast Guard icebreakers, 
so they tend to take care of everything east, we take care of 
everything west, through a mutual agreement. And sooner or 
later we would have to cover the East Coast, had the--were the 
Canadians not cooperating with us. This allows us to keep our 
icebreakers in one place, in Seattle and Puget Sound, and focus 
on the West Coast side.
    The other area, obviously, with open water up there now and 
the issues that I talked about, with being able to operate up 
there even when it's supposedly ice-free--there are large 
pieces of ice up there; icebreakers constitute a way to have 
presence, they have sustainability, they can remain on scene a 
long period of time, and they're not inhibited in that harsh 
environment.
    One of the problems we have operating up there is that, for 
any vessels that are greater than 22 feet in draft, they can't 
get into Nome, the next refueling station is down at Kodiak. 
And depending on where you're at, up toward the Northern Slope, 
that could be 900 or 1,100 miles back to get fuel. So, most 
normal ships, that would present a very, very challenging 
operating environment. It does not, for the polar icebreakers. 
They present national capability for presence in a harsh 
environment where we have no alternative.
    Senator Cantwell. And when you say that--I mean, what would 
you say to fishing vessels and cruise ships? You just mentioned 
other ships don't have that capability, so what would you say 
to those vessels that are operating, if they sail into the 
Arctic, about their ability, you know, to run into trouble and 
the ability of the Coast Guard to help them?
    Admiral Allen. Well, as it stands right now, our ability 
would be limited--unless we happen to have a ship up there in 
the summer, it would be limited to aviation capability and what 
we could deploy by air, operate out of either Point Barrow or 
Prudhoe Bay.
    Senator Cantwell. And since we only have two that are 
operational, and Russia has something like 20, and Canada has 
13, how can we really maintain an adequate presence in that 
area, for our national interests, without additional 
icebreakers?
    Admiral Allen. Well, if we--the three that--the HEALY, 
which is an ice-strengthened research vessel, and the POLAR SEA 
and the POLAR STAR, if they are all up and operating, it takes 
one polar icebreaker to support the breakout of McMurdo; that 
leaves one available for operations north, in addition to the 
HEALY.
    Senator Cantwell. But, you want to get the POLAR STAR back 
in service, and we don't have the money in the budget. Don't we 
need the money?
    Admiral Allen. We would like to see the POLAR STAR 
completely refitted and back into service, ma'am. And I note, 
on the Senate side, there is money provided in the 
appropriations markup out of the Committee, and I believe 
that's being acted upon in the next day or two.
    Senator Cantwell. And so, we need that money.
    Admiral Allen. Yes, ma'am.
    Senator Cantwell. Thank you.
    Senator Begich, did you have any follow up on that, since 
this is such a critical, important issue to the larger region, 
economically, that you and I both represent?
    Senator Begich. Thank you very much, Madam Chair. I do--and 
I appreciate your comments, and I know there is money in the 
appropriations bill that's moving forward. I think it was, 
like, $70 million, or--I can't remember the exact number, but 
there is a sizable amount there.
    But, to the bigger question that the Chair asked, and that 
is the risk, we have three. And your phrase was, ``If all are 
operating,'' which is not always the case.
    Admiral Allen. Is not the case, sir.
    Senator Begich. Right. So, we have three that are kind of 
limping along a little bit, need some resources. What's the 
adequate number of an icebreaker fleet, in anticipation of 
what's happening now with the Arctic and--as well as other work 
we have around the world? That's the ultimate question. And I--
and I'm going to----
    Admiral Allen. No, I can give you a force-sizing answer, 
Senator. If you want a 1-0 presence--in other words, you want 
to be able to get as far into the ice anytime of the year that 
you need to, north and south, to be able to keep somebody on 
station, it takes three cutters to do that. And if you're 
talking north and south, it would be six, if that was your 
requirement.
    Senator Begich. And that would be if--I would say, on a 
scale of 1 to 10, that being the 10, so----
    Admiral Allen. Yes, sir.
    Senator Begich. So, really, probably, to get to that 
adequate level, probably at least four that are running, three 
at a--you know, if I was kind of grading, it would probably be, 
like, a 5 level, out of 1 to 10, would be 3. In other words----
    Admiral Allen. What we have right now, in my view, is the 
minimum capability we need to be able to respond, if all three 
of them are operating. And they are not.
    Senator Begich. They are not. So, that's the biggest 
challenge, right there.
    And the life expectancy once--and assuming they get 
renovated--what's the life expectancy? I mean, is it really----
    Admiral Allen. Well, it goes down--it gets down to a point 
of how much you want to invest, sir.
    Senator Begich. That's--that----
    Admiral Allen. You can extend the service life 7 to 10 
years.
    Senator Begich. Right.
    Admiral Allen. My judgment, without doing a lot of 
analysis--and we can provide you more information--would be 
that the only way you would--the only reason you would extend 
the service life would be to buy you time to come up with a 
larger grand solution on what your ultimate requirement was, 
sir.
    [The information referred to follows:]

    Answer. The total cost to reactivate POLAR STAR based upon a 
continuous 30-month project is approximately $62.8M of Acquisition 
Construction & Improvement (AC&I) funding. The 30-month project, which 
consists of a six-month planning period followed by a 24-month 
maintenance period, reactivates POLAR STAR and extends service life by 
7-10 years.

    Senator Begich. For, potentially, new ones.
    Admiral Allen. Or you could take both of them out of 
service and retrofit them completely--gut them, new engines, 
and everything.
    Senator Begich. Gotcha.
    Admiral Allen. But, then again, you're losing two 
icebreakers until you----
    Senator Begich. You'd----
    Admiral Allen.--get them back, sir.
    Senator Begich. Then you're really at risk, because----
    Admiral Allen. Yes, sir.
    Senator Begich.--you're down to one in a time when a lot of 
activity could be occurring in the Arctic.
    Admiral Allen. Yes, sir.
    Senator Begich. Is that fair?
    And I guess, on top of that, I know there's--as we move 
into these summer months, especially in the Arctic, with more 
exploration and other activity, are--is there need for Congress 
to do anything additionally to support you over the next 24 
months? And why I say this is, you know, I get very nervous 
with so much activity starting to occur up there, and I know 
the capacity of what you can and cannot do up there, based on 
very good briefings I've received. And there is a great desire, 
I know, from your command structure, to do whatever is 
possible. But, you're fairly limited. And so, is there anything 
that you would recommend, in this next 24 to 36 months, that we 
should be doing now, financially or otherwise, to support the 
efforts of--I'm very--I mean, all it takes is one incident up 
there and we have a major problem.
    Admiral Allen. Yes, sir. I think there are several things.
    First of all, I think we need to stabilize and maintain the 
capability we have. I don't think it should drop below what we 
have. Right now, we have two usable icebreakers--one heavy-duty 
icebreaker and one ice-strengthened research vessel. So, job 
one is to get POLAR STAR back in operation so you have the 
three functional icebreakers that this country needs and has 
been validated in a number of studies by the National Research 
Council and others over the years.
    The second thing, in my view, is then to stabilize the 
business practice associated with that. The conference report 
from the appropriators last year asked that the Administration 
move the base operating funds from the National Science 
Foundation to the Coast Guard to operate the cutter--the 
icebreakers. We've had negotiations, and the National Science 
Foundation has drafted a Memorandum of Understanding; they have 
no objection to the transfer of those funds.
    So, that leads me to the third point, and that's working 
inside the Administration right now to create a position that's 
consistent with the goals of the National Security Presidential 
Directive 66 and actually take an Administration position and 
move forward on the base funding. And then, after that it would 
be taking an assessment of the missions needs in the Arctic and 
decide what to do about replacing the icebreakers or extending 
their service life.
    Senator Begich. Thank you very much, Admiral.
    Thank you, Madam Chair.
    Senator Cantwell. Admiral, what is the process of working 
with the Administration? Because your testimony here has been 
quite clear this morning about the need and what's at stake for 
us, as a nation. So, what is the problem of us having zero in 
the budget for the POLAR STAR and asking the Senate to do the 
heavy lifting, then? Which can be problematic, because the 
question is then asked, Why isn't it in the budget?
    Admiral Allen. Well, frankly, I would say it's probably as 
much a process as a content issue. You know, we've had a 
condensed Fiscal Year 2010/2011 budget, and there have been a 
lot of internal reviews and re-reviews with the change of 
Administration. There's no objection, in the National Science 
Foundation, the Coast Guard, to moving this ahead.
    My position, as the Commandant of the Coast Guard, to the 
extent that there's a consensus needed to move this thing 
forward, is to create that consensus. I have worked very, very 
diligently, and have met with my counterparts in the Council on 
Environmental Quality, Dr. Jane Lubchenco, the new Director of 
NOAA; Carol Browner, the Energy and Climate Czar in the White 
House; and Lisa Jackson, Administrator of the EPA, and I've 
laid out these issues, and I'm working with them to move 
forward inside the Administration.
    Senator Cantwell. And so, you are continuing that in the 
present?
    Admiral Allen. Yes, ma'am.
    Senator Cantwell. Well, we'll look forward to that 
progress. And again, I thank the Senator from Alaska for his 
due diligence on this important issue. And perhaps, you know, 
we'll have to have further discussion and further hearing on 
this to highlight for the American public what really is at 
risk in the Arctic without this kind of service capabilities.
    Admiral, I'd like to go back to Deepwater, if I could, and 
to the National Security Cutter and the lack of a sensitive 
compartmental information facility, often referred to as SCIF, 
which I believe is used primarily for enclosed area for the 
processing of secure classified information. Is that correct?
    Admiral Allen. A particular type of information, yes, 
ma'am.
    Senator Cantwell. Isn't the--isn't it true that the first 
National Security Cutter does not have a completed SCIF?
    Admiral Allen. That is true, ma'am.
    Senator Cantwell. And why is that not completed yet?
    Admiral Allen. The original design on National Security 
Cutter did not include a SCIF. After 9/11, there was a 
reassessment of the requirements on National Security Cutter, 
and the decision was made to create what we would call, in 
naval architecture terms, a space and weight reservation for 
that functionality that could be outfitted with an electronic 
suite after delivery. So, it was a conscious decision to add 
the requirement from the baseline design that was offered by 
Northrop Grumman, ma'am.
    Senator Cantwell. But, was----
    Admiral Allen. And so, that will be built as the ship goes 
into service. It can operate right now. It has a--it will have 
a functionality far and above what it has now once the SCIF is 
operational. And that is an additional requirement that was 
added to the ship.
    Senator Cantwell. But, that was mid-design, correct? Mid-
design construction, when that decision was made?
    Admiral Allen. The decision was made to allow for the--
again, the space and weight--in other words, to create the 
volume and the space inside the ship to accommodate that and 
then build the equipment in after delivery. It was never 
anticipated to be there on delivery, ma'am.
    Senator Cantwell. Never anticipated when the--where were 
you at, post-9/11, on the design, mid-construction? Do you 
know? Or maybe you could get an answer for me on that.
    Admiral Allen. I can get--I can tell you, there--a SCIF was 
not contemplated in the original design of the ship, ma'am.
    Senator Cantwell. My point is, I know it wasn't in the 
original design. I don't know what the issues were of why that 
wasn't, but--I'm looking at more detail on the decision of, 
when it was decided, post-9/11, why it wasn't then--why not 
implement that at that point in time, as opposed to later, 
saying, ``We'll come back and address it?''
    Admiral Allen. Yes, ma'am, I can get that for you.
    [The information referred to follows:]

    Answer. After the events of September 11, 2001, the Coast Guard 
recognized the need to include a shipboard Sensitive Compartment 
Information Facility (SCIF) and the related equipment onboard the 
National Security Cutters (NSCs). This post-9/11 requirement was 
introduced during the design process for the NSC before any ship 
construction started.
    Beginning in 2003, the Coast Guard implemented a phased approach to 
design and build the space, procure the equipment, and install the SCIF 
equipment aboard the NSC. The Coast Guard adopted this best practice of 
placing to limit acquisition cost, schedule and performance risk and to 
avoid production delays. At the time the Coast Guard was planning for 
the SCIF requirement, it was projected the first NSC would be delivered 
by 2006 (pre-Hurricane Katrina). Although the Coast Guard was able to 
design a SCIF for the NSC prior to construction, the cost associated 
with the new requirement was yet to be requested through the budget 
process. Additionally, there was a need to coordinate implementation of 
this effort with the Intelligence Community (IC). Finally, the long-
lead time required for the installed equipment did not align with the 
schedule of the first NSC. All of these factors prompted the decision 
to implement a phased approach to the SCIF.
    The following provides a timeline of decisions and events 
associated with the SCIF installation on NSC:

  <bullet> In June 2003, space, weight, and power reserves were 
        incorporated into the NSC design for the SCIF, after approval 
        by the Coast Guard Agency Acquisition Executive (AAE). This 
        decision was based upon a May 2003 brief that stated the NSC #1 
        would be delivered without an operational SCIF. The decision to 
        incorporate these changes into the initial design of the NSC, 
        prior to construction, avoided substantial re-design that could 
        have had significant negative impacts on the NSC cost and 
        schedule.

  <bullet> In November 2004, non-recurring engineering and an antenna 
        analysis were initiated.

  <bullet> In the spring of 2006, the SCIF space was prepared for the 
        C4ISR equipment installations, including cable runs and 
        structural foundations.

  <bullet> The final phase of the approach included the procurement of 
        the C4ISR equipment for the SCIF, the installation of the 
        equipment, and final test and accreditation.

    Once the equipment is installed, the Coast Guard will work with the 
cognizant Special Security Offices, U.S. Navy's Space and Naval Warfare 
Systems Command (SPAWAR), and its own C4ISR technical authority, the 
Assistant Commandant for C4 & IT (CG-6), to gain appropriate 
certification and accreditation for the SCIF and its associated 
equipment.

    Admiral Allen. It's not uncommon to build out the basic 
hull of a ship and then have a second phase of the acquisition, 
where you bring the electronics into it. And this is a case 
where we created the space and the capability to have the 
equipment, with the knowledge we could bring the equipment on 
later. But, I'll give you the exact dates, ma'am.
    [The information referred to follows:]

    Answer. In November, 2006 the Vice Commandant, acting as the AAE, 
directed the appropriate Coast Guard staffs to seek and identify 
funding for SCIF and directed that SCIF capability (including equipment 
procurement and installation) be provided as funding allowed and within 
the Deepwater Acquisition Program Baseline.

    Senator Cantwell. Well, as you can imagine, with the 
Deepwater Program, we're looking for--to move ahead in a new--
in providing the continuity, and not coming back and looking at 
the design and finding out that that original design is counter 
to some of the mission-critical elements. And obviously, the 
security part of this, and interoperability with the Navy, is 
very mission-critical. Is that right?
    Admiral Allen. Yes, ma'am. Our current suite right now is 
interoperable with the Navy. I will be--I would be happy to 
give you and the Committee a classified brief on exactly what 
the SCIF is intended to do. It might be more enlightening if we 
could do it in another environment, ma'am.
    Senator Cantwell. That would--I would welcome that, and 
have been to other settings to review classified information as 
it relates to acquisition; and I think this is something that's 
very important for members to do, to have thorough oversight. 
So, happy to take you up on that opportunity.
    If I could, turn to modernization. I know you're currently 
undertaking your modernization efforts, and that you are trying 
to change from an existing geographic-based command structure, 
like the Pacific and Atlantic Command, to a centralized 
function command. Both GAO and the National Academy of Public 
Administration has expressed concerns that the Coast Guard has 
not yet developed performance measures to apply to that 
modernization effort. What steps have been taken to monitor the 
process and the programs to make sure that there are metrics in 
place so that you'll know when you're successful?
    Admiral Allen. Yes, ma'am. First of all, we don't object to 
the findings of the GAO or NAPA. If I could just give you some 
background about how this came about. And we're quite happy to 
develop a set of metrics. As Mr. Caldwell said, there are a lot 
out there. The question is, How do we want to measure it? And 
we will do that, and we will move forward.
    When I presented the cause for action to the men and women 
of the United States Coast Guard, 3 years ago, on 
modernization, I was careful not to link it to what I would 
call a budget drill or some externally fiscally driven pressure 
that was causing us to do things like we did in the middle of 
the 1990s, when we were basically streamlined and downsized, 
$400 million and 4,000 people over the course of 2 years. That 
is still seared in the memory of our people that were involved 
in that. I wanted to focus on doing our work better and 
effectively executing the mission, with the knowledge that, 
sooner or later, to the extent that efficiencies were created, 
we would be able to use those to the benefit of the Coast 
Guard. We're in a position to do that now, but I never make--
made the basic cause for action to our people or anybody else 
the fact that this was going to be the way to save money. This 
will be a way to execute our mission more effectively. I think 
we're in a position now to answer those questions, and we 
intend to do that, ma'am.
    Senator Cantwell. Mr. Caldwell, do you have a comment on 
this? Because I guess what I'm looking for are, What are the 
problems that the Coast Guard is trying to address by 
modernization? What are the goals? How do you--how do we know 
if we've achieved success? And so, I look at that as the--you 
know, the process we're following today is a little bit putting 
the cart before the horse.
    Mr. Caldwell. Yes. As Admiral Allen said, I think that a 
lot of this was, What makes sense for the Coast Guard, given 
several years? But, in terms of what we looked at, in terms of 
the report to Congress that the Coast Guard did on the 
reorganization, as well as in some of the budget statements, it 
was a call for, not only more effective, but more efficient 
use, and that's where a lot of our concern was, is, while there 
are promised efficiencies there, those kinds of measures aren't 
in place. While, the Coast Guard can continue to use some of 
its effectiveness measures, how many mariners were saved, how 
many, you know, things were stopped, in terms of fishing, 
fishing intrusions, those kinds of things? There were not very 
many measures, in terms of, What can we get with our resources, 
and How do we know if we're being more efficient or not? And if 
we do go to a tighter budget environment, those kinds of 
measures will be even more important as we move forward.
    Senator Cantwell. Well, I think many of the members who 
were here today would advocate that the Coast Guard's mission 
is already being stretched and that resources are being 
pulled--and some--are shortchanged. So, obviously, this 
efficiency effort and structure is critically important. I 
mean, I don't think the agency has much room to spare.
    Mr. Caldwell. I would agree with that.
    Senator Cantwell.We've given the agency more and more 
responsibilities, post-9/11.
    Mr. Caldwell. I would agree.
    Senator Cantwell. And so, what do you think the process 
should be now, to go back and identify----
    Mr. Caldwell. Well, the Coast Guard--they do have hundreds 
of business metrics in their repertoire of various measures of 
what they're doing, and it's really a process of sitting down 
hard and saying, How do we try to measure how efficiently we're 
doing these things, as opposed to just more resources to get to 
a certain level? And--or, the situation is--a lot of the 
situation is, we just need more resources to improve that 
metric, as opposed to the efficiency, where we do it with. Once 
that is done, you have to put those in place, and, like any 
performance measure, start to test them to see if they work. I 
think that the difficulty for the Coast Guard will be, because 
a lot of their resources, including their people and their 
vessels and airplanes, are multimission. ``How do you measure 
efficiency toward any of the one missions?'' is going to be the 
hardest part of that.
    Senator Cantwell. Senator Begich, did you have a--another 
round of questions?
    Senator Begich. I don't, Madam Chair, but thank you very 
much.
    Senator Cantwell. OK, thank you.
    I'd like to, Admiral Allen, if I could, talk about oil 
spills and the Oil Spill, Salvage, Firefighting Final Rule of 
December 31, 2008. Thank you very much for that, very much 
appreciated. The nontank vessel--basically, the cargo ship 
plan, however, is still not complete. And I know that last year 
we talked about this, that there would be a proposed rulemaking 
for nontank vessel response plans in 2009, to be completed in 
2010. Are we still on track for that?
    Admiral Allen. Yes, ma'am, I believe we are. This is being 
routed to the Administration, but I'm very optimistic we'll get 
that done.
    If I could add one more comment, there are two rules that 
would really help this nontank vessel response plan. One is the 
firefighting and salvage rules, the other one is a requirement 
from back in 1993 legislation that we take a look at aerial 
surveillance, use of dispersants, and other technologies that 
would ultimately affect the response plans, not only for 
nontank vessels, but for the tank vessels that are already 
being regulated, and waterfront facilities, as well. Our goal 
is to queue up the firefighting regs, the new oil spill removal 
regs, followed by the nontank vessel response regs, so those, 
too, can be included in the revised regulation, which we hope 
to get the notice out later this year, ma'am, as we discussed.
    Senator Cantwell. And so, that--so, we will see that at the 
end of the year. And how much progress has the Coast Guard made 
in reducing the backlog, in general?
    Admiral Allen. Pretty good, ma'am. I think this is a--
somewhat of a good-news story. We put 31 full-time equivalents 
into that office. We've given them several million dollars, 
we've hired economists, and we've been able to significantly 
increase the throughput of regulations; not only just 
regulations, but things that have to be issued under a docket, 
where there are notifications associated with that. And we feel 
that, moving into 2009 and 2010, we probably can be on the 
verge of just about doubling the output of last year, I think 
which was 28 up to 50.
    Senator Cantwell. And so, that would leave us, at the end 
of the year, with a--what's the time-frame on that? You're 
saying that's what's completed, so, at the end of this year, we 
would have how many----
    Admiral Allen. I think the--fully staffed regulatory office 
that we have right now, we'll be moving capacity from 28 to 50 
a year.
    Senator Cantwell. OK. And to combine some of the questions 
we had before about the Arctic and oil spill, last year when we 
were discussing this and I asked you to grade the Coast Guard's 
ability to respond to oil spills in the Arctic, you answered 
``Unknown.'' So, we now--you know, basically we know more about 
this issue. What grade would you give the Coast Guard's ability 
to effectively respond to a major oil spill in the Arctic?
    Admiral Allen. It would depend on the radius of where the 
event was from where our units are at. If I could just explain. 
Right now, we don't have any permanent--units permanently 
stationed north of Kodiak Island, which means you have to go 
south and around the--through a cut in the Aleutians to move 
forward. So, as you get past the Pribilofs up through the 
Bering Sea, up north, off the North Slope, the further away you 
have an event, the more problematic it is going to be. We can 
get there fairly quickly in the Aleutians, but the further you 
go north through the Bering Sea, unless we happened to have a 
vessel that is on patrol up there, and if you go through the 
Bering Sea, one that is ice-capable, and that's either the 
HEALY, the POLAR SEA or one of our 225-foot buoy tenders that 
has an ice-strengthened hull, it will be a significant 
challenge to get there with a surface unit.
    That said, we can get aviation units up there fairly 
quickly, and we can forward-deploy our C-130 aircraft out of 
Nome, Point Barrow, or Prudhoe Bay. There are also requirements 
for the people that operate oil facilities up there to have 
response equipment consistent with the regulations, so whoever 
is operating on the North Slope would have to have organic 
equipment and oil spill response organizations to be able to 
respond. But, as far as organic Coast Guard equipment, it will 
be a challenge off the North Slope.
    Senator Cantwell. So, if last year was ``unknown,'' what is 
this year?
    Admiral Allen. Very, very hard.
    Senator Cantwell. OK, thank you.
    Back to the Deepwater Program as it relates to the budget 
and capital funding. And, Mr. Caldwell, if I could get your 
input on this, as well. Do you see particular non-Deepwater 
funding areas where the Coast Guard is falling behind?
    Mr. Caldwell. Well, I think they're making some progress in 
some areas where we've found deficiencies before. Small boats 
is an area where they're making progress, and the numbers are 
up there. For some of the AtoN boats, there's still a backlog 
of maintenance, and some of the performance of those vessels 
has declined. And then, I think icebreaking is the big unknown. 
I think, in terms of the domestic icebreaking, you've got the 
MACKINAW, and so, you've kind of got a model there, in terms of 
relatively new ships for the domestic mission. And the domestic 
icebreakers also have served some very useful purposes for port 
security and other functions during summertime of the year, 
when they're not needed for icebreaking. But, the polar 
icebreakers, which are generally outside the Deepwater 
envelope, are probably the biggest source of where there'll be 
a big demand for additional resources.
    Senator Cantwell. And I guess, Admiral, my question is--I 
mean, given the amount of funding request for the Deepwater 
Program, it's leaving very little room for other improvements, 
things that are the nonsecurity missions. And so, we talked 
about icebreakers, obviously, but aids-to-navigational boats 
don't also need--I mean, don't appear to be addressed in the 
budget. And so, does this raise concerns for you about meeting 
those missions?
    Admiral Allen. I think we have about three or four classes 
of assets that are--will become increasingly at risk unless we 
can stabilize a 5-year capital investment plan, within the 
Administration, that addresses these.
    Mr. Caldwell addressed our internal aids to navigation. 
These are the cutters that work on the Mississippi River, the 
Intracoastal Waterways. We usually call them construction 
tenders, pretty important to the movement of maritime traffic.
    The icebreaking assets on the Great Lake, other than the 
MACKINAW, are getting old, as well; 140-foot icebreaking tugs 
are going to need some attention in the future. And on the East 
Coast, we have 65-foot icebreaking tugs that are used in and 
around the harbors and bays--Chesapeake Bay, New York, Hudson 
River, and so forth. Those are queued up in the future and are 
going to need to be addressed. And after that, I would raise 
our shore plant, our facilities, as an issue of concern.
    My goal, as Commandant, was to raise that annual funding to 
$100 million by the time that I left. We got there this year, 
although it's not clear in the budget, because we received 
stimulus money that collectively gets you to that level. But, I 
think, in perpetuity, at a minimum, our shore plants has got to 
have $100 million a year. Now, we got there this year, with a 
combination of our appropriation and the stimulus package, but 
that needs to be sustained.
    Senator Cantwell. Thank you.
    I definitely feel that some of these nonsecurity missions--
I can't help but believe that the fact that the Coast--the 
Deepwater Program is--took so much time and attention, and the 
fact that it still, I believe, is not quite on track, that it 
takes time away from focusing on these other very mission-
critical elements, and getting the time and space for people, 
even within the Administration or here on Capitol Hill, to 
understand their need. So, I look forward to how you plan to 
educate my colleagues and the Administration on those needs.
    If I could--I know you've been here for more than an hour 
now, and we're going to try to get through a few more questions 
and then wrap up. So, I certainly appreciate your attention to 
these important budgetary issues. And we are going to be 
marking up the 1194, I think, tomorrow. So, I appreciate your 
helping us with some of those issues, and giving us input.
    But, I want to go to the LORAN-C program, because it also 
is a budget question here. Congress has appropriated more than 
$160 million since 1997 to modernize the long-range aid to 
navigation system and the sites to facilitate the transition to 
the new backup GPS. Now, the Administration is proposing to 
terminate the system and sell those sites for an estimated $190 
million over the next 5 years. What is the likely cost of 
decommissioning all these sites? And what would be the 
remediation?
    Admiral Allen. We'd estimate, right now, that the cost to 
close these sites is about $24 million, and then the 
remediation costs and closure costs, probably another $140 
million, for a total of $164 million.
    Senator Cantwell. And so, how are you implementing--I mean, 
haven't we--didn't Congress appropriate more than $160 million 
to modernize from LORAN-C to the enhanced LORAN system? I mean, 
isn't that money we basically sunk into the infrastructure, and 
how you're basically going to----
    Admiral Allen. No, ma'am, that was never put toward 
enhanced LORAN. It was to upgrade the existing LORAN system 
from vacuum-tube technology to solid-state technology. We 
actually have stations operating in Alaska that still have huge 
vacuum tubes, the way we operated them in the late 1960s and 
1970s, when I was the commanding officer of a LORAN station in 
Thailand at the end of the war.
    Senator Cantwell. So, you're saying none of the $160 
million that was spent is actually lost dollars; that's all on 
technology that's either----
    Admiral Allen. It's a technology refresh from vacuum tube 
to solid state, yes--yes.
    Senator Cantwell. And it's totally--but, if we're getting 
rid of these sites, basically--are you getting rid of the 
technology? Are you moving the technology? How is this----
    Admiral Allen. We had been struggling, for a number of 
years, to get the funding to upgrade the current LORAN-C system 
from vacuum tube to solid-state technology. That is independent 
of a decision to take that system and move it to enhanced, or 
eLORAN, which will require another investment, as well, ma'am.
    Senator Cantwell. So, I just want to be clear----
    Admiral Allen. Yes.
    Senator Cantwell.--you're not losing any of the $160 
million, because the--the budget now is an estimated $190 
million, because you're going to get rid of the LORAN-C sites. 
You've just told me, ``Well, I think there's $24 million in 
cost, and a total $140 million''----
    Admiral Allen. The upgrades from vacuum tube to solid state 
are sunk costs, ma'am, they will not be recovered. They were 
upgrades to a system that will be taken offline.
    Senator Cantwell. So, we did lose those costs. We lost that 
original investment.
    Admiral Allen. The investment to move from vacuum tube to 
solid state will be lost, because there is no--we will not 
operate that system; eLORAN will be a different system, ma'am.
    Senator Cantwell. So, the eLORAN wasn't a--you didn't 
really upgrade the LORAN-C system to e, enhanced----
    Admiral Allen. No, ma'am.
    Senator Cantwell. OK. Thank you very much.
    Can you deploy the enhanced LORAN without the LORAN-C 
sites?
    Admiral Allen. You could. It would probably change the cost 
profile, because you'd be looking at where you're going to 
locate them--towers, and so forth. We have already been 
operating in some of these locations, and there is a--it 
depends on the technology associated with the coverage and 
where the sites would have to be. The current LORAN-C sites are 
usable for eLORAN.
    Senator Cantwell. And will they be used, or----
    Admiral Allen. There has been a division of the decision 
process here, first of all, to--not to continue to upgrade and 
support LORAN-C, because it is obsolete, and the decision 
whether or not LORAN-C will be succeeded by eLORAN as a backup 
to GPS has been created as a separate policy question in the 
Department, ma'am.
    Senator Cantwell. Then, how will you keep us informed about 
that process, or that oversight?
    Admiral Allen. Right now, the requirements development for 
a potential backup to GPS has been taken as a policy issue in 
the Department of Homeland Security, and it's not a Coast Guard 
lead, at this point, ma'am.
    Senator Cantwell. And so, how do you interface with them on 
that?
    Admiral Allen. We talk frequently. They are going to go 
through an alternatives analysis and see whether or not eLORAN 
is a suitable backup or there--if there's a backup needed for 
GPS. But, they're not going in with the presumption that it is 
LORAN-C, and that LORAN-C needs to be decommissioned because 
it's obsolete.
    Senator Cantwell. OK. We definitely want to have more 
oversight of that particular acquisition program.
    Admiral Allen. I would just add, ma'am, I've had inquiries 
from our international partners. eLORAN, as a concept, is more 
advanced in Europe, at this point, than it is in the United 
States. And we also operate LORAN chains, where some of our 
facilities are also used by foreign partners. Canada and Russia 
participate with some of our sites, because they have chains 
where we both use the same facility. And we are working issues 
with them at the same time, ma'am.
    Senator Cantwell. I'd like to turn to S. 1194. And do you 
support the reforms in the legislation, as it relates to the 
Coast Guard acquisition program?
    Admiral Allen. Yes, ma'am.
    Senator Cantwell. Inclusively.
    Admiral Allen. Yes, ma'am.
    Senator Cantwell. Thank you. S. 1194 also deals with 
fishing vessel safety, basically allowing vessel replacement in 
the American fisheries fleet. Do you think that that is a good 
idea, Admiral?
    Admiral Allen. I think that any action that I or you or 
anybody can take on fishing vessel safety is sorely needed and 
will probably not be enough, and we need to move at best speed 
to get this industry much safer than it is now, ma'am.
    Senator Cantwell. And what about the head-and-gut fleet 
trawlers for groundfish, do you think that we--obviously last 
year the ALASKA RANGER sank, causing several deaths. Do you 
think that we ought to be applying that to the same----
    Admiral Allen. Yes, ma'am. What has happened over the 
years--and I would say the head-and-gut fleet are one example 
of that, and we also have an issue with offshore supply vessels 
down in the Gulf, where vessels are put in a different use or 
get larger, and we almost create some kind of a quasi-class 
that's separate from the original intention of the regulations. 
And I think we need to be very diligent, moving forward, that 
we don't create what I would call a maverick class of vessel 
out there that can't be safely regulated.
    Senator Cantwell. Would you agree that we still have a long 
way to go in improving safety in the industry?
    Admiral Allen. Yes, ma'am.
    Senator Cantwell. And so, how do you think we should best 
get a handle on that?
    Admiral Allen. I think there are a couple of ways forward. 
First of all, we don't have an inspection or a validation of 
safety equipment and stability of these vessels prior to their 
operations or as a condition of operation. I believe that 
fishing vessels, let's say 50 feet and above, we ought to have 
some idea about how they're built and how they're constructed, 
by an independent third party. There ought to be stability 
attests associated with these vessels, based on size. We ought 
to have the ability to certify they've got the proper 
equipment, and can use it, before they leave the dock, things 
like that, ma'am.
    Senator Cantwell. Thank you. Admiral, thank you.
    Last question, although--I think it's the last question--is 
in regards to the Law of the Sea. I know that both you and the 
Obama Administration are ardent supporters of the Law of the 
Sea Treaty, and--let's just start with, What impact signing the 
Law of the Seas Treaty will have on our Nation's sovereignty? 
Do you think that it would have any impact? Would it erode our 
sovereignty?
    Admiral Allen. No, ma'am.
    Senator Cantwell. Are you aware, then, of any examples when 
not being a signatory to the Law of the Sea has damaged our 
national interests?
    Admiral Allen. Well, right now we operate under authorities 
and jurisdictions that we have declared unilaterally, not 
because we're signatory to the Law of the Sea Treaty. One of 
them is the claim for a 12-mile territorial sea, which was 
increased from 3 miles to 12 miles under the Reagan 
Administration by Executive Order. Twelve-mile--the 12-mile 
territorial sea is established in the Law of the Sea Treaty, 
but since we have not ratified it, we're operating under those 
conditions by practice, not under the coverage of international 
law.
    So, there could be times where we evoke what are generally 
regarded as international customary laws that are actually 
codified in the Law of the Sea Treaty, but we do not actually 
have the legal coverage, because we have not signed or ratified 
it.
    Senator Cantwell. And so, what would be some of the 
negative impacts on the Nation if we continue not to sign the 
Law of the Sea Treaty?
    Admiral Allen. Well, the Law of the Sea Treaty guarantees 
freedom of navigation, and there is some misunderstanding that 
this somehow would restrict the movement of government vessels 
or warships. They're actually guaranteed passage through--
innocent passage and passage through transit straits under the 
Law of the Sea Treaty. This would codify that, rather than us 
unilaterally asserting it as a matter of practice; we would 
have the support of international law on our behalf. And there 
are a number of straits in the world. The Bering Straits is 
one, the Torres Straits between East Timor and Australia is 
another one, and the Straits of Malaka, the Taiwan Straits, and 
so forth.
    Senator Cantwell. And what about the Arctic? How are we 
being impacted there by not continuing to be a signatory.
    Admiral Allen. Under the Law of the Sea Treaty, a Nation 
can claim resources on the continental shelf, beyond the 200-
mile limits of the exclusive economic zone, if it can 
demonstrate, through data acquisition and sediment samples and 
so forth, that that outcropping is an extension of the 
continental shelf. That is all done under a Commission that has 
been established under the Law of the Sea Treaty. And so, 
claims by Russia, Canada, Greenland, and so forth, will be made 
as signatories and partners in that treaty; they will go before 
a Commission and make their claims, which Russia will do very 
shortly. We will do that and assert it unilaterally and not 
have the backing of international law when we do that.
    Senator Cantwell. So, what happens if there's a dispute?
    Admiral Allen. That's a very good question, ma'am, and 
it's--that one's probably above my paygrade.
    Senator Cantwell. OK.
    Well, thank you very much, Admiral, for your attention to 
these issues this morning. Obviously, you can see that this 
Committee still has concerns, from a budget oversight 
perspective, on the Deepwater Program. And we are going to 
continue to ask questions about that.
    I think perhaps that we need to have a hearing just on a 
full review of where we are. I know you're saying that you are 
doing a bottoms-up review of those acquisitions and dates, 
which I appreciate. I think, to correct previous problems, you 
have to get people who actually believe in the numbers they're 
proposing. So, I would prefer that the Coast Guard actually 
have numbers that it believes in, but, at the same time--and 
representative of the taxpayers--we have to have an accurate 
understanding about the Coast Guard following the operation 
acquisition manual and about the cost of these programs. And I 
think the questions that I've brought up this morning show a 
great deal of concern for the existing Coast Guard oversight, 
post--the lead-system integrator and self-certification 
process, still shows us very great concerns about some of these 
acquisitions. So, we'll look forward to discussing those in 
further detail with you.
    Admiral Allen. Yes, ma'am. I think we've provided to your 
staff the status of these acquisition baseline reviews, and 
which ones are complete, which ones pend review by the review 
by the Department. And as far as gating to when you want to do 
that, I would suggest, once the Department's finished their 
review, we have--all that information to be made public--that 
would be a good time.
    Senator Cantwell. And----
    Admiral Allen. We can give you the time element on that.
    [The information referred to follows:]

    Answer. The below table contains the APB status as of 10 August 
2009.

                        APB Status (10 Aug 2009)
------------------------------------------------------------------------
                  Project                              Status
------------------------------------------------------------------------
                                Approved
------------------------------------------------------------------------
National Security Cutter                    APB (v1.0) approved 8 Dec
                                             2008
------------------------------------------------------------------------
Coastal Patrol Boat*                        APB (v1.1) approved 11 Mar
                                             1996
------------------------------------------------------------------------
Medium Endurance Cutter MEP                 APB (v2.1) approved 5 Dec
                                             2008
------------------------------------------------------------------------
Patrol Boat MEP                             APB (v2.1) approved 4 Dec
                                             2008
------------------------------------------------------------------------
Response Boat Medium (RB-M) *               APB (v2.0) \1\ approved 20
                                             Sep 2006
------------------------------------------------------------------------
HC-144A Maritime Patrol Aircraft            APB (v1.0) approved 6 Feb
                                             2009
------------------------------------------------------------------------
HC-130J Fleet Introduction                  APB (v1.0) approved 22 May
                                             2009
------------------------------------------------------------------------
HC-130H Conversion/Sustainment              APB (v1.0) approved 19 Jun
                                             2009
------------------------------------------------------------------------
HH-65 Conversion/Sustainment                APB (v1.0) approved 22 May
                                             2009
------------------------------------------------------------------------
Rescue 21 *                                 APB (v6.0) \2\ approved 27
                                             May 2008
------------------------------------------------------------------------
                               In Progress
------------------------------------------------------------------------
Fast Response Cutter                        APB (w 1.0) CG Component
                                             Acquisition Executive (CAE)
                                             approved 9 Feb 09; Under
                                             DHS Review
------------------------------------------------------------------------
HH-60J Conversion                           APB (1.0) CG CAE approved 4
                                             Dec 08; Under DHS Review
------------------------------------------------------------------------
Nationwide Automatic Identification         APB (v2.0) under review at
 System*                                     USCG; APB (v1.0) approved
                                             02 Jan 2007
------------------------------------------------------------------------
C4ISR                                       APB v 1.0 Under r USCG
                                             Review
------------------------------------------------------------------------
                            Not Yet Required
------------------------------------------------------------------------
Offshore Patrol Cutter                      Pre ADE-2 (3QFY10)
------------------------------------------------------------------------
IDS Small Boats                             Pre ADE-2 (2QFY10)
------------------------------------------------------------------------
Unmanned Aircraft System                    Pre-acquisition
------------------------------------------------------------------------
DW Logistics/CG-LIMS                        Pre ADE-2 (1QFY11)
------------------------------------------------------------------------
IOC/C21*                                    Pre ADE-2 (1QFY10)
------------------------------------------------------------------------
Notes:
* Denotes non-Deepwater Projects.
\1\ RB-M APB v2.0 approved 20 Sep 2006 correlates to RB-M APB Revision 1
  (rev1). For consistency, all APB updates have been converted to
  ``versions'' vice ``revisions.''. All subsequent updates will be
  referred to as ``versions.''
\2\ Rescue 21 APB v6.0 approved 27 May 2008 correlates to Rescue 21 APB
  Revision 5 (rev5). For consistency, all APB updates have been
  converted to ``versions'' vice ``revisions.'' All subsequent updates
  will be referred to as ``versions.''
Per DHS/Coast Guard acquisition policy, acquisitions that have not yet
  achieved Acquisition Decision Event (AOE) 2, e.g., approval to proceed
  to the obtain phase, are not required to have APBs.


    Senator Cantwell. Well, I appreciate that. And I think the 
sooner that we can get to accurate information that we can 
believe in--I mean, to say nothing of the disappointment of 
going from 17 to whatever it is now--24, 26--in and of itself 
is a major concern. But, we want to see the oversight of the 
Coast Guard's rules being applied to these acquisitions. And 
so, we look forward to having that hearing with you.
    Admiral Allen. Thank you.
    Senator Cantwell. Thank you.
    And thank you, Mr. Caldwell. This hearing----
    Mr. Caldwell. Thank you.
    Senator Cantwell.--is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I want to welcome Admiral Allen and Mr. Caldwell, before the 
Committee. It is an honor to chair the Committee that oversees the 
brave and dedicated men and women of the United States Coast Guard.
    The Coast Guard has served this Nation with distinction and honor 
throughout its nearly 220 year history. And last year was no exception 
as the Coast Guard continued to carry out its missions with great 
success, from rescuing more than 4,000 people--some in landlocked 
Midwestern states suffering from devastating floods--to seizing a 
record 167 metric tons of cocaine from the high seas destined for 
cities across the United States.
    The Coast Guard successfully conducts safety and security 
inspections for more than 3,200 oil and chemical facilities around the 
country including those located in and around the Port of Huntington, 
the Nation's largest inland port in terms of tonnage and America's 
seventh largest port overall.
    The Coast Guard protects our interests well beyond our borders in 
the battle against piracy off the Horn of Africa, taking the lead to 
improve the safety and security of all U.S. ships conducting commerce 
in that region.
    And I am enormously thankful for the Coast Guard's meticulous 
maintenance of nearly 800 buoys and other navigational aids throughout 
West Virginia's waterways, helping to keep over 63,000 registered 
boaters safe.
    The American people have largely come to expect an unmatched level 
of excellence and professionalism from the Coast Guard and its unsung 
heroes both at home and abroad. And they deserve all the support we can 
give them.
    The Coast Guard is undergoing sweeping transformations including 
the continued recapitalization of its fleet of surface vessels and 
aircraft through the Deepwater program. It also continues to make 
significant changes to its organizational structure and business 
practices through its Modernization plan.
    I support efforts aimed at improving the Coast Guard, but I also 
believe every decision and action should be transparent, accountable 
and based on thorough analysis and sound business strategies.
    On June 4, 2009, Senator Cantwell introduced legislation, S. 1194, 
the Coast Guard Authorization Act for Fiscal Years 2010 and 2011, 
designed to strengthen management and oversight of the Coast Guard's 
Deepwater program. This bipartisan legislation--cosponsored by Senator 
Snowe, Senator Hutchison, and me--has as its centerpiece a major 
acquisition reform title building on Senator Cantwell's Integrated 
Deepwater Program Reform Act (S. 924) which the Senate passed in the 
110th Congress. Among other things, the acquisition reform title of S. 
1194:

  <bullet> Addresses the need for acquisition reform on a 
        comprehensive, service-wide basis;

  <bullet> Codifies the phases and requirements of the Coast Guard's 
        acquisitions processes; and

  <bullet> Prohibits the use of a lead systems integrator except in 
        limited circumstances where they will be phased out by 2012.

    The bill also includes important provisions that will help the 
Coast Guard complete its Modernization plan which would eliminate the 
existing geographically-based command and replace it with a more 
centralized structure.
    As your Chairman, I want to ensure that the Coast Guard is properly 
positioned and has the resources it needs for ultimate success. To that 
end, I will ask you to provide the Committee an update this morning on 
the status of the Deepwater program, your progress in Modernization, 
and the challenges the Coast Guard is facing in managing its aging 
``legacy'' cutters and deteriorating shore facilities including 
personnel housing.
    Admiral Allen, I look forward to your testimony and learning more 
about the Coast Guard's plans to address these challenges under your 
leadership. I am also looking forward to Mr. Caldwell's testimony which 
I hope will provide additional perspective to these and other issues.
                                 ______
                                 
          Prepared Statement of the Fleet Reserve Association
The FRA
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans' 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
on Capitol Hill focused on maintaining and improving benefits and the 
quality of life for Sea Service personnel and their families. The 
Association also sponsors various recognition programs, a National 
Americanism Essay Contest, awards over $100,000 in scholarships 
annually and provides disaster and/or relief to shipmates and others in 
distress.
    The Association is also a founding member of The Military Coalition 
(TMC), a 34-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA hosts the annual U.S. Coast Guard Caucus Breakfast on Capitol 
Hill each year to recognize Caucus members and increase awareness about 
the Service's various missions and the work of Coast Guard personnel.
    FRA celebrated 84 years of service in November 2008. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the Uniformed Services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan (USSBP). More recently, FRA led the way in reforming the REDUX 
Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections for service members and their dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
Certification of Non-receipt of Federal Funds
    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any Federal grant or contract during the 
current Fiscal Year or either of the two previous Fiscal Years.
Introduction
    Madame Chairwoman and distinguished Members of the Subcommittee, 
the Fleet Reserve Association (FRA) appreciates the opportunity to 
present its recommendations on the United States Coast Guard's FY 2010 
Budget.
    Prior to addressing these issues, FRA wishes to thank the Congress 
for the generous pay, health care and benefit enhancements enacted in 
recent years. Improved wounded warrior transition and support services 
are very important as are other benefit improvements which are 
essential to maintaining the all-volunteer force and military 
readiness.
    Coast Guard parity with DOD personnel programs remains a high 
priority for FRA, and the Association notes continuing challenges 
within the Coast Guard to adequately fund previously authorized active 
and Reserve people programs.
Coast Guard Budget
    The FY 2010 Coast Guard Budget of $9.9 billion is only slightly 
above the current year's budget of $9.36 billion. The proposed budget 
represents only a 6-percent increase and FRA believes this is woefully 
inadequate to meet the Coasts Guard's needs which include increased end 
strength and increased funding for family housing that on average is 
more than 40 years old. Adequate end strength and improved family 
housing are just as important as new ships and critical for retention 
and readiness.
U.S. Coast Guard Authorization
    FRA supports the U.S. Coast Guard Authorization bill S. 1194, 
sponsored by the Chairwoman Cantwell. Similar legislation stalled in 
the last Session of Congress, and FRA believes authorization 
legislation is critical for congressional budgeting and effective 
oversight of the Coast Guard and other Federal agencies.
    The legislation addresses several important personnel related 
issues, including the retention of emergency leave for personnel who 
would otherwise be required to forfeit leave to support of major 
disasters; legal assistance for qualified Coast Guard Reservists on a 
par with all similarly situated DOD Reservists; and reimbursement for 
certain medical-related travel expenses when a service member is 
stationed on an INCONUS island and his/her family member is referred to 
a specialty care provider off-island.
    The bill authorizes USCG end strength of nearly 50,000 for FY2010 
and nearly 52,500 for FY2011. It also makes Coast Guard retirees 
eligible for the Armed Forces Retirement Home (AFRH). The bill also 
changes the vice commandant position from a 3-star position to a 4-star 
position, which will better align the Coast Guard with the other armed 
forces.
    Although FRA supports the Chairwoman's authorization bill, more 
needs to done. The Association also supports ``The Coast Guard Service 
Member Benefits Improvements Act''(H.R. 2901) sponsored by Rep. Frank 
Lobiondo, which seeks to improve the quality of life for members of the 
U.S. Coast Guard (USCG) and their families. Housing authorities, child 
development centers, and other issues addressed in this legislation are 
essential to morale, family readiness and service-wide Coast Guard 
readiness.
End Strength
    FRA welcomes the increased active duty end strength for the Coast 
Guard provided for in the Authorization legislation. According to the 
2009 U.S. Coast Guard Posture Statement, the Coast Guard end strength 
is currently at 41,873 active duty, 8,100 Reservists, 7,000 civilian 
employees, and 34,000 volunteer Auxiliarists and has been at that level 
for several years even though the Coast Guard has been tasked with 
additional responsibilities in recent years. The Coast Guard took over 
the National Capitol Region Air Defense (NCRAD) mission in September of 
2006, and there have been increased demands with the passage of ``The 
Coast Guard and Maritime Transportation Act of 2006.'' The Association 
believes that even a modest increase to active duty end strength in FY 
2010 would immediately translate to a higher level of mission 
effectiveness. FRA supports adequate manpower to meet growing 
operational requirements and notes there are annual limits to 
increasing Coast Guard end strength because of limited recruiting and 
training facilities and resources. According to Admiral Thad Allen, 
Commandant of the Coast Guard, in his 2008 State of the Coast Guard 
Address, ``There has been no material change in the Coast Guard's end 
strength in the past 50 years despite more demands and the current era 
of persistent challenges.''
Pay
    Congress has for the past few years improved compensation that, in 
turn, enhanced the recruitment and retention of quality personnel in an 
all-volunteer environment. Adequate and targeted pay increases for 
middle grade and senior petty and noncommissioned officers have 
contributed to improved retention, morale and readiness. More than 50 
percent of the uniformed service community is married and satisfactory 
compensation helps relieve much of the tension brought on by demanding 
operational tempos.
    For FY 2010, the Administration recommended a 2.9 percent across-
the-board basic military pay increase which reflects Employment Cost 
Index (ECI) data. FRA strongly supports pay increases that are at least 
0.5 percent above the ECI (3.4 percent in FY 2010), as provided for in 
both the House and Senate FY 2010 Defense Authorization bills, to 
further close the gap between civilian and uniform services pay. 
Previous annual 0.5 percent higher-than-ECI raises reduced the pay gap 
with the private sector from 13.5 percent in FY 1999 to 2.9 percent 
today.
    Assuming authorization by the Armed Services Committees, FRA urges 
the Subcommittee to authorize an annual active duty pay increases that 
are at least 0.5 percent above the ECI, to help close the pay gap 
between active duty and private sector pay and ensure adequate 
appropriations to fund these increases in the Coast Guard's budget.
Health Care
    The FRA strongly supports adequate funding for the Coast Guard 
Health Care Fund (HCF) in order to meet readiness needs, fully fund 
TRICARE, and improve access for all beneficiaries regardless of age, 
status or location.
    Eroding benefits for career service can only undermine long-term 
retention and readiness. The men and women serving in the Coast Guard 
today are very conscious of actions by Congress affecting those who 
preceded them in service. One reason Congress enacted TRICARE-for-Life 
(TFL) in 2001 is that the Joint Chiefs of Staff at that time said that 
inadequate retiree health care was affecting attitudes among active 
duty troops. The FRA believes strongly that the Defense Department has 
not sufficiently investigated and implemented other options to make 
TRICARE more cost-efficient without shifting costs to beneficiaries, 
and strongly supports bipartisan legislation sponsored by 
Representatives Chet Edwards' and Walter Jones' (``The Military 
Retirees Health Care Protection Act'' H.R. 816).
    Due in large part to the unique range of geographic locations to 
which they are assigned, Coast Guard personnel and their families often 
struggle to find medical providers who accept TRICARE beneficiaries. 
While implementation of TRICARE Prime Remote alleviated many of these 
problems, costs associated with the standard benefit and low 
reimbursement rates can make finding a health care provider a daunting 
task in many areas. Coast Guard personnel who choose to receive care at 
DOD Military Treatment Facilities (MTFs) may be required to travel long 
distances for care. FRA is concerned that low reimbursement rates will 
continue to make health care access a significant challenge for Coast 
Guard personnel stationed in remote locations.
    The Association appreciates that for the first time in 4 years the 
budget does not request TRICARE fee increases for retirees under age 
65. FRA urges the Subcommittee to authorize full funding for health 
care benefits to ensure access for all beneficiaries, and support ``The 
Military Retirees Health Care Protection Act'' (H.R. 816).
Reserve Issues
    Reserve Health Care--FRA is grateful to Congress for allowing 
Reservists to purchase TRICARE Reserve Select (TRS) coverage per the FY 
2007 National Defense Authorization Act, (NDAA). We also appreciate the 
provision in the FY 2009 NDAA that mandates recalculation of TRICARE 
Reserve Select (TRS) premium to reflect actual costs. The Association 
believes it should be a priority to restrain health cost increases for 
TRICARE Reserve Select members who are increasingly being asked to 
serve their country.
    FRA notes that TRICARE Reserve Select for gray area retirees is 
something on the minds of CG Reservists and this may become a 
recruiting and retention issue in the future as members realize that 
buying into TRICARE during their service time could potentially leave 
them without coverage in the future. FRA supports authorization of 
funding that allows Reserve personnel and their families to participate 
in TRICARE.
    Reserve Early Retirement--Unfortunately the effective date of a key 
provision in the FY 2008 NDAA, which reduces the Reserve retirement age 
by 3 months for each cumulative 90-days ordered to active duty is 
effective upon the enactment of the legislation and NOT retroactive to 
7 October 2001. This issue is addressed in the ``The National Guardsmen 
and Reservists Parity for Patriots Act'' (H.R. 208), sponsored by Rep. 
Joe Wilson (S.C.), and companion legislation in the Senate (S. 644) is 
sponsored by Senator Saxby Chambliss (Ga.). FRA urges this Subcommittee 
to ensure that Coast Guard Reservists are included in this program.
    Reserve End Strength--While improving active duty end strength, the 
Authorization bill does not address Reserve end strength. The 
Association notes that the USCGR is authorized an end strength of 
10,000, but funded for only 8,100. FRA believes that the Coast Guard 
cannot sustain current operational levels without the funding necessary 
to increase end strength over the next few years.
    Academic Protection for Reservists--There are cases where 
Reservists, attending higher institutions of learning, called to active 
duty in the defense of the Nation and its citizens, lose credits or 
pre-paid tuition costs because they did not complete the course of 
instruction. FRA believes Congress should adopt legislation requiring 
colleges and universities to retain and reactivate the credits and 
prepaid costs for the Reservists upon demobilization.
Housing
    The Coast Guard currently owns 4,000 family homes, at an average 
age of 40+ years, with an extensive maintenance and recapitalization 
project backlog. The costs are compounding and funds are not available 
to keep pace with essential maintenance and replacement requirements. 
FRA supports authorization of Coast Guard initiatives to improve family 
housing. DOD has privatized approximately 85 percent of their homes 
using public-private venture (PPV) authorities, however, the Coast 
Guard has not been able to leverage the same equity and needs 
authorization and adequate resources to do so.
    FRA urges reform of housing standards that inequitably depress Base 
Allowance for Housing (BAH) rates for mid-to-senior enlisted members. 
The vast majority of Coast Guard personnel and their families use 
private housing and collect BAH. FRA believes that there is an urgent 
need to update the standards used to establish housing allowance rates. 
That is why the Association is supporting the study of BAH rates 
provided for in the House Defense Authorization bill (H.R. 2647). Only 
married E-9s now qualify for BAH based on local single family home 
costs. At a minimum, the BAH standard for a single-family detached 
house should be extended over several years to qualifying service 
members beginning in grade E-8 and subsequently to grade E-7 and below 
as resources allow. If authorized by the Armed Services Committees, FRA 
strongly urges commensurate authorization for the Coast Guard.
Permanent Change of Station (PCS) Allowances
    The Association urges this Subcommittee to authorize an upgrade to 
permanent change-of-station (PCS) allowances to better reflect the 
expenses Coast Guard members are forced to incur while complying with 
government-directed relocation orders. And if authorized by the Armed 
Services Committees, FRA urges authorization of these enhancements for 
the Coast Guard.
    Shipment of POVs--FRA supports increasing the number of privately 
owned vehicles (POV) a military family can ship during a PCS from one 
vehicle to two for duty assignments in Alaska, Hawaii and U.S. 
Territories, that is addressed in the House version of the FY 2010 
Defense Authorization bill (HR 2647). This is an issue of particular 
concern to Coast Guard personnel stationed in these locations since 
many married personnel have spouses who need transportation to work and 
to meet family obligations.
    Weight Allowances--FRA also recommends modifying PCS household 
goods weight allowance tables for personnel in pay grades E-7, E-8 and 
E-9 to coincide with allowances for officers in grades 0-4, 0-5, and 0-
6, respectively. These allowances would more accurately reflect the 
normal accumulation of household goods over the course of a career.
    Dislocation Allowance--Moving household goods on government orders 
can be costly. Active duty personnel endure a number of PCS moves 
during a career in uniform. Each move requires additional expenses for 
relocating and establishing a new home.
    Retiring personnel are not currently entitled to a dislocation 
allowance despite the fact that his or her orders can be construed as a 
permanent change of station that reflect a management decision to order 
the member's retirement or transfer. Assuming the member is moving to a 
new location, the retiring Coast Guardsman will face the same expenses 
as if transferring to a new duty station.
    FRA believes a dislocation allowance should be authorized for 
personnel retiring from active duty. After serving 20 or more arduous 
years of service, retiring personnel moving household locations in 
excess of 50 miles from their final duty station should be entitled to 
a dislocation allowance equal to at least 1 month of basic pay.
Child Care
    The availability and accessibility of affordable child care is a 
very important quality of life issue for Coast Guard personnel and 
their families. Coast Guard child care centers operate under the same 
standards as similar DOD facilities. The Coast Guard's child care 
program includes operating nine (9) child development centers (CDC), a 
child care subsidy program allowing members affordable access to 
private sector child care centers, and whenever possible access to DOD 
CDCs.
    High-cost child care can often be attributed to the fact that most 
of the unit locations preclude access to DOD and Coast Guard CDCs. The 
Coast Guard continues to explore ways to assist with child care costs 
to members in remote, high cost areas, and FRA stresses the importance 
of continued authorization plus updates and enhancements of this 
important program.
Public/Private Ventures
    Without authorizing legislation the Coast Guard has been unable to 
enter into Public Private Ventures (PPV) leaving over 12,000 Coast 
Guard members and their families living in aged housing, some of which 
is substandard. These older houses are expensive to maintain and have 
recurrent maintenance issues. The Coast Guard PPV authorization was 
allowed to lapse in 2007 and the Service now owns more than 4,000 
family houses that are 40 years or older. In contrast DOD has 85 
percent of its family housing as part of the PPV program. Before the 
PPV lapse, the Coast Guard partnered with DOD in a joint privatization 
housing project in Hawaii. To address these challenges, FRA urges the 
Subcommittee to (re)authorize the PPV program for the Coast Guard.
Repeal REDUX
    Ten years ago FRA led efforts to repeal the 1986 REDUX retirement 
program formula which led to enactment of legislation authorizing 
personnel choosing that retirement program option to receive a $30,000 
career status bonus at the 15-year career mark. Since then, many 
enlisted personnel have chosen this option and accepted future capped 
retired pay cost of living adjustments. Today the average acceptance 
rate among the services is approximately 25 percent. While each 
individual's career situation is unique and service members are 
certainly entitled to make this choice, it's important to note that for 
most this is probably a very bad financial decision since the value of 
the $30,000 bonus is significantly less than it was at the time of 
enactment. And in most instances individuals selecting this option are 
in fact forfeiting significant sums of potential retired pay over their 
lifetimes. FRA therefore believes that it's time to repeal the REDUX 
retirement program.
Education Benefits
    The Association is grateful for the enactment of the Post 9/11/2001 
GI Bill last year that provides a new benefit package for service 
members who served after 9/11/2001. Unfortunately benefits for 
Reservists who served before 9/11/2001 are authorized under the 
separate Reserve Montgomery GI Bill program and are only 25 percent of 
the benefits provided for active duty participants despite the intended 
47 to 50 percent level. FRA urges integration of active and Reserve 
MGIB programs to ensure proportionality is maintained in any future 
benefit changes.
Family Readiness
    FRA strongly supports Coast Guard family readiness programs and 
authorization of adequate resources to sustain and expand them. The 
Coast Guard Work-Life programs provide a range of support programs 
designed to assist members and their families with the rigors and 
challenges of military life. Service delivery is difficult due to the 
geographic location of Coast Guard families.
    Authorization and funding are needed to support new initiatives to 
keep pace with DOD sponsored programs such as family member elder-care, 
sexual assault prevention and response program, personal financial 
management advisors, and dedicated field specialists supporting 
increasing demands that can not be implemented without additional 
funding and staff.
    It is often said that the military recruits the service member, but 
retains the family. As our Nation asks more from its all-volunteer 
force, at least 50 percent of whom are married, family support has 
never more important.
    As stated by Master Chief Petty Officer of the Coast Guard Skip 
Bowen in an FRA Today article, ``Family readiness in the Coast Guard is 
unique to the other services. For the other branches of the military, 
family readiness is more geared toward a deployment. While the Coast 
Guard does have units that deploy in the same manner that DOD services 
deploy, the main difference is that the Coast Guard is deployed 100 
percent of the time.''
    He also referenced the Coast Guard Ombudsman program which is 
directly related to families. Volunteers provide much needed support 
and our military spouses can benefit from their services if they are at 
their home duty station and their loved one is at sea. While some may 
think of the Coast Guard as a ``home-based operation,'' many Coast 
Guardsmen deploy from where they live and spend significant time away 
from home--anywhere from 185 to 230 days out of the year. The Ombudsmen 
are there to provide information for the spouses, and the spouses need 
to understand how the program works.
Exchange/MWR Programs
    The Coast Guard relies heavily on vital non-pay benefit programs to 
provide for the health and well-being of its personnel and their 
dependents, and to ensure good morale as well as mission readiness.
    The Coast Guard's Morale, Welfare, and Recreation (MWR) program and 
the Coast Guard Exchange System (CGES) provide important services to 
members and their families. Proceeds from CGES sales generate funds for 
MWR programs including retail stores, fitness centers, gymnasiums, 
libraries and child development centers. All indirectly support the 
Coast Guard's mission while helping ease the challenges and rigors of 
often demanding duty assignments.
    The Coast Guard operates fitness centers, bowling centers, picnic 
areas, movie theaters, community centers, and youth programs that 
without the authorization of adequate funding will be degraded. New 
initiatives to keep pace with DOD programs such as Boy's and Girl's 
Clubs cannot be implemented without additional funding. In addition, 
second destination shipping funding is needed to provide goods and 
services without burdening the service member with increased costs. 
Continuing budget pressures threaten to degrade this important and 
needed benefit for all Coast Guard personnel.
    FRA asks that this Subcommittee, the full Committee and its 
counterparts in the House to provide continued authorization for 
funding for CGES and MWR programs to ensure the well-being and morale 
of all Coast Guard personnel and their families.
Conclusion
    Madam Chairwoman, the FRA appreciates the opportunity to submit its 
views for the record on pay, health care and other programs important 
to Coast Guard personnel. The Association salutes you and members of 
your distinguished Subcommittee for effective oversight of our Nation's 
all-important fifth Armed Force, and for your untiring commitment to 
the men and women serving so proudly in our magnificent United States 
Coast Guard.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Admiral Thad W. Allen
    Question 1. I have been told that a high level official at the 
Department of Homeland Security recently had the opportunity to tour a 
Coast Guard cutter in South Carolina, and was somewhat surprised at its 
condition. I'm not sure of the details, but I'm guessing it was 
probably either the High Endurance Cutter GALLATIN or High Endurance 
Cutter DALLAS, both of which I understand are currently in emergency 
dry dock for repairs. I understand these vessels are over 40 years old, 
and have already had one service life extension. Given all this, I was 
very surprised to learn that the Administration, for whatever reason, 
did not request any funding for sustainment of High Endurance Cutters 
in Fiscal Year 2010. Why was funding for this purpose not included in 
the Administration budget request?
    Answer. The President's FY 2010 budget includes $200 million in 
base funding for Coast Guard vessel depot level maintenance. The Coast 
Guard will continue to apply depot level maintenance funding toward its 
most critical maintenance needs including the WHEC fleet.
    Additionally, the American Recovery and Reinvestment Act and 
Overseas Contingency Operations funding includes a total of $20 million 
to support the sustainment of the HEC fleet.

    Question 2. In November 2008 a group of terrorists attacked 
multiple targets in Mumbai. The terrorists are believed to have entered 
the area in a small boat. In regard to small boat security, what 
strategy does the Coast Guard employ to prevent domestic terrorist 
attacks via small boats?
    Answer. The Coast Guard's strategy for Ports, Waterways, and 
Coastal Security in general includes three primary elements:

  <bullet> Maritime Security and Response Operations;

  <bullet> Maritime Domain Awareness; and

  <bullet> An effective Maritime Security Regime

    A portion of each element is aimed at deterring, detecting, and 
interdicting terrorist attacks via small boats.
    Maritime Security and Response Operations: Under the Coast Guard's 
Operation Neptune Shield (ONS), armed waterborne, airborne, and 
shoreside surveillance patrols provide a visible deterrent presence 
that can also detect and interdict terrorist attacks via small boats. 
ONS also requires security boardings and inspections of small boats and 
establishment of fixed security zones around maritime critical 
infrastructure and key resources to help deter and detect. 
Additionally, ONS requires armed escorts of selected high capacity 
passenger vessels, ships carrying certain dangerous cargos, and high 
value naval vessels, providing a measure of protection from small boat 
attacks.
    Maritime Domain Awareness: Coast Guard waterborne, airborne and 
shoreside surveillance patrols collect data, information, and 
intelligence on small vessel activity and are alert for anomalous 
behavior. In each Coast Guard Sector, the intelligence staff maintains 
a strong network with other Federal, state, local, and private 
partners. Many ports have surveillance cameras and radars with other 
sensor systems that monitor key port areas for suspicious behavior by 
small vessels. The Captain of the Port (COTP) works through the 
respective Area Maritime Security Committee (AMSC) to educate the 
maritime community on reporting suspicious activity. America's Waterway 
Watch provides a single nationwide phone number that the public can use 
to report suspicious marine behavior.
    Maritime Security Regime: An effective Maritime Security Regime 
deters and protects against small boat attacks. The Coast Guard 
enforces regulations detailed in Title 33 Code of Federal Regulations 6 
and 106 to provide mechanisms to control port access, movement, and 
activity. Vessels greater than 300 gross tons are regulated under Title 
33 Code of Federal Regulations 160.202 and 203, and must submit a 
notice of arrival 96 hours before entering a U.S. port. The Coast 
Guard, in concert with CBP, uses this time to vet the vessel's crew, 
passengers, and cargo prior to entry. Should vetting indicate a threat 
to the security of the port, the COTP may initiate control measures, 
which would include boarding and examining the vessel, to ensure risk 
is minimized by the vessel's entry into port. The Maritime Security 
Transportation Act (MTSA) of 2002 requires each AMSC to develop and 
exercise an Area Maritime Security Plan to deter, prevent, and respond 
to various terrorist threats including small vessels. Each MTSA-
regulated vessel and facility must develop security plans that are 
approved by the Coast Guard.
    In addition, the Coast Guard worked in conjunction with other DHS 
component agencies to develop the DHS Small Vessel Security Strategy. 
Although approved in April 2008, it considered and was designed to 
counter various small vessel threats including an attack such as 
occurred in Mumbai.

    Question 3. The Coast Guard has the finest professional mariners in 
the world, and in the event of a GPS outage they obviously would be 
able to safely return to port. However, given the heavy reliance on GPS 
by Coast Guard systems, including communications, navigation, and 
identification systems, how has the Coast Guard ensured it can 
effectively execute its mission during a GPS outage? As examples, how 
would the Coast Guard coordinate and execute large-scale search and 
rescue missions, place navigational buoys, and maintain maritime domain 
awareness under such circumstances?
    Answer. While the Coast Guard's efficiency could potentially be 
impacted during shorter outages of GPS, the Coast Guard would use a 
variety of other systems, tools, and/or processes to navigate and 
execute its missions including inertial navigation systems in aircraft 
and fathometers on vessels, gyrocompasses, radars, visual aids to 
navigation, visual bearings, radio direction finders, celestial and 
terrestrial navigation, and dead-reckoning.

    Question 4. The Senate recently passed an amended version of H.R. 
2892, the Department of Homeland Security Appropriations Act for Fiscal 
Year 2010. If enacted into law, this bill would eliminate funding for 
operation of the LORAN-C system after January 4, 2010, at which time 
the Coast Guard would be required to decommission the LORAN-C 
infrastructure and sell any real or personal property used for the 
system. Will terminating operation of the LORAN-C signal on January 4, 
2010, adversely impact the safety of maritime navigation?
    Answer. No. There is minimal reliance on LORAN-C as a navigational 
aid and increasingly fewer vessels are outfitted with LORAN-C. Major 
marine equipment manufacturers do not offer LORAN-C receivers as part 
of their product lines. Of more than 5,000 ships sampled earlier this 
year, less than 1 percent used LORAN as a position fixing source for 
their automatic identification system. LORAN-C is not a viable systemic 
backup for GPS. A competent mariner operating a vessel on navigable 
waters of the United States will be able to fix his or her position and 
determine a safe course to steer without LORAN-C.

    Question 5. Would infrastructure particularly real property such as 
that used to operate LORAN-C be needed in order to deploy a new back-up 
to GPS?
    Answer. The Department of Homeland Security is determining whether 
a systemic backup to GPS is needed and, if so, what that backup should 
be. Depending on the outcome of the analysis, some LORAN-C real 
property and buildings could be used as part of the eLORAN system, 
although significant new investment would be required at some sites to 
address deteriorating conditions. Under the current termination plan, 
LORAN-C key real property and infrastructure would remain available 
until a decision is made regarding the need for and type of systemic 
back-up system.

    Question 6. Would such real property or other infrastructure be 
needed, either in whole or in part, in order to deploy eLORAN as a new 
back-up to GPS?
    Answer. Much of the LORAN-C infrastructure could be used to deploy 
eLORAN, although the physical condition of some of the existing 
infrastructure would require significant rehabilitation. For example, 
two sites in Alaska are in such poor condition that they would have to 
be razed and rebuilt. To establish complete eLORAN coverage of the 
contiguous United States, three additional sites would need to be 
established. Additionally, in its potential role as a backup for 
critical infrastructure, site security is a more vital factor for 
eLORAN than LORAN-C; thus LORAN-C sites that are not located on secured 
government property may not meet eLORAN requirements and new sites 
might have to be built.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Admiral Thad W. Allen
    Question 1. While the Coast Guard's budget has increased since 
2003, the long-term budget outlook for the agency remains uncertain. 
Given this uncertainty, how is the Coast Guard ensuring that limited 
resources are utilized most effectively to successfully manage existing 
and anticipated future challenges and needs?
    Answer. As always, the Coast Guard optimizes its resources using 
risk based decisionmaking to assure statutory obligations and agency 
priorities are met.

    Question 2. To assess its mission-performance for Fiscal Year 2008, 
the Coast Guard introduced a number of new performance measures and 
targets. Rather than use a single measure for each of its 11 statutory 
missions as in prior years, the Coast Guard reported on a total of 21 
performance measures. What challenges, if any, has the Coast Guard 
encountered in the implementation of these performance measures?
    Answer. The Coast Guard values performance measurement and utilizes 
performance management business practices to assess program performance 
and its value to the U.S. taxpayer. In previous years, the Coast Guard 
only reported outcome measures for each statutory mission. To 
communicate 2008 Coast Guard performance, the service created a 
separate Performance Report which facilitated the reporting of 
additional performance measures. These additional measures were 
previously tracked and utilized by Coast Guard Mission Managers to 
assess mission performance but were not reported in previous years. The 
challenge with implementation of performance measures is capturing the 
full value of the Coast Guard's Safety, Stewardship, and Security roles 
and how each role contributes across the multi-mission spectrum of the 
eleven (homeland and non-homeland security) statutory missions. 
Overall, Coast Guard performance is much more than the sum of its 11 
missions.

    Question 3. How have these measures better captured the breadth of 
key mission activities?
    Answer. By reporting additional measures the Coast Guard fulfills 
its responsibilities under the Government Performance and Results Act 
(GPRA) while also demonstrating the organizations commitment to 
performance management and program evaluation. Moreover, the reporting 
of additional measures helps illustrate the ways the Coast Guard uses 
its available resources to meet its mission requirements and serve the 
Nation.

    Question 4. The Administration's Fiscal Year 2010 budget proposal 
included a request for 41,403 military positions' a decrease of 24 
positions below the 2009 budget. Given this aggregate loss of 
personnel, which seems to come at the same time the Coast Guard is 
experiencing increasing workload and responsibilities; will the service 
be able to fulfill its obligations related to new initiatives and 
regulations, such as tow boat inspections?
    Answer. Taking into account all Coast Guard appropriations 
including Acquisitions, Construction and Improvement appropriation, 
there is an overall increase of 17 military positions. The FY 2010 
President's request includes program increases to Financial Management 
Oversight and enhanced Maritime Safety and Security and the associated 
increase of military and civilian positions. Additionally, the FY 2010 
President's request includes the termination of LORAN-C which results 
in a management and technology efficiency of 293 full time positions.

    Question 5. When I asked you whether the anticipated delivery date 
for all Deepwater assets is still 2027, you responded that as the Coast 
Guard takes each one of these platforms and independently and openly 
competes it, you ``have the opportunity to maybe move that back to the 
left.'' Does this mean you anticipate the delivery date for all 
Deepwater assets may occur earlier than 2027 on a project timeline?
    Answer. The Coast Guard is working continuously to balance mission 
demands, resources, and risk. In an effort to improve project 
management, oversight and transparency, the Coast Guard is in the 
process of disaggregating the Deepwater Program Acquisition Program 
Baseline (APB) into stand-alone individual asset APBs. This effort, in 
addition to the Coast Guard's assumption of the Deepwater systems 
integrator role, will permit greater flexibility to accelerate 
anticipated delivery dates. Contracting, construction, and delivery of 
assets can now be phased more appropriately to allow for the concurrent 
purchase of ships, aircraft and shore-side systems.
    Ultimately, the ability to deliver all Deepwater assets by 2027 is 
largely dependent upon annual funding that is stable and consistent 
with the out-year funding profile upon which the cost estimate for each 
project's APB is based.

    Question 6. As part of its systems integration responsibilities, 
the Coast Guard has undertaken a fundamental reassessment of the 
capabilities, number, and mix of assets it needs. What is the current 
status of this analysis?
    Answer. The Coast Guard is currently conducting performance 
sensitivity analysis in order to help inform offshore surface and 
aviation operational requirements. These analyses are part of the Coast 
Guard's ongoing major system acquisition efforts.

    Question 7. Is there a possibility that the Coast Guard will 
acquire fewer assets in order to contain the growing cost of the 
Deepwater acquisition program?
    Answer. The Coast Guard is working continuously to balance mission 
demands, resources, and risk. As the Coast Guard continues to 
disaggregate the Deepwater Program Acquisition Program Baseline (APB) 
into stand-alone individual asset APBs, the total acquisition cost 
(TAC) for each asset will be compared to the TAC within the total 
Deepwater cost estimate. Where the revised TAC of the individual asset 
APBs is greater than the Deepwater cost estimate, possible trade-offs 
will be examined, such as reducing requirements or the number of assets 
to be acquired. This type of ``trade space'' analysis is a common 
practice in military acquisition. Until all APBs are revised and a 
proper risk analysis is conducted, taking into account capability gaps 
and the out-year budget picture, it is premature to articulate possible 
changes to the Coast Guard's acquisition strategy.

    Question 8. The Coast Guard is currently building the capacity of 
its own acquisition workforce. During this building phase, to what 
extent is the Coast Guard continuing to rely on contractor support in 
critical roles? What are the Coast Guard's plans for moving away from 
this reliance on contractors?
    Answer. Coast Guard acquisition is accomplished by Coast Guard 
personnel (civilian and military), Other Government Agency (OGA) 
personnel, and support contractors. Acquisition support contractors 
(private contractors) provide assistance with non-inherently 
governmental work in the areas of project management, logistics, 
engineering, administration, and business analysis, when the nature of 
the task is best accomplished by support contractors (e.g., best value 
to the government, short duration needs).
    The Coast Guard continues to implement its strategic goal of 
assuming the Deepwater Program lead system integrator from Integrated 
Coast Guard System (ICGS). Using the framework provided by the 
Acquisition Directorate's Blueprint for Continuous Improvement, the 
fourth annual update to the Blueprint for Acquisition Reform, and the 
Acquisition Human Capital Strategic Plan 2009 as a guide, the Coast 
Guard will continue to focus on the professional development and 
certification of its acquisition workforce and technical authorities. 
As the expertise of the workforce grows and the transition to Deepwater 
Program lead system integrator is completed, the Service's reliance on 
support contractors will decrease. As the transition continues and ICGS 
involvement is reduced, the number of Coast Guard managed resources 
will increase as the Coast Guard takes over greater responsibility.

    Question 9. According to GAO, the Coast Guard did not meet its 
stated goal of complete adherence to the management process contained 
in its Major Systems Acquisition Manual (MSAM) by the 2nd Quarter of 
FY2009. What steps have been taken to expand the application of this 
process to all Deepwater assets?
    Answer. All Coast Guard major acquisition projects, including 
Deepwater projects, are required to be ``MSAM compliant'' prior to 
their next scheduled Acquisition Decision Event (ADE). ADEs are 
milestone-driven and act as project management control gates that 
cannot be passed until all plans and documents are completed and 
required exit criteria have been satisfied. The Coast Guard continues 
to monitor the initial schedule for completing required plans and 
documents for 19 acquisitions. The planned dates for document/plan 
approval of several projects are beyond the second quarter of Fiscal 
Year 2009, but prior to their next ADE. Progress toward completing 
required plans and documents are tracked and reported quarterly.

    Question 10. Evaluation of the Coast Guard's experience with 
Deepwater can provide valuable lessons for the future. How is the Coast 
Guard measuring its progress in addressing acquisition reforms? What 
metrics is the Coast Guard using to determine what changes are needed, 
and to ensure that success is achieved?
    Answer. The Coast Guard uses the Blueprint for Continuous 
Improvement, Version 4.0, formerly known as the Blueprint for 
Acquisition Reform, to measure its progress in addressing acquisition 
improvement. The Blueprint for Continuous Improvement, the Coast 
Guard's multi-year strategic plan outlining the vision of the 
acquisition enterprise for the future, explains how the Coast Guard 
will accomplish continuous improvement and provides measurable outcomes 
for evaluating the organization's progress toward meeting its annual 
goals.
    The Coast Guard uses many sources of information to monitor 
organizational health and identify areas needing change or improvement. 
These sources form a framework of metrics and reports which support the 
acquisition enterprise. The Blueprint's action plan is a culmination of 
input from many sources and includes action items in the areas of 
organizational alignment and leadership, policies and processes, human 
capital and information management and stewardship, measurable 
outcomes, lead points of contact (POCs), and planned completion dates. 
The action items are tracked and completion of items is thoroughly 
documented. The Assistant Commandant for Acquisition is briefed at 
least quarterly on the implementation status of the actions and 
Blueprint completion metrics are included in multiple reports. Metrics 
to gauge progress and overall effect on acquisition program 
effectiveness are measured by the implementation of this action plan. 
The Blueprint sets the stage for more in-depth planning to address key 
organizational issues. As part of each annual Blueprint update, the 
Coast Guard considers the following resources as appropriate to gauge 
its progress and make improvements to its Acquisition Directorate.

        DOD and Other Federal Agencies Best Practices

        Best practices are the most efficient and effective way of 
        accomplishing a task, based on repeatable procedures that have 
        proven themselves over time for similar efforts. Because DOD 
        and other Federal agencies have also been acquiring goods and 
        services for many years, the Coast Guard looks to its 
        government partners for lessons learned and best practices to 
        adopt and implement in its acquisition organization, as 
        appropriate.

        Government Accountability Office (GAO) and DHS Office of the 
        Inspector General (OIG) Findings and Recommendations

        These organizations provide the public with an accurate, fair, 
        and balanced picture of government today. The GAO is an 
        independent investigative and audit agency. The DHS OIG 
        conducts and supervises audits, investigations, and inspections 
        relating to the Department's operations and programs, including 
        those of the Coast Guard's Acquisition Directorate, to ensure 
        these are carried out in the most effective, efficient, and 
        economical manner possible. The GAO and OIG report on programs 
        and policies that are working well and acknowledge progress and 
        improvements. The Coast Guard reviews findings and 
        recommendations from the GAO and OIG and incorporates those 
        conclusions into our business practices, where appropriate.

        Surveys, Analyses, and Assessments

        The Coast Guard relies on many different surveys, analyses, and 
        assessments to gauge its organizational health. For example, 
        the Coast Guard uses the Federal Managers Financial Integrity 
        Act (FMFIA) internal controls assessment as a means to measure 
        the compliance, effectiveness and efficiency of its business 
        operations and processes. Other examples include the annual DHS 
        Acquisition Organization Self-Assessment, Internal Controls Gap 
        Analysis, Workforce and Customer Satisfaction Surveys and a 
        Lessons Learned Data base.

    These sources are also mechanisms for measuring the success of the 
strategic plan. As Blueprint actions are implemented and completed, 
annual assessment scores, survey responses and gap analyses will 
improve, and GAO/IG feedback should progress. Over time, trend analysis 
will be conducted to determine how the Acquisition Directorate is 
meeting its objectives based on annual survey, analyses, and assessment 
results.
    The Coast Guard updates the Blueprint for Continuous Improvement 
annually. The result is a robust and constantly evolving document that 
codifies a process of continuous functional improvement at every level 
of the organization over a rolling 2 year period.
    After 2 years of the acquisition reform, the objective of the 
updated Blueprint for Continuous Improvement is to institutionalize 
organizational and business process changes to ensure the Acquisition 
Directorate continues to deliver the assets meeting the requirements of 
Coast Guard in the 21st century at the best value to the public.
    As the Coast Guard maintains acquisition continuous improvement 
efforts, the gaps, lessons learned, audit findings, and assessment 
scores will improve, resulting in clear measures of success in the 
implementation of the Blueprint.
    To date, the progress of the Blueprint action items is as follows:

        2007 Original Action Items = 102

        2008 New Actions Added = 61

        2009 New Actions Added = 52

        Total Actions included in the action plan= 215

    To date, 131 actions have been completed.

    Question 11. The Coast Guard has cited the need for Airborne Use of 
Force on all helicopters at a cost of over $90 million. In developing 
its requirement that all Coast Guard helicopters be armed or capable of 
being armed the Coast Guard stated that the requirement was based on 
the National Capital Region Air Defense (NCRAD) mission. However, the 
NCRAD mission is only seven helicopters as far as I am aware. How did 
the Coast Guard determine that all its helicopters fall within the 
scope of this requirement?
    Answer. The Department of Homeland Security's (DHS) mission 
requires the Coast Guard to protect the Nation from dangerous people 
and goods, protect critical infrastructure, and strengthen emergency 
response and preparedness. Coast Guard aviation assets help achieve 
those goals by prosecuting missions such as Ports, Waterways, and 
Coastal Security (PWCS), Drug and Migrant interdiction by employing 
Aviation Special Missions (ASM) capabilities onboard its rotary wing 
aircraft. ASM currently contains six subsets of capability. Airborne 
Use of Force (AUF) is just one subset of ASM. Rotary Wing Air Intercept 
(RWAI) is another of the subsets and is the ASM function provided in 
the NCRAD mission. As part of the operational requirements for ASM and 
all its subsets of capability, HH-65C & HH-60J (HH designates a Search 
and Rescue Helicopter) aircraft received fundamental upgrades to 
communications, navigation, sensors, and associated hardware inherently 
required to perform (or be capable of performing) ASMs, commonly 
referred to as Kit ``A'' modifications. Kit ``B'' modifications include 
the weapons and mounts and are only being deployed to eight 
strategically located air stations.
    The Kit ``A'' modifications resulted in a designation change to the 
MH-65C and the MH-60J/T (MH designates a Multi-Mission Helicopter). 
Additionally, the Kit ``A'' upgrades require less life-cycle cost if 
the aircraft line is standardized. Creation or sustainment of more than 
one type of aircraft for each helicopter model carries the associated 
requirements to establish production lines for each type--at 
significant cost. Standardized aircraft also leads to efficiencies in 
logistics, training, maintenance personnel and aircrew. The result of 
this standardization leads to an economy of scale that allows the Coast 
Guard to be highly responsive for all CG missions.

    Question 12. Two of the Coast Guard's three polar icebreakers are 
more than 30 years old, and in 2008 the Coast Guard estimated that it 
could cost between $800 million to $925 million dollars per ship to 
procure new replacement ships. Given the projected budget constraints, 
how is the Coast Guard balancing an increased demand for resources in 
the arctic region against competing priorities?
    Answer. In order to fully assess Coast Guard mission requirements 
in the Polar Regions, comprehensive mission analyses are required. A 
High-Latitude Arctic Mission Analysis Report is ongoing and expected to 
be delivered by the contractor in June 2010. However, in the interim, 
the Coast Guard has temporarily shifted assets to the Arctic for short 
periods in the summer to study cold weather impacts on equipment and 
assess the emerging changes in regional activity.

    Question 13. Given that we only own three icebreakers, only two of 
which are currently operational, while Russia and Canada own 
approximately 20 and 13 respectively, how can we successfully compete 
with them in asserting and maintaining our national sovereignty in the 
Arctic?
    Answer. Nearly all of the icebreakers reflected in these numbers 
are used for commercial/industrial purposes and none is operated by the 
uniformed military of these countries. Like the U.S., these countries 
do not depend on icebreakers to project national sovereignty, but may 
use icebreakers to support scientific research and for mapping 
activities in support of future extended continental shelf claims. The 
icebreakers HEALY and POLAR SEA, operated by Coast Guard, meet the U.S. 
needs for support of those missions.

    Question 14. GAO and the National Academy of Public Administration 
have expressed concerns that the Coast Guard has not yet put in place 
performance measures to apply to the Coast Guard's Modernization 
program. What steps have been taken to monitor the progress of the 
Modernization effort and adopt performance metrics to measure its 
success? Were these measures developed as a part of the Coast Guard's 
decision to reorganize?
    Answer. Coast Guard modernization is the collective result of 
numerous organizational studies, initiatives, and decisions that date 
as far back as the 1980s. We are in the process of developing a 
comprehensive business case document that links modernization related 
organizational decisions, goals, and objectives to organizational 
performance indicators and metrics.
    The National Academy of Public Administration (NAPA) validated the 
objectives of our current modernization. We are monitoring 
implementation of our modernization through a comprehensive plan of 
action and milestones. Government Accountability Office letter report 
GAO-09-530R validated our use of action-oriented goals with associated 
timelines and milestones.
    The programmatic performance measures contained in the U.S. Coast 
Guard Posture Statement will not change as a result of modernization. 
These high level performance measures will serve as the quantitative 
foundation to ensure that modernization does not adversely impact the 
delivery of vital services to the American public. Ideally, increases 
in mission performance brought about by Coast Guard modernization will 
be reflected in these high level lagging indicators.
    As previously stated, we are in the process of developing a 
comprehensive business case document that will identify organizational 
performance indicators and metrics related to the performance of 
internal activities and support outputs. When applicable, we will use 
metrics that currently reside in our Coast Guard Business Intelligence 
(CGBI) system, which currently contains over 1000 metrics, to monitor 
and evaluate organizational performance. Identified metrics that 
currently reside in CGBI will be implemented as soon as possible; the 
timeline associated with implementation of new metrics will vary 
depending on required data collection and reporting systems.

    Question 15. The Coast Guard has a backlog exceeding $1 billion in 
unmet repair needs related to its aging shore facilities, including its 
personnel housing, air stations, sector offices, small boat stations, 
and at the Coast Guard Academy. What efforts has the Coast Guard 
undertaken to ensure that all Coast Guard personnel work in a safe and 
modern facility?
    Answer. The actual shore backlog is best represented by the list of 
projects where requirements are sufficiently defined through 
engineering studies to produce valid cost estimates. The estimated 
funding requirement for those projects is $282 million.

    Question 16. The Coast Guard and outside observers have noted 
problems with personnel shortages in areas such as marine safety and 
acquisitions. Congress has appropriated funds for additional personnel 
in recent years, and the Coast Guard has requested more funding for 
personnel in FY2010. What challenges, if any, has the Coast Guard 
encountered with filling new marine safety and/or acquisitions 
positions over the past few years, and how have these challenges been 
addressed?
    Answer. The Coast Guard continues to work aggressively to complete 
hiring actions on the marine safety and contracting specialist fields. 
The Coast Guard faces several recruitment challenges when recruiting 
for highly qualified individuals for both marine safety and contracting 
specialist positions. To overcome some of these challenges, a variety 
of human resource tools are employed in the execution of hiring 
actions. The Coast Guard uses superior qualification appointments to 
match the existing pay or competing offers for new Federal employees in 
these occupations. Payment of permanent change of station (PCS) costs 
and credit for prior nonFederal experience for placement at a higher 
annual leave accrual rate are additional recruitment incentives. 
Recruitment bonuses of up to 25 percent of the employee's salary are 
used to entice new individuals to seek Federal employment in these 
occupations. For example, the Coast Guard approved a group recruitment 
bonus for highly sought after new graduates from maritime academies to 
fill entry/developmental marine safety positions. In addition to using 
superior qualification appointments, enhanced leave accrual, payment of 
PCS, and recruitment bonuses as incentives, the Department of Homeland 
Security (DHS) has approved special provisions including a direct hire 
authority for contracting specialist positions at select geographic 
locations and the reemployment of contracting annuitants hired without 
an offset to their pay or annuity. The Coast Guard developed a pilot 
referral bonus program which authorizes $1000 to current employees for 
each candidate referred and hired as a contract specialist.

    Question 17. The Coast Guard chartered a study by retired Vice 
Admiral Card to review the standing of the Coast Guard in the maritime 
industry. To what extent is the Coast Guard rotational policy one 
source of concern regarding standing with the maritime industry?
    Answer. Vice Admiral Card's analysis of the Coast Guard's Marine 
Safety program concluded the maritime industry was concerned with the 
lack of experience and qualification level of marine inspectors for 
several reasons including rotation of Coast Guard personnel. In recent 
years, a tremendous expansion of maritime commerce and a growing and 
increasingly complex industry continued to expand demands on the Coast 
Guard to possess the workforce and expertise necessary to develop and 
enforce regulations and standards. Those demands significantly outpaced 
capacity. As a result of a comprehensive Marine Safety program review, 
the Coast Guard established a roadmap to improve the effectiveness, 
consistency, and responsiveness of the program to promote safe, secure, 
and environmentally sound marine transportation.
    The Coast Guard Marine Safety Performance Plan released in 2008 
established goals for the Marine Safety program. A key aspect of the 
plan includes the superior workforce performance initiative which 
addresses the competency, continuity, and capacity concerns voiced by 
the maritime industry. The Coast Guard has initiated steps to stabilize 
the marine inspection and marine safety workforce through the increased 
use of civilian inspectors. The FY09 appropriation provided for 310 new 
inspector and investigator billets which includes 108 civilians. The 
civilian and military mix provides balance between geographic stability 
afforded by civilians and the global perspective provided by military 
personnel. Civilians will form a solid baseline of workforce knowledge 
and experience in each port. In addition, they will provide an 
experience base from which to sustain the training of new personnel, 
whether military or civilian. Simultaneously, the Coast Guard is 
strengthening the career track for marine inspection and marine safety 
professionals within the military ranks that is complimented by the 
rotational assignment system. These efforts have already commenced and 
will take time to fully mature. The transfer of career specialists 
between ports is a productive and essential tool that spreads knowledge 
and fosters innovation, provided that it is well managed in the context 
of a focused career path that enhances professional development.

    Question 18. Much of what the Coast Guard does in it various 
statutory missions involves highly specialized work. For example, 
facility and vessel oversight requires considerable depth of knowledge, 
training, and experience. Has the Coast Guard ever considered changing 
the rotation length for its military personnel, or perhaps increasing 
the mix of civilians, to improve continuity in areas such as these? 
Would hiring more civilian personnel increase Coast Guard local and 
safety inspection expertise without necessitating a change in the 
rotational policy?
    Answer. The Coast Guard strives to maintain a diverse, well rounded 
workforce as well as preserve the skills of those who serve in 
positions that require highly specialized skills such as facility and 
vessel oversight. Additionally, individual program managers work 
closely with the Coast Guard Personnel Service Center (Officer and 
Enlisted branches) to address needed policy changes to best carry out 
all statutory missions to include facility and vessel oversight within 
the Marine Safety mission area.
    The Coast Guard Marine Safety Improvement Plan is an example of how 
the Coast Guard adjusts plans in order to meet mission demands and 
performance goals. The 2006 comprehensive analysis on domestic vessel 
inspection and foreign vessel examination workload, concluded that a 
more experienced civilian inspection cadre will add stability and 
knowledge of complex maritime systems to Coast Guard Sectors and Sector 
management. Civilian personnel hired under the Marine Safety 
Performance plan will help preserve continuity using a baseline of 
experience through geographic stability. This initiative will not 
impact the rotational policy for military personnel, in fact the 
rotational assignment system is and continues to be knowledge enhancing 
for military personnel by exposing marine inspectors and marine safety 
specialists to a wider variety of maritime industry segments and 
diverse geographic areas.
    Additionally, both military and civilian personnel staff recently 
established National Centers of Expertise. These centers are national 
assets designed to facilitate active dialogue and outreach with 
industry, develop specialty knowledge of specific elements of the 
marine industry and to serve as the basis for executing inspections of 
such vessels and broaden the experience of the workforce.

    Question 19. In June 2008, the Explanatory Statement accompanying 
the Department of Homeland Security's Fiscal Year 2009 appropriations 
directed the Coast Guard to create a workforce plan using guidance set 
out in Senate Report 110-398. Please describe when and how this plan 
will be implemented. How will it impact the current Coast Guard 
processes for assessing resource needs and allocating personnel?
    Answer. The Coast Guard allocates resources to achieve strategic 
priorities and best management risk within the maritime domain. The 
workforce action plan will help identify personnel requirements 
necessary to achieve these priorities and reduce risk. The plan will 
help support future budget requests and internal resource management.

    Question 20. As part of the Coast Guard's overall Modernization 
effort, the Force Readiness Command (FORCECOM) was stood-up to its 
initial operating capability on June 1, 2009. What role, if any, will 
FORCECOM play in helping assess overall Coast Guard workforce needs and 
allocations?
    Answer. In a modernized Coast Guard, FORCECOM (FC) will provide 
ready forces, Active, Reserve, Auxiliary, Civilian, and Contractor, to 
the supported commander. Specifically,

  <bullet> The Performance and Doctrine Division (FC-5) will train 
        forces to doctrinal guidance, tactics, techniques, and 
        procedures.

  <bullet> The Capability, Standardization, and Analysis Division (FC-
        7) will assess and document force readiness.

  <bullet> The Force Management and Allocation Division (FC-3) will 
        allocate assets with adaptive force packaging.

    At Final Operating Capability (FOC), FC-3 will be the single source 
provider of ready forces, balancing mission workload for the optimal 
utilization of Coast Guard resources.
    Based on operational commander and program manager input, the 
Deputy Commandant for Mission Support (DCMS) will be responsible for 
allocating the workforce (in quantity and mix of civilian and 
military). The Force Readiness Command (FC) will be the primary agent 
responsible for evaluating the performance requirements, gaps and 
providing the correct interventions.
    In a modernized Coast Guard, DCMS will coordinate with the Deputy 
Commandant for Operations Policy (DCO) to determine training needs and 
requirements to support operational policy and the Operational 
Commander. Once these training needs and requirements have been 
established, DCO and DCMS will work concurrently with FORCECOM to meet 
these requirements through the development and implementation of 
training programs, workforce adjustments, and infrastructure needs.

    Question 21. The Coast Guard has said that the catalyst for 
creating the new Deployable Operations Group (DOG) was the lessons 
learned from Hurricane Katrina. Yet most observers view the Coast 
Guard's response to Hurricane Katrina as laudatory. What specific 
problems or weaknesses in the management or effectiveness of 
specialized deployable forces does the DOG reorganization address? Were 
these problems or weaknesses, and the proposed solutions to these 
problems weaknesses, thoroughly analyzed before the reorganization? How 
will you measure the success of the deployable forces reorganization?
    Answer. In the aftermath of Hurricane Katrina, the service took 
away a number of important lessons. Key lessons that led to the 
creation of the Deployable Operations Group (DOG):

  <bullet> During Hurricane Katrina, emergency managers on the ground 
        found it difficult to request deployable forces from the Coast 
        Guard. The process for requesting forces was complicated by the 
        fact that deployable units resided under various commands 
        (area, district and sector) instead of under a single, unified 
        command. Requesting forces to aid in disaster response to 
        Katrina meant contacting multiple points of access rather than 
        a single point of service.

  <bullet> Once units deployed to the Gulf Coast, differences in 
        tactics, techniques and procedures between the various units 
        became apparent. Units of the same type were trained 
        differently due to the multiple chains of command.

  <bullet> Finally, emergency managers found that the forces deployed 
        to Hurricane Katrina did not optimally match the nature of the 
        disaster. While members of a unit came to the disaster as a 
        homogeneous team, emergency managers needed teams comprised of 
        more than one skill set. It was often not enough for a single 
        capability to dominate response to the disaster. Rather, the 
        necessary capabilities were often a blend of those offered by 
        the NSF, MSSTs and other deployable units.

    Responding to these observed issues, the Coast Guard formed the DOG 
Design and Plan Team (DPT) in 2006. The team thoroughly analyzed the 
lessons coming out of Hurricane Katrina, proposed the goals of a new 
group formed to organize deployable specialized forces (DSF) and 
recommended the proper organizational structure to accomplish those 
goals. The DPT final report in the summer of 2006 was approved leading 
to the stand-up of the DOG in July 2007.
    The DOG is an independent command and a single source from which 
tactical commanders request and receive deployable specialized forces. 
The DOG responsibilities ensure the deployable specialized forces are 
properly organized, equipped and trained, and then efficiently 
synchronized to deliver adaptive force packages to Coast Guard, DHS, 
DOD, EPA and interagency operational and tactical commanders to meet 
specific requirements. The DOG maximizes and sustains mission execution 
by enhancing interoperability and standardization among the Coast 
Guard's 27 Deployable Specialized Forces. The DOG's organization of 
deployable specialized forces under a single, unified command has 
already succeeded by establishing a single request for forces process, 
enhancing inherent unit capabilities, standardizing operations, 
creating adaptive force packages, and sharpening the Nation's tool kit 
for disaster and threat response.

    Question 22. In its budget proposal for FY2009, the Coast Guard 
noted that it was not going to ask for additional funding to establish 
the DOG. In the past, the Coast Guard's ``budget neutral'' 
reorganizations later faced implementation challenges in staffing, 
funding or associated capital costs. How will this reorganization be 
different?
    Answer. The Deployable Operations Group (DOG), both conceptually 
and in practice, is an organization that exists for the purpose of 
generating efficiencies in the management and deployment of Coast Guard 
forces. Embracing good stewardship and organizational governance, the 
DOG provides efficiencies for cohesive management and employment of the 
Deployable, Specialized Forces (DSFs) across the doctrine, 
organization, training, material, leadership, personnel, and facilities 
spectrum. By consolidating the DSFs under a single command, the DOG 
yields efficiencies in the areas of operational planning and support, 
operational safety, training support, and logistical support and 
advocacy. The DOG aggressively works within existing resources to 
source to strategy.
    The DOG was officially created in July 2007. In the 2-years since 
standing up, the DOG has grown into a well-functioning organization 
while remaining budget neutral.

    Question 23. The Coast Guard set a July 2007 deadline for 
establishing initial DOG operating capacity. Now that we are 2 years 
beyond that date, has the DOG been fully successful? If not, what 
additional efforts and resources are needed?
    Answer. The Deployable Operations Group (DOG) was established in 
July 2007 following approval of the final report of the DOG Design and 
Plan Team (DPT). Charged with the primary responsibilities of force 
manager, force provider and force integrator, the DOG DPT laid out a 
four phase plan that would allow the DOG to transition from a phase one 
initial operating capability (IOC) to phase four where it would be 
performing force management and provider responsibilities across the 
Interagency. On July 20, 2007, the DOG attained IOC and the staff 
quickly coordinated the activities of 27 Deployable, Specialized Forces 
(DSF), and has made significant improvements in the allocation of 
forces, mission support, readiness, safety, sustainability, and force 
planning.
    The DOG is preserving and strengthening its core competencies, 
while internally redirecting resources along prioritized lines to 
fulfill the DOG mission statement, maintain essential capabilities, and 
advanced the future vision for the DOG. To meet these core 
capabilities, as force manager DOG will continue to develop tactics, 
techniques and procedures (TTP), define and implement force 
standardization, conduct exercises with operational commanders and 
provide ready for operations assessment and oversight of the DSFs. As 
force provider DOG will continue to synchronize forces and deploy 
adaptive force packages, and optimize DSF schedules to ensure fully 
equipped and trained forces are deployed to meet operational commander 
requirements. As force integrator DOG will continue to coordinate 
activities and develop joint TTP and force standardization across the 
interagency.

    Question 24. Under an agreement signed in July, 2008, by the Coast 
Guard, Navy, and Special Operations Command, Coast Guardsmen in the DOG 
are now training and will integrate with an operational Navy SEAL team 
for several years, after which they will return to the Coast Guard. 
What are the anticipated benefits for the Coast Guard of this 
cooperative arrangement?
    Answer. Through participation in the Naval Special Warfare program, 
the Coast Guard will enhance existing partnerships with the Navy and 
United States Special Operations Command (SOCOM), as well as acquire 
advanced capabilities and proficiencies to help further its law 
enforcement, counter-terrorism, anti-terrorism, national defense, and 
homeland security programs. By allowing a Coast Guardsman to train to 
become a SEAL and operate for an extended time with the SEAL teams, the 
Coast Guard gains the specialized skill sets and experience to further 
develop its own counter-terrorism programs. The Naval Special Warfare 
program provides dividends to the Coast Guard, the Navy, and SOCOM by 
improving interoperability and shared tactics, techniques and 
procedures.

    Question 25. To carry out the security boardings of high interest 
vessels, some field units rely on the Maritime Safety and Security 
Teams (MSSTs) and their related assets. However, these teams and their 
assets may become unavailable to do this if they must be deployed to 
respond to a natural disaster or national security threat requiring 
them to conduct other, higher priority security activities. Under such 
circumstances, to what extent will these Coast Guard units be able to 
conduct security boardings? What is the Coast Guard's plan to ensure 
that those field units can carry out their required boardings in such 
instances, or otherwise mitigate the potential risks associated with 
not doing so?
    Answer. The MSSTs primary mission is to provide waterborne and 
shore side antiterrorism force protection for strategic shipping, high 
interest vessels and critical infrastructure. MSSTs are mobile via 
land, sea, and air transportation to enhance security in our Nation's 
maritime domain. They are a response force capable of rapid, nationwide 
deployment in response to changing threat conditions and evolving 
Maritime Homeland Security missions. While MSSTs are located 
strategically at the Nation's key ports, their responsibility extends 
across the entire country and, potentially, around the world. 
Operational priorities of these finite assets are through organic risk 
management, force apportionment and prioritization processes as 
determined by the operational commander.
    Deployable specialized forces are only one part of the Coast 
Guard's operational trident. In addition to deployable specialized 
forces such as MSSTs, the Coast Guard also employs maritime patrol 
forces and shore-based forces. These three force types comprise the 
Coast Guard's operational trident and provide the means to effectively 
meet maritime domain security requirements. This concept of layered 
defense enables the Coast Guard to access our entire portfolio of 
assets and capabilities in support of the operational commander and 
prioritize deployments using risk management practices and principles. 
Shore based forces routinely conduct security boardings and are 
supplemented by MSST forces. Should MSST forces be called to higher 
priority missions, shore based forces would continue to conduct 
security boardings. The number and frequency of boardings may be 
impacted depending on the length of MSST deployments.

    Question 26. The Coast Guard, through its International Port 
Security Program, has completed several rounds of visits to foreign 
countries to make sure that they meet established port security 
standards. What standards does the Coast Guard use to make these 
assessments? How do these standards compare to those used in 
assessments of domestic U.S. ports?
    Answer. The International Port Security (IPS) Program uses a 
country's implementation of the mandatory provisions of the 
International Ship and Port Facility Security (ISPS) Code as the 
primary international standard. While the ISPS Code is performance 
based and not prescriptive, the IPS Program has determined that there 
must be, at a minimum, verified measures in place to prevent 
unauthorized personnel and material from gaining access to a vessel 
from a facility in a port, and to ensure that cargo and ships stores at 
that facility are monitored and protected from unauthorized tampering.
    These standards are similar to what is required in U.S. ports. The 
Maritime Transportation Security Act regulations for U.S. port 
facilities included and went beyond the ISPS Code. The level of detail, 
specificity and oversight is generally greater in U.S. ports. The ISPS 
Code is a two part document describing minimum requirements for 
security of ships and ports. Part A provides mandatory requirements for 
contracting governments and Part B provides recommended guidelines for 
implementation. In the U.S., the Coast Guard mandated most Part B 
provisions.

    Question 27. Every 2 to 3 years the Coast Guard must inspect 
facilities in approximately 150 countries participating in the 
International Port Security Program. How does the Coast Guard determine 
which ports and facilities it should assess in each country?
    Answer. The Coast Guard conducted a risk analysis of the countries 
from which vessels transit to the U.S. Based on this analysis, a 
representative port or series of ports are chosen. In general, more 
ports or facilities are visited in higher risk countries. As 
applicable, a combination of large, medium and small ports are selected 
to ensure a representative and cross sectional sample of ports with 
diverse operations and differing security requirements are visited. 
Priority is given to those ports or facilities shipping cargo to the 
United States. Included in the selection are specific facilities, 
including private sector facilities and general cargo facilities not 
currently but with the capacity to engage in shipping to the United 
States.

    Question 28. Does the Coast Guard have the necessary resources to 
carry out these inspections?
    Answer. The Coast Guard does have the resources to carry out these 
assessments.

    Question 29. My understanding is that most modern communications 
systems, such as cell phones, standard telecommunications equipment, 
and secure communications rely on GPS timing, and that a loss of GPS 
timing would significantly degrade, if not completely disable, these 
systems. How would the loss of these systems impact the Coast Guard's 
ability to respond in time of crisis--particularly in the case of a 
large-scale response like Hurricane Katrina?
    Answer. The Coast Guard's primary communications capability relies 
greatly on protected and secure short and long range radio 
communications. Most of these systems do not require timing information 
from GPS to operate. Coast Guard facilities, including command centers, 
have radio capability but do utilize terrestrial and cellular phone 
systems and other commercial networks in their day to day operations. 
In the event these commercial systems fail due to a GPS outage, or are 
destroyed, the Coast Guard has staged deployable communications 
capabilities that can re-connect operational communication channels. 
During events where complete infrastructure is destroyed, such as 
during hurricane Katrina, the Coast Guard's deployable Mobile Command 
Center and Rescue 21 disaster recovery capability, along with its 
Cutters, boats, and planes may be quickly mobilized to respond.

    Question 30. Economic realities dictate that most large commercial 
ships come into port with fewer than five people on the bridge, 
including the pilot. How safe an assumption is it that a crew of 
limited size like this could safely enter or leave port without GPS, 
especially in reduced visibility conditions?
    Answer. Commercial ships operating in U.S. waters are sufficiently 
crewed, and commercial mariners should be sufficiently trained, to 
allow them to enter or leave any port in the United States without the 
aid of GPS in any condition of visibility in which they choose to 
operate. Although a reversion to more traditional and less frequently 
utilized methods of navigation would likely require some re-
familiarization and might result in slower transits, ships' officers 
and pilots should be capable of low visibility navigation using radar 
and other shipboard tools that are not dependent on GPS. Additionally, 
the value of the assistance of local Pilots trained and qualified in 
each major port could be leveraged in the event of a GPS outage.

    Question 31. It has been stated in the past by Coast Guard officers 
that, in the event of a loss of GPS, shutting down the port would 
ensure safety. Given the tremendous negative economic impact of 
shutting down a major port, why would we not provide a backup Position, 
Navigation, and Timing service such as eLORAN--especially if the cost 
of shutting down one port for several hours greatly exceeds the cost of 
eLORAN?
    Answer. Shutting down a port or waterway is a drastic, infrequent 
measure taken in response to catastrophic events such as floods, 
hurricanes, earthquakes or major marine accidents. While shutting down 
the port would inarguably ensure safety, that action would be an 
overreaction to an event that is not generally considered catastrophic. 
In terms of port safety and security, loss of GPS would likely be 
considered more of an inconvenience than a catastrophe.

    Question 32. If the Administration determines that a new 
terrestrial navigation system is necessary as a back-up to GPS, is 
eLORAN the most readily available and deployable choice?
    Answer. If a determination is made for the necessity of a back-up 
to GPS, an Analysis of Alternatives would likely be performed to 
determine the optimal solution. It is important to note that eLORAN 
does not exist in the United States; if a decision is made to employ it 
as a terrestrial backup to GPS, implementation of eLORAN would require 
an investment estimated at $425M and a minimum of 5 years to develop 
and deploy.

    Question 33. Admiral Allen, as you indicated in your statements 
before the Subcommittee, the first National Security Cutter does not 
yet have a completed SCIF (Sensitive Compartmented Information 
Facility).
    Please provide a detailed timeline of:

        --when decisions were made to include a SCIF in the National 
        Security Cutter;

        --initiation and progress in the design and development of the 
        SCIF for the NSC; and

        --initiation and progress in the construction and other work to 
        actually build the SCIF on board the NSC BERTHOLF.

    Answer. The first formal decision point for shipboard Sensitive 
Compartmented Information Facility (SCIF) was June 11, 2003 when the 
Vice Commandant, acting as the Agency Acquisition Executive (AAE), 
approved adding additional space, weight, electrical and air 
conditioning considerations for SCIF in the design of the National 
Security Cutter (NSC). At this time, it was recognized the NSC would be 
delivered without the equipment installed in the SCIF.
    On November 2, 2004 the Vice Commandant, acting as the AAE, 
recognized that insufficient funding was available for the complete 
design, equipment and construction of SCIF in NSC-1 and that SCIF 
equipment installation would not be part of NSC-1 at delivery. As such, 
a phased approach was deemed most prudent and the program was 
authorized to expend $3 million for SCIF antennae and topside design.
    In November 2006, the Vice Commandant, acting as the AAE, directed 
the appropriate Coast Guard staffs to seek and identify funding for 
SCIF and directed that SCIF capability (including equipment procurement 
and installation) be provided as funding allowed and within the 
Deepwater Acquisition Program Baseline.
    The Coast Guard took a prudent, measured approach to incorporating 
SCIF aboard the NSC. Since this was a first for the Coast Guard (i.e., 
an integrated SCIF with equipment aboard a cutter) and because the 
funding was being identified and sought as decisions were being made, 
the prudent, measured approach was to incorporate SCIF in phases, first 
approving design for space, weight, electrical and air conditioning; 
then topside antennae analysis; and finally the full capability which 
was equipment installation. Besides funding and acquisition baseline 
considerations, the Coast Guard also used this developmental time to 
address concept of operations and manning requirements.
    The Engineering Change Proposal for the SCIF (full capability) was 
approved in October 2008.
    The Coast Guard has contracted with U.S. Navy Space and Naval 
Warfare Systems Command (SPAWAR) to design and install the electronic 
systems which will comprise the SCIF and this effort is ongoing.
    Since delivery, the following unclassified modifications have been 
made to NSC-1 to accommodate the SCIF equipment installation:

  <bullet> Conversion (but not outfitting) of a Chief Petty Officer 
        (CPO) Stateroom to the Transceiver Room.

  <bullet> Re-labeling of an existing Officer's Stateroom to a CPO 
        Stateroom.

  <bullet> Re-arrangement of antennas and other miscellaneous items on 
        top of the Pilot House to install new antenna foundations.

  <bullet> Installation of the Aft Extremely High Frequency (EHF) 
        Antenna barbette on top of the Hangar.

  <bullet> Heating, Ventilation and Air Conditioning (HVAC) minor 
        modifications in the SCIF, Message Processing Center (MPC), 
        Pilot House, Mission Module and CPO Stateroom.

  <bullet> Deletion of SCIF furniture outfitting.

    The SCIF is scheduled to be completed by the end of Post Shakedown 
Availability and remains on schedule.

    Question 34. Since preliminary acceptance of the National Security 
Cutter BERTHOLF, how much money has the Coast Guard spent on the SCIF 
for that ship? Who has been (and will be) doing this work, and under 
what contract arrangements?
    Answer. Since preliminary acceptance in May 2008, the Coast Guard 
has obligated $5.023 million related to the BERTHOLF SCIF.
    The Coast Guard has developed an agreement with U.S. Navy Space and 
Naval Warfare Systems Command (SPAWAR) to design and install the 
electronic systems which will complete the SCIF capability.

    Question 35. The Coast Guard has stated that much of the work to 
complete the SCIF will be done during Post Shakedown Availability. Was 
there ever a point when the Coast Guard planned to conduct and complete 
work on the SCIF prior to the PSA?
    Answer. Once the decision was made to include the shipboard 
Sensitive Compartmented Information Facility (SCIF) as a requirement, 
the goal was first to incorporate that capability after the delivery of 
the National Security Cutter (NSC). This was first recognized in 2003. 
In 2006 the completion of the SCIF related work was approved as three 
phases with completion scheduled by the end of Post Shakedown 
Availability (PSA).

    Question 36. Are we still on the original schedule for the SCIF, or 
were there ever plans to complete the SCIF earlier?
    Answer. Once the decision was made to include the shipboard 
Sensitive Compartmented Information Facility (SCIF) as a requirement, 
the goal was to have that capability incorporated by the end of Post 
Shakedown Availability (PSA), which is the last planned acquisition 
event for a ship construction project.

    Question 37. In your testimony before the subcommittee, you stated 
that that the original design of the NSC did not include a SCIF, and 
that once a SCIF was added to the design it was added as a ``space-in-
wait reservation'' within the ship. Since construction of the BERTHOLF 
began, has the current location of the SCIF always been (and was 
designed and built as) a space-in-waiting for the SCIF?
    Answer. Yes, The preliminary design of the National Security Cutter 
(NSC) as proposed by Integrated Coast Guard Systems (ICGS) did not 
include a shipboard Sensitive Compartmented Information Facility 
(SCIF). The SCIF was incorporated into the detailed design as a 
dedicated space. Since that time, the designed location for the SCIF 
has not changed, however, the following changes to the NSC general 
arrangements have been made to BERTHOLF to accommodate equipment 
associated with the SCIF:

  <bullet> Conversion of a Chief Petty Officer (CPO) Stateroom to the 
        Transceiver Room.

  <bullet> Re-labeling of an existing Officer's Stateroom to a CPO 
        Stateroom.

    Question 38. Was the current space for the SCIF at any point 
designated, designed, or built for any other uses or purposes?
    Answer. Once the shipboard Sensitive Compartmented Information 
Facility (SCIF) was incorporated into the NSC design, the space 
identified for the SCIF was not designated for any other purpose, with 
the following exception to accommodate equipment associated with the 
SCIF:

  <bullet> Conversion of a Chief Petty Officer (CPO) Stateroom to the 
        Transceiver Room.

  <bullet> Re-labeling of an existing Officer's Stateroom to a CPO 
        Stateroom.

    Question 39. You stated that the SCIF was not included in the 
original design of the National Security Cutter but was added after 9/
11. The post-9/11 addition of the SCIF was by no means unique, as many 
design changes and additions were made to the original design of the 
NSC after 9/11. While virtually all of those other changes were fully 
implemented into construction of the BERTHOLF, why was it decided to 
only designate a space-in-wait for the SCIF and not build or complete 
the SCIF until post-delivery? Was this decision made by the Coast Guard 
or ICGS?
    Answer. The first formal decision point for shipboard Sensitive 
Compartmented Information Facility (SCIF) was June 11, 2003 when the 
Vice Commandant, acting as the Agency Acquisition Executive (AAE), 
approved adding additional space, weight, electrical and air 
conditioning considerations for SCIF in the design of the National 
Security Cutter (NSC). At this time, it was recognized that NSC would 
be delivered without the equipment installed in the SCIF.
    This decision was made for a number of reasons. First, funding was 
not identified. Second, specific manning and operation concepts were 
dependent upon decisions tied to overall dynamic intelligence 
requirements.
    The decision to provide additional space, weight, electrical and 
air conditioning considerations for SCIF in the design of the NSC 
helped mitigate the risk associated with the future SCIF construction 
decision. The phased approach mitigated the risk because without these 
margins, it would have been very difficult and expensive to add a SCIF 
at a later date.
    The electronic components of SCIF were initially undetermined and 
costs were unknown. The most appropriate equipment for NSC SCIF was 
only determined after considerable consultation and collaboration with 
U.S. Navy Space and Naval Warfare Systems Command (SPAWAR).
    The decision to acquire SCIF capability in a phased approach and 
specifically to install SCIF equipment after delivery was a Coast Guard 
Agency Acquisition Executive (Vice Commandant) decision. This decision 
was made in 2003 more than 5 years before NSC-1 was delivered after 
careful consideration of numerous factors. It was a Coast Guard 
decision.

    Question 40. Please provide an anticipated timeline and cost 
estimate for remaining work for completion of the BERTHOLF SCIF.
    Answer. The Space and Naval Warfare Systems Center Atlantic 
provided the Coast Guard with an estimate of approximately $3.1million 
to complete the design and installation of the lead National Security 
Cutter (NSC) shipboard Sensitive Compartmented Information Facility 
(SCIF) equipment. This estimate does not include the cost of Government 
Furnished Equipment (GFE).
    The SCIF equipment is planned to be installed during BERTHOLF's 
Post-Shakedown Availability, which ends in February of 2010.

    Question 41. In testing and certifying TEMPEST for the USCGC 
BERTHOLF, were any waivers issued? If so, how many?
    Answer. There were no waivers granted.

    Question 42. My understanding is that the Parent Craft of the FRC-B 
being acquired by the Coast Guard is the Damen 4708. The Coast Guard 
did visit and test the Damen 4207 series vessel operated in Jamaica. 
The Damen 4207, however, is 13 feet shorter and 90 tons (28 percent) 
lighter than the FRC-B's Parent Craft, the Damen 4708. Isn't it true 
that the Coast Guard has visited the Damen 4207, but has not visited, 
toured, ridden, or tested the Damen 4708?
    Answer. The Coast Guard has visited and toured the Damen 4207 and 
not the Damen 4708.

    Question 43. Why did the Coast Guard feel that it was not necessary 
to visit or test the FRC-B Parent Craft Damen 4708, which is in 
operation as an environmental patrol boat in South Africa?
    Answer. The Coast Guard has not precluded a visit to the Damen 4708 
in South Africa and is in the process of assessing such a visit.

    Question 44. Will the Coast Guard exercise options to procure 
additional FRC-B vessels prior to the critical design review?
    Answer. The Coast Guard will conduct the critical design review 
before any options are awarded.

    Question 45. Will the American Bureau of Shipping review of the 
FRC-B be included in the critical design review process?
    Answer. Yes. The FRC-B contract requires the Critical Design Review 
to include a favorable contract design evaluation from ABS indicating 
no technical issues stand in the way of compliance with the ABS High 
Speed Naval Craft Guide.

    Question 46. Where did the FRC-B requirements come from? It was 
stated by the GAO that the USCG, among other concessions, ``lowered the 
minimum requirement for sprint speed from 30 knots for the FRC-A to 28 
for the FRC-B . . . [to] ensure more competition on the open market.'' 
This does not seem like a fleet-driven requirement or acquisition.
    Answer. The Coast Guard's Operational, Acquisition and Engineering 
Directorates developed the FRC-B's (Sentinel Patrol Boat) requirements 
including a flank speed of 28-knots. These requirements were approved 
by the Coast Guard's Agency Acquisition Executive (AAE) on November 3, 
2006. The 28-knot flank speed requirement was based on mission subject 
matter expertise and current cutter boat capabilities. This flank speed 
requirement balanced cost, the state of the market and most importantly 
the ability to deliver a mission capable patrol boat.

    Question 47. Since the FRC-B is replacing the 110, ISLAND-class and 
the two ships have different lengths and drafts, are there logistical 
concerns or cost figures associated with deploying the larger FRC-B to 
the same docks and harbors?
    Answer. A homeporting plan for all FRCs has not been finalized. 
Potential homeports are being evaluated based on the FRC design and 
shore facility requirements. In all cases, cost, maintenance, support, 
facilities, environmental and other factors will be evaluated prior to 
finalizing selections.
    Based on preliminary decisions to homeport the first six FRCs in 
Miami, FL and the second six FRCs in Key West, FL, cost estimates to 
prepare these homeports are approximately $2M per cutter which includes 
pier modifications, dredging, and shore-side facilities.

    Question 48. How much more fuel is the Coast Guard going to require 
to operate 34-58 FRC-B vessels while also increasing patrol hours to 
meet annual patrol requirements? What will this cost for the full 
fleet?
    Answer. The Coast Guard will require between 1.8 million and 6.3 
million gallons of additional fuel to operate 34-58 FRC-B vessels. The 
additional cost for this fuel is between $5.7 million and $16.7 
million. The total estimated fuel cost for this fleet is between $15.5 
million and $26.5 million. As a result of energy market volatility and 
actual FRC-B burn rate figures, fuel estimates are subject to change.

    Question 49. How many FRC-B vessels would be required to completely 
eliminate the Coast Guard's patrol hour gap?
    Answer. The 2004 Integrated Deepwater System (IDS) mission needs 
statement (MNS) target patrol boat hours are 174,000. Based on this 
proxy measure for mission performance, the FRC acquisition plan 
currently calls for 58 hulls. Once assets performance is validated in 
the field through operational testing and evaluation (OT&E), the Coast 
Guard will reassess the total FRC need.

    Question 50. Please explain what work the Coast Guard expects to 
undertake and complete on the Offshore Patrol Cutter during Fiscal Year 
2010. Also, please provide a breakdown of how the Coast Guard's OPC 
budget request, if enacted, will be spent to conduct these activities.
    Answer. The following plan for the Offshore Patrol Cutter contains 
the activities the Coast Guard expects to undertake in Fiscal Year 2010 
along with a breakdown of how the $9.8 million (M) request would be 
executed.

------------------------------------------------------------------------
                        Description                             Amount
------------------------------------------------------------------------
Life Cycle Cost Estimating Support                              $400,000
------------------------------------------------------------------------
Program Management
  <bullet> Program Management Support
  <bullet> Travel                                             $3,051,000
  <bullet> Expenses
  <bullet> Technical Support
------------------------------------------------------------------------
Planning & Studies
  <bullet> Engineering
  <bullet> Trade
  <bullet> Home Port
  <bullet> Logistics Maintenance                              $4,589,000
  <bullet> Human Systems Integration
  <bullet> Launch and Recovery System
  <bullet> Operational Planning
  <bullet> Feasibility
  <bullet> Environmental Management and Training
------------------------------------------------------------------------
Request for Proposal (RFP) Preparation and Contracting        $1,250,000
Proposal Evaluation                                             $510,000
------------------------------------------------------------------------
Total                                                          9,800,000
------------------------------------------------------------------------


    Question 51. Please provide a detailed description of all instances 
over the last 2 years when the Coast Guard has deviated (even 
partially) from its Major Systems Acquisition Manual (MSAM). In these 
descriptions, please include who made the ultimate decision to waive or 
deviate from the MSAM, the date that decision was made, and the 
rationale for why the waiver or deviation was deemed necessary.
    Answer. The following list provides the details of when the Coast 
Guard deviated from its Major Systems Acquisition Manual (MSAM) over 
the last 2 years.
    Fast Response Cutter (FRC) Design and Production Contract Award: 
The project deviated from the MSAM by commencing FRC design, 
development, and production of lead ship (i.e., awarding FRC contract 
Sep 2008) without an Operational Requirements Document.
    Decision: Vice Commandant.
    Date: November 3, 2006 Decision Memo.
    Rationale: The Vice Commandant, as the Agency Acquisition Executive 
(AAE), authorized this waiver by approving the ``parent craft'' 
acquisition strategy to use a proven/in-service patrol boat design to 
satisfy the previously approved Top-Level Requirements. The primary 
purpose of this strategy was an expeditious acquisition of patrol boat 
capability to ameliorate the existing patrol boat operating hour 
shortfall.
    C130H SELEX Radar Production Contract Award: The project deviated 
from the MSAM by proceeding with production of the SELEX Radar (i.e., 
awarding the SELEX Radar contract September 2008) without an 
Acquisition Decision Event (ADE)-3 milestone approval.
    Decision: Director of Acquisition (with notification to the Vice 
Commandant).
    Date: March 13, 2008.
    Rationale: The Director of Acquisition, with Technical Authority 
and Sponsor endorsement, authorized the contracting officer to award 
the SELEX Radar contract to fill a critical and immediate operational 
need, as the existing APS-137 radars were obsolete, degrading rapidly 
(Mean Time Between Failure (MTBF) was down to 80 hrs) and experiencing 
severe part shortages resulting from series obsolescence.
    Command, Control, Communications, Computers, Intelligence, 
Surveillance and Reconnaissance (C4ISR) Increment 2 Contract Award: The 
project deviated from the MSAM by continuing C4ISR design and 
development (i.e., awarding the Increment 2 contract in February 2009) 
without an Operational Requirements Document.
    Decision: Project Manager executed the contract based on approved 
acquisition and expenditure plans under an acquisition program baseline 
(APB) not yet aligned with MSAM.
    Date: The Acquisition Plan was reviewed by DHS and approved by the 
Coast Guard Head of Contracting Activity (HCA) on January 29, 2009. The 
contract was awarded February 2009.
    Rationale: Increment 1 C4ISR capability was previously fielded 
under the Deepwater Integrated Coast Guard Systems (ICGS) contract. 
Increment 2 was awarded to ICGS to migrate the Increment 1 proprietary 
software to government rights so that the Coast Guard could position 
itself to transition the Systems Integrator function from ICGS to the 
Coast Guard. The Coast Guard intends to achieve full MSAM compliance 
before awarding any additional task orders for Increment 2 and before 
awarding any contract for Increment 3 C4ISR capability.
    FRC Early Operational Assessment (EOA): The project deviated from 
the MSAM by conducting an Early Operational Assessment (EOA) prior to 
approval of the Test and Evaluation Master Plan (TEMP).
    Decision: Director of Acquisition.
    Date: April 9, 2009.
    Rationale: Waiver was granted to allow the FRC project to conduct 
an EOA without an approved Test and Evaluation Master Plan (TEMP) 
recognizing the draft TEMP and EOA test plan were developed in 
sufficient detail to move forward, given the understanding the TEMP 
would be approved before starting Initial Operational Test and 
Evaluation.
    IDS Small Boats Capability Development Plan (CDP): The project 
deviated from MSAM by not developing CDP.
    Decision: Chief, Acquisition Support Office (CG-924).
    Date: July 20, 2009.
    Rationale: An MSAM waiver was granted based on existing project 
progress and the planned schedule to conduct an Acquisition Decision 
Event-2 (ADE-2) in the second quarter for Fiscal Year 2010. The project 
is positioned to enter the Obtain phase having completed the majority 
of the Analyze/Select phase events/activities that would have been in 
the CDP.
    IDS Small Boats Alternatives Analysis (AA): The project deviated 
from MSAM by not conducting an Alternatives Analysis.
    Decision: Chief, Acquisition Support Office (CG-924).
    Date: July 28, 2009.
    Rationale: An MSAM waiver was granted recognizing the preferred 
alternatives (7 and 11 meter cutter boats) had already been determined 
based on National Security Cutter (NSC) delivery and physical 
constraints. In addition, the Life Cycle Cost Estimate was under 
development for the preferred alternatives.

    Question 52. Please provide an update on the current status of the 
Coast Guard and Department of Justice lawsuit against Integrated Coast 
Guard Systems (ICGS) to recoup costs from the failed 110, cutter 
conversion.
    Answer. The Coast Guard continues to provide full support of the 
on-going joint DHS-IG/DOJ investigation.

    Question 53. As you know, in 2007, I held a hearing on the tragic 
deaths of two Coast Guard divers serving onboard the HEALY. This 
hearing exposed major flaws in the Coast Guard's dive program. What 
steps has the Coast Guard taken to reform and revamp the Coast Guard's 
dive program? How will these measures help ensure that such an accident 
never happens again in the future?
    Answer. Since the Coast Guard Cutter HEALY diving mishap in August 
of 2006 the Coast Guard Dive Program has undergone numerous changes. A 
summary of major changes include:

  <bullet> Five new positions have been added to dive program 
        management increasing program oversight.

  <bullet> The Coast Guard Diving Manual has been completely re-written 
        providing increased clarity of policy, guidelines for mandatory 
        use of Operational Risk Management (ORM) practices for planning 
        operations, and a comprehensive guide for required ice/cold 
        water diving practices.

  <bullet> Diving familiarization modules are provided to prospective 
        commanding officers of units with divers.

  <bullet> The minimum training level for divers has been elevated to 
        second class diver, increasing training time by 3 months.

  <bullet> Diving units in the continental U.S. have been consolidated 
        into two dive lockers with full time divers vice collateral 
        duty divers.

  <bullet> A specific cold water/ice diving training course has been 
        tested and implemented as a requirement for all divers 
        deploying aboard icebreakers.

  <bullet> Annual dive unit inspections include graded operational 
        dives to confirm the readiness of dive teams.

    The above changes provide a comprehensive improvement in safety, 
policy, training, oversight and awareness in the Coast Guard Dive 
Program that should mitigate the risk of a repeat incident. Coast Guard 
divers have an increased level of training, oversight and support that 
was not present before the HEALY mishap.

    Question 54. What is your assessment of TWIC implementation so far? 
What are some of the problems the Coast Guard has encountered in 
implementing TWIC, and how has the Coast Guard worked to address those 
difficulties?
    Answer. As of August 6th, 2009, the Department of Homeland Security 
(DHS) has issued over 1.3 million Transportation Worker Identification 
Credentials (TWIC). The TWIC program furthers DHS' multi-layered 
approach to safeguarding the Nation's ports and critical maritime 
infrastructure by ensuring only individuals with a satisfactorily 
completed a background check have unescorted access to secure areas. 
Working closely with port officials and the maritime industry, the 
Coast Guard and the Transportation Security Administration (TSA) have 
approached TWIC implementation with a steadfast commitment to 
protecting the maritime transportation system while facilitating 
commerce. Since implementation, there have been no major disruptions to 
commerce or port operations, and the Coast Guard has found that 
facilities and credentialed personnel are largely in compliance with 
TWIC requirements. Maritime industry and Coast Guard reporting at the 
outset of TWIC compliance indicated that 85-90 percent of individuals 
requiring unescorted access to secure areas were in possession of a 
TWIC. The Coast Guard continues to work closely with ports and 
facilities to ensure individuals who require access to secure access 
areas meet escort requirements.
    The Security and Accountability for Every (SAFE) Port Act of 2006 
requires DHS to conduct a card reader pilot program to test the 
business processes, technology, and operational impacts required to 
deploy transportation security card readers and to issue a final rule 
within 2 years of the commencement of the pilot program. The statute 
further requires the final TWIC card reader rule be consistent with the 
findings of the pilot program. TSA, utilizing technical assistance and 
grant administration assistance from the DHS Science and Technology 
Directorate (S&T) and the Federal Emergency Management Agency (FEMA), 
began the TWIC reader pilot program process in late 2007, and commenced 
testing card readers in August 2008.
    The Coast Guard, with assistance from TSA, is in the process of 
developing a rule to propose the use of biometric readers aboard 
regulated vessels and facilities. An Advanced Notice of Proposed 
Rulemaking (ANPRM) was published in the Federal Register on March 27, 
2009. The comments are being analyzed, and along with pilot data, will 
help to inform the Notice of Proposed Rulemaking (NPRM).
    TWIC implementation is a complex process. In the past several 
years, DHS personnel have laid the groundwork for TWIC implementation 
and compliance as one element to improve access control and 
identification standards within the existing Maritime Transportation 
Security Act (MTSA) framework. Although more work is ahead, the efforts 
to date have made a significant contribution to the security of the 
Nation's ports. We have accomplished important milestones, strengthened 
working relationships with public and industry stakeholders, and held 
an unwavering commitment to protecting the maritime transportation 
system while facilitating commerce.

    Question 55. When will the Coast Guard's Polar High Latitude Study 
be completed?
    Answer. The contractor preparing the Coast Guard's High Latitude 
Study is anticipated to deliver their final report in June 2010.

    Question 56. On January 12 of this year, the previous 
Administration issued a new U.S. Arctic policy, resulting from multi-
year policy review in which the Coast Guard participated. What is the 
status of this new Arctic policy under the Obama Administration?
    Answer. The current Administration reviewed National Security 
Presidential Directive-66/Homeland Security Presidential Directive -25 
(NSPD-66/HSPD-25) and did not seek to make any changes.

    Question 57. What are the implications for the U.S. Coast Guard?
    Answer. The Directive presents comprehensive national policies 
which recognize the changing environmental, economic, and geo-political 
conditions in the Arctic and re-affirms the United States' broad and 
fundamental interests in the region. NSPD-66/HSPD-25 offers a broad 
national Arctic region policy that will inform the Coast Guard's 
analysis of its current and future mission requirements in this 
operating area in support of our national interests.

    Question 58. What policy reviews are currently underway for 
examining U.S. presence in the Arctic, and Coast Guard Arctic 
capabilities such as the strength of our polar icebreaker fleet?
    Answer. National Security Presidential Directive-66 (NSPD-66) / 
Homeland Security Presidential Directive-25 (HSPD-25) is the governing 
U.S. national policy for the Arctic Region. This document (published in 
January 2009) supersedes Presidential Decision Directive-26 (PDD-26 of 
1994) with respect to Arctic policy but not Antarctic policy; PDD-26 
remains in effect for Antarctic policy only. The Coast Guard's presence 
in the Arctic and requirements for mission execution in the region are 
governed by U.S. national policy, statutes, and implementing 
regulations. In addition, the Obama Administration has created an 
Interagency Ocean Policy Task Force to, among other things, develop a 
national policy for the ocean, our coasts, and the Great Lakes, which 
will be applicable to the Arctic. The efforts of this Task Force are 
not yet complete.
    Operational resource requirements will be determined by a variety 
of both internal and external studies and assessments. The Coast Guard 
contracted a study of current and future Arctic and Antarctic 
influences and drivers and their relation to Coast Guard missions in 
the high latitude Polar Regions. The study will provide the Coast 
Guard's perspective of current and projected polar mission requirements 
and the gaps in capabilities needed to execute its missions in these 
critical regions. The expected delivery of the final report from the 
contractor is June 2010.

    Question 59. How many members of the U.S. Coast Guard have been 
discharged under the ``Don't Ask, Don't Tell'' policy since its 
inception? Please provide a breakdown by year.
    Answer. Over the past 5 years the Coast Guard has processed 81 
discharges related to this policy. The following breakdown is provided:

        FY 2004--16 total.

        FY 2005--15 total.

        FY 2006--11 total.

        FY 2007--18 total.

        FY 2008--21 total.

    Question 60. Press accounts have claimed that 34 percent of Coast 
Guard discharges under ``Don't Ask, Don't Tell'' are women, even though 
women only make up 7 percent of the Coast Guard. Is this true? If so, 
please explain the disproportionate nature of these discharges.
    Answer. Of the 81 discharges associated with this policy over from 
2004-2008, 28 (34.5 percent) were female. Women comprise 12.5 percent 
of the Coast Guard workforce. Each discharge has an independent set of 
facts and circumstances.

    Question 61. Is the Coast Guard currently participating in any 
discussions or reviews to reexamine the ``Don't Ask, Don't Tell'' 
policy?
    Answer. The Coast Guard is not actively participating in 
discussions or reviews of the ``Don't Ask, Don't Tell'' policy.

                                  <all>

</pre></body></html>
